<html>
<title> - NASA'S FISCAL YEAR 2011 BUDGET REQUEST AND ISSUES</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
                        NASA'S FISCAL YEAR 2011
                       BUDGET REQUEST AND ISSUES

=======================================================================

                                HEARING

                               BEFORE THE

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 25, 2010

                               __________

                           Serial No. 111-80

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
55-837                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 HON. BART GORDON, Tennessee, Chairman
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
DAVID WU, Oregon                     LAMAR S. SMITH, Texas
BRIAN BAIRD, Washington              DANA ROHRABACHER, California
BRAD MILLER, North Carolina          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            VERNON J. EHLERS, Michigan
GABRIELLE GIFFORDS, Arizona          FRANK D. LUCAS, Oklahoma
DONNA F. EDWARDS, Maryland           JUDY BIGGERT, Illinois
MARCIA L. FUDGE, Ohio                W. TODD AKIN, Missouri
BEN R. LUJAN, New Mexico             RANDY NEUGEBAUER, Texas
PAUL D. TONKO, New York              BOB INGLIS, South Carolina
STEVEN R. ROTHMAN, New Jersey        MICHAEL T. McCAUL, Texas
JIM MATHESON, Utah                   MARIO DIAZ-BALART, Florida
LINCOLN DAVIS, Tennessee             BRIAN P. BILBRAY, California
BEN CHANDLER, Kentucky               ADRIAN SMITH, Nebraska
RUSS CARNAHAN, Missouri              PAUL C. BROUN, Georgia
BARON P. HILL, Indiana               PETE OLSON, Texas
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
KATHLEEN DAHLKEMPER, Pennsylvania
ALAN GRAYSON, Florida
SUZANNE M. KOSMAS, Florida
GARY C. PETERS, Michigan
JOHN GARAMENDI, California
VACANCY
                            C O N T E N T S

                           February 25, 2010

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Bart Gordon, Chairman, Committee on 
  Science and Technology, U.S. House of Representatives..........    20
    Written Statement............................................    21

Statement by Representative Pete Olson, Acting Ranking Minority 
  Member, Committee on Science and Technology, U.S. House of 
  Representatives................................................    23
    Written Statement............................................    24

Prepared Statement by Representative Gabrielle Giffords, Member, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    25

Prepared Statement by Representative Jerry F. Costello, Member, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    27

Prepared Statement by Representative Alan Grayson, Member, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    28

                               Witnesses:

Charles F. Bolden, Jr., Administrator, National Aeronautics and 
  Space Administration
    Oral Statement...............................................    29
    Written Statement............................................    30
    Biography....................................................    46

Discussion.......................................................    47

             Appendix 1: Answers to Post-Hearing Questions

Charles F. Bolden, Jr., Administrator, National Aeronautics and 
  Space Administration...........................................    84

             Appendix 2: Additional Material for the Record

Additional Responses from Charles F. Bolden, Jr., Administrator, 
  National Aeronautics and Space Administration..................   118


           NASA'S FISCAL YEAR 2011 BUDGET REQUEST AND ISSUES

                              ----------                              


                      THURSDAY, FEBRUARY 25, 2010

                  House of Representatives,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 10:05 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Bart Gordon 
[Chairman of the Committee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                            hearing charter

                     U.S. HOUSE OF REPRESENTATIVES

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                        NASA's Fiscal Year 2011

                       Budget Request and Issues

                      thursday, february 25, 2010
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

Purpose:

    On Thursday, February 25, 2010 at 10:00 a.m., the Committee on 
Science and Technology will hold a hearing on the National Aeronautics 
and Space Administration's (NASA) Fiscal Year (FY) 2011 Budget Request 
and Issues.

Witness:

Charles F. Bolden, Jr.
Administrator
National Aeronautics and Space Administration

BACKGROUND INFORMATION

Overview
    The National Aeronautics and Space Administration (NASA), which was 
established in 1958, is the nation's primary civil space and 
aeronautics R&D agency. The estimated Civil Service Full-Time 
Equivalent (FTE) workforce level for FY 11 is 18,354. NASA has ten 
field Centers, including the Jet Propulsion Laboratory (JPL), a 
federally Funded Research and Development Center (FFRDC). NASA conducts 
research and development activities in a wide range of disciplines 
including aeronautics, astrophysics, heliophysics, planetary science, 
Earth science and applications, human space flight, microgravity 
research, and technology development. NASA also operates a fleet of 
three Space Shuttles and is completing assembly of and operating/
utilizing the International Space Station (ISS). NASA has also had a 
program underway to develop a new crew exploration vehicle and crew 
launch vehicle system to enable U.S. access to the ISS after the 
retirement of the Shuttle and to enable crewed missions beyond low 
Earth orbit, including working towards the goal of returning Americans 
to the Moon by 2020. NASA also maintains a space communications network 
that supports both NASA missions and other user requirements. As of 
fiscal year 2008, the most recent date for which complete data are 
available, about 83 percent of NASA's budget was for contracted work. 
In addition, a number of NASA's scientific and human space flight 
activities involve collaboration with international participants.
    The rollout of the President's FY 11 request for NASA included 
limited information, and the detailed budget justification document was 
not available to Congress until this past weekend. This hearing is 
intended to examine the key policy changes proposed in the budget 
request as well as issues raised by those changes. The Committee's 
Subcommittee on Space and Aeronautics plans to hold additional hearings 
to examine the Administration's request in more detail.

NASA Budgetary Information
    NASA's proposed budget for FY 11 is $19 billion, an increase of 1.5 
percent over the enacted FY 10 appropriation of $18.7 billion for NASA. 
Funding for NASA is projected to increase by an average of 2.5 percent 
per year from FY 12 through FY 15. Attachment 1 summarizes the FY 11 
budget request and its five-year funding plan. Attachment 2 provides an 
overview on the extent to which the FY 11 budget proposal responds to 
the NASA Authorization Act of 2008 [P.L. 110-422]. It should be noted 
that in FY 09, the American Recovery and Reinvestment Act [P.L. 111-5] 
included $1 billion for NASA's Earth science, aeronautics, and 
exploration programs, cross-agency support, and Inspector General. 
Recovery Act funds are to be expended by September 30, 2010.
    The structure of the accounts presented in the FY 11 budget request 
remains largely the same as in the FY 10 budget request with the 
exception of two changes. Pursuant to language in the Statement of 
Managers of the Consolidated Appropriations Act, 2010, the proposed 
NASA budget combines and organizes funding for repair or modification 
of NASA facilities, construction of new facilities, and managing of 
environmental clean-up from individual Directorates into a new account-
Construction and Environmental Compliance and Restoration. In addition, 
the President's request for NASA adds a new advanced space technology 
initiative in an account with aeronautics research that is entitled, 
``Aeronautics and Space Research and Technology.''

NASA and the Administration's Overall FY 2011 Budget Request
    In the context of the overall Federal budget, NASA's average annual 
percentage of total budget authority from FY 1976-FY 2009 [which 
excludes the Apollo era], is 0.79 percent and the average annual 
percentage of total discretionary budget authority over the same time 
period is 2.05 percent. The percentage share of the budget devoted to 
NASA has declined from this average over the past ten years, and the FY 
11 request for NASA would decrease NASA's share of total budgetary 
authority to 0.51 percent and its percentage of the total discretionary 
budget authority down to 1.50 percent. If one applies the 2.05 percent 
historical average to the total Federal discretionary budget authority 
of $1.26 trillion in the Administration's FY 11 budget request, the 
result would be a NASA funding level in FY 11 of approximately $25.9 
billion.

Key Changes and Initiatives from FY 10 Budget Proposal

Human Spaceflight

    In its FY 10 Budget request, the Administration maintained the 
Congressionally-authorized policy of returning Americans to the Moon:
    ``The Agency will create a new chapter of this legacy as it works 
to return Americans to the Moon by 2020 as part of a robust human and 
robotic space exploration program.''
    The FY 11 request for NASA no longer maintains a return to the Moon 
as the next step in human spaceflight and exploration.
    With regards to a post-Shuttle human launch system and commercial 
services for cargo and crew delivery to the International Space 
Station, the FY 10 budget request for NASA stated that ``Funds freed 
from the Shuttle's retirement will enable the Agency to support 
development of systems to deliver people and cargo to the International 
Space Station and the Moon. As part of this effort, NASA will stimulate 
private-sector development and demonstration of vehicles that may 
support the Agency's human crew and cargo space flight requirements.'' 
In contrast, the FY 11 request for NASA ``funds NASA to contract with 
industry to provide astronaut transportation to the International Space 
Station as soon as possible, reducing the risk of relying solely on 
foreign crew transports for years to come.''
    The FY 11 request for NASA proposes the following for NASA's human 
spaceflight activities:

        <bullet>  Cancels the Constellation Program and provides a 
        total of $2.5 billion for FY 11 and FY 12 for close-out costs 
        and contract termination;

        <bullet>  Initiates three new technology development lines 
        within the Exploration Systems Mission Directorate focusing on:

                  Flagship Technology Demonstrations that have a 
                stated goal of reducing costs and increasing 
                capabilities for future exploration ($652 million in FY 
                11),

                  Heavy-lift and propulsion research and development 
                ($559 million in FY 11), and

                  Robotic precursor missions described as being 
                developed to identify potential locations for 
                exploration and demonstrate technologies to increase 
                safety ($125 million in FY 11);

        <bullet>  Invests $6 billion on the development of commercial 
        human spaceflight over five years;

        <bullet>  Increases the Space Shuttle Program budget by $600 
        million in FY 11 to fund the safe completion of the Space 
        Shuttle manifest into the first quarter of FY 11, if needed; 
        and

        <bullet>  Provides an additional $429 million in FY 11 for 
        ``21st Century Space Launch Complex.''

    The FY 10 budget proposal stated that ``NASA will fly the Space 
Shuttle to complete the International Space Station . . .'' In 
addition, it said that ``NASA will continue to assemble and utilize the 
International Space Station, the permanently crewed facility orbiting 
Earth that enables the Agency to develop, test, and validate critical 
space exploration technologies and processes.'' No mention was made of 
extending ISS operations. In its FY 11 request for NASA, the 
Administration proposes extending ISS operations and increasing 
utilization: ``The President's Budget provides funds to extend 
operations of the Space Station past its previously planned retirement 
date of 2016. . . . NASA will maximize return on this investment by 
deploying new research and test technologies in space and by making 
Space Station research capabilities available to educators and new 
researchers.''
    Specifically, the FY 11 request for NASA's International Space 
Station Program includes:

        <bullet>  An increase of $463 million over the FY 10 enacted 
        budget (and $231.6 million over the amount requested for the 
        ISS in the President's FY 10 budget proposal) and an increase 
        of $2 billion from FY 11-FY 14 as compared to the FY 10 budget 
        request to be used for supporting the ISS National Laboratory 
        and increasing Station capabilities, according to NASA's FY 11 
        budget overview materials.

        <bullet>  The FY 11 budget will cover the transportation costs 
        to and from the ISS to support ISS research conducted by 
        National Laboratory users. The previous plan was to require 
        National Laboratory users to pay for their own transportation 
        costs.

Science

    The FY 11 request for NASA's Science Mission Directorate continues 
to make Earth science and climate change research a priority, following 
the emphasis placed on these areas in the Administration's FY 10 budget 
proposal. Key changes for NASA's Science programs include:

        <bullet>  A proposed increase of $300 million in FY 11 for 
        Earth observations and climate satellites and research, largely 
        for the reflight of the Orbiting Carbon Observatory (OCO), a 
        scientific mission slated to monitor global carbon sources and 
        sinks that was lost in a February 2009 launch failure;

        <bullet>  Requests funds to restart, in a cost-sharing 
        arrangement with the Department of Energy (DOE), the production 
        of plutonium-238 to support future exploration missions; and

        <bullet>  Initiates a high-priority solar probe mission.

Aeronautics

        <bullet>  Proposes increases of $73 million for FY 11 for 
        aeronautics, which includes funding for NASA's Environmentally 
        Responsible Aviation project.

Education

        <bullet>  Requests $20 million in FY 11 for new STEM education 
        pilot projects.

Space Technology

        <bullet>  Requests $572 million in FY 11 to initiate a new 
        agency-wide program to develop and test advanced space 
        technologies.

PROGRAM AREAS

Human Space Flight
    With its release of the FY 10 budget request for NASA, the 
Administration announced the establishment of an independent review of 
NASA's human space flight activities. In addition, the FY 10 budget 
request proposed a total cut of over $3 billion from NASA's Exploration 
Systems budget over five years, relative to the FY 2009 budget plan. 
The Administration indicated that an updated request would be 
forthcoming pending the outcome of the review. The Review of Human 
Spaceflight Plans Committee, chaired by retired Lockheed Martin 
executive Norman Augustine, delivered its final report in October 2009. 
The overarching conclusion of the review was that ``the U.S. human 
spaceflight program appears to be on an unsustainable trajectory.'' The 
committee maintained that ``Meaningful exploration beyond low-Earth 
orbit is not viable under the FY 2010 budget guideline'' and that 
``Meaningful human exploration is possible under a less-constrained 
budget, increasing annual expenditures by approximately $3 billion in 
real purchasing power above the FY 2010 guidance.'' For FY 11, the 
President's request includes $4.3 billion for Exploration Systems, a 
reduction of $1.8 billion from the budget plan for Exploration in FY 11 
that was included in the FY 10 budget request runout. The 
Administration's proposed plans for future human spaceflight activities 
were included as part of its FY 11 budget request for NASA. The FY 11 
budget request includes limited details on the plans.

Constellation

    As part of its request for Exploration, the Administration proposes 
to cancel the Constellation Program, which consists of the Ares I crew 
launch vehicle and Orion crew exploration vehicle, the Ares V heavy-
lift launch vehicle, associated ground systems, and lunar systems. 
Constellation was the architecture established to deliver Americans to 
the ISS and later to the Moon and other destinations in the solar 
system following the retirement of the Space Shuttle. As of January 
2010, NASA reported that it has spent a total of about $9 billion on 
Constellation. In the Statement of Managers accompanying the FY 10 
Consolidated Appropriations Act, ``The conferees note that the 
Constellation program is the program for which funds have been 
authorized and appropriated over the last four years, and upon which 
the pending budget request is based. Accordingly, it is premature for 
the conferees to advocate or initiate significant changes to the 
current program absent a bona fide proposal from the Administration and 
subsequent assessment, consideration and enactment by Congress.'' The 
Statement of Managers also states that ``Funds are not provided herein 
to initiate any new program, project or activity, not otherwise 
contemplated within the budget request and approved by Congress, 
consistent with section 505 of this Act, unless otherwise approved by 
the Congress in a subsequent appropriations Act. Funds are also not 
provided herein to cancel, terminate or significantly modify contracts 
related to the spacecraft architecture of the current program, unless 
such changes or modifications have been considered in subsequent 
appropriations Acts.'' Similar language was included in the Act itself.
    The President's FY 11 request for NASA includes a total of $2.5 
billion for FY 11-FY 12 in ``close-out costs'' for Constellation and 
any additional costs for Shuttle transition.
    In its place, the President's request focuses on supporting the 
development of commercial capabilities to deliver crew to the ISS and 
on developing innovative, advanced technologies, among other proposed 
activities.
    Some of the issues and questions raised by the proposal include the 
following:

        <bullet>  In discussing the potential to use commercial 
        services to transport crew to low-Earth orbit, the Augustine 
        Committee report stated that ``there are simply too many risks 
        at the present time not to have a viable fallback option for 
        risk mitigation.'' However, in proposing a major investment in 
        the development of commercial crew capability, the FY 11 
        request does not include a fallback option. What is the 
        rationale for the decision not to include a government-led crew 
        transport system development program as a ``fallback option''?

        <bullet>  The FY 11 budget request does not propose a concrete 
        plan or mission for human exploration beyond low-Earth orbit or 
        development of a heavy-lift launcher to enable such 
        exploration. Therefore, in proposing commercial crew services 
        for low-Earth orbit, the Administration in essence relinquishes 
        U.S. government capability to send humans into space after the 
        Shuttle is retired for the foreseeable future. What would be 
        the implications of relinquishing the U.S. government 
        capability to launch humans into low-Earth for the maintenance 
        of specialized technical skills, facilities, industrial base 
        capabilities, national security, global competitiveness, and 
        geopolitical standing? To what extent were these issues 
        considered in formulating the proposal to pursue commercial 
        crew services?

        <bullet>  With the retirement of the Space Shuttle and the 
        cancellation of all of the Constellation contracts occurring at 
        the same time under the Administration's proposal, and the 
        inevitable gap that will occur in the awarding of any new 
        contracts for alternative activities due to the time required 
        for such contracts to be developed, competed, and negotiated, 
        what will the impact be on the aerospace workforce that had 
        been working on Shuttle and Constellation? How many workers 
        will be affected, and to what extent was disruption to the 
        workforce considered in the formulation of the Administration's 
        human space flight plans?

        <bullet>  What is the plan for the disposition of facilities 
        constructed to support and develop the Constellation Program?

        <bullet>  What implications does the proposed cancellation of 
        Constellation have for other Federal agencies, such as the 
        Department of Defense's (DOD) space industrial base? To what 
        extent were the Administration's plans for NASA's human space 
        flight program vetted with other agencies such as DOD before a 
        decision was made?

Commercial Crew and Cargo

    The request includes a total of $812 million in FY 11 and a total 
of about $6 billion for FY 11-FY 15 for commercial space flight as part 
of NASA's Exploration Systems Mission Directorate funding. The total 
includes a request of $500 million in FY 11 for fostering the 
development of commercial companies to deliver crew to the ISS and 
proposes $312 million in FY 11 for ``additional incentives'' for NASA's 
existing Commercial Orbital Transportation Services (COTS) program, 
which is supporting commercial development of vehicles to deliver cargo 
to the ISS. According to NASA, no decisions have been made on whether 
NASA would use a Space Act Agreement or other mechanism to implement a 
commercial crew program. In addition, according to NASA officials, no 
decisions have been made on the cost-sharing, if any, that commercial 
companies would be required to contribute to a commercial crew 
development program; the level of safety requirements they would be 
expected to meet; or the level of non-government market the commercial 
business plans would be expected to support. NASA also is unable to 
provide at this time a timetable for when NASA would have a 
demonstrated capability from potential commercial providers that would 
allow the agency to actually procure commercial crew services to low-
Earth orbit.
    To provide the full scope of NASA's current and proposed support 
for commercial spaceflight activities, NASA's Space Operations Mission 
Directorate awarded Commercial Resupply Service (CRS) contracts in 
December 2008 valued at a total of about $3.5 billion to provide 
commercial cargo services to the International Space Station. The 
awards were made to Space Exploration Technologies (SpaceX) and Orbital 
Sciences Corporation in advance of any demonstrated capability by the 
companies to actually deliver cargo to the ISS. In addition, NASA plans 
to support a Commercial Reusable Suborbital Research (CRuSR) project to 
``competitively secure flight services for experimental payloads 
supporting NASA's objectives in science, technology and education'' 
according to NASA's Fiscal Year 2011 Budget Estimates book. At present, 
no commercial reusable suborbital launch vehicle services are in 
existence. NASA plans to support commercial spaceflight as part of its 
Facilitated Access to the Space Environment for Technology Development 
and Training (FAST) project, which ``provides opportunities for 
emerging technologies to be tested in the space environment thereby 
increasing their maturity and the potential for their use in NASA 
programs and in commercial applications'' according to NASA's Fiscal 
Year 2011 Budget Estimates book. ``The FAST project promotes the growth 
of emerging commercial space services by employing competitively 
selected private reduced gravity flight services.''
    Some of the issues and questions raised by the commercial crew and 
cargo proposals include the following:

        <bullet>  How was the estimate of $6 billion for development of 
        commercial crew derived?

        <bullet>  What is the basis for cost savings assumed to be 
        accrued from commercial crew services?

        <bullet>  What contingencies are in place should a commercial 
        crew provider's business fail and shut down?

        <bullet>  On what basis does NASA estimate that commercial crew 
        services will be available by 2016?

        <bullet>  What is the basis for proposing a $312 million 
        ``incentive'' for the COTS program, given that the companies 
        involved already have the incentive of a total of $3.5 billion 
        for the follow-on contract? How will the proposed funding be 
        used?

        <bullet>  Who assumes the liability for astronauts or 
        researchers transported on commercial crew vehicles?

        <bullet>  In the absence of an alternative government system, 
        what recourse will the government have if commercial crew 
        vehicles are unable to attain the safety standard set by NASA?

        <bullet>  In the absence of an alternative government system, 
        how will the pricing of the commercial crew transport services 
        be set and enforced?

        <bullet>  How many jobs is NASA assuming will be created by the 
        proposal to seek commercial crew services to support the ISS? 
        What is the basis of those assumptions?

Advanced Technology Development

    The FY 11 budget request initiates three technology and R&D 
programs in the Exploration Systems Mission Directorate.

        <bullet>  Exploration Technology and Demonstrations Program

           The President's request proposes $652 million in FY 11 and a 
        total of $7.8 billion to fund an ``Exploration Technology and 
        Demonstrations'' program. The program will support Flagship 
        Technology Demonstrations, projects at the level of $400 
        million to $1 billion over less than five years to demonstrate 
        technologies such as in-orbit propellant transfer and storage, 
        inflatable modules, and closed-loop life support systems, among 
        other activities. The proposed program will also support an 
        Enabling Technology Development Program to consist of smaller 
        and shorter duration projects at the level of $100 million or 
        less. Those projects are expected to be competitively selected 
        and will demonstrate key technologies such as in-situ resource 
        utilization and advanced in-space propulsion. NASA has 
        indicated that it is developing a plan for the program. There 
        are no details on how the projects would be prioritized or 
        selected and what NASA would expect as ``deliverables'' for 
        these projects. In addition, it is not clear at what point NASA 
        would expect to have the capabilities in hand, based on the 
        technology development programs, to make a determination on a 
        target, mission, plan and architecture for a human exploration 
        mission beyond low-Earth orbit.

        <bullet>  Heavy-Lift and Propulsion Technology

           The proposed FY 11 budget for NASA's Exploration programs 
        includes $559 million in FY 11 and $3.1 billion for the FY 11-
        FY 15 period to support space launch propulsion technology 
        research and development. NASA indicates that it intends to 
        develop a new RD-180 class hydrocarbon rocket engine with funds 
        from this account, but it has not yet articulated the 
        requirement for such an engine. The projects may involve intra-
        governmental, commercial, academic and international 
        partnerships.

        <bullet>  Exploration Precursor Robotic Missions

           The budget proposal requests $125 million in FY 11 and $3 
        billion over FY 11-FY 15 to develop and deploy robotic 
        precursor missions to locations such as the Moon, Mars and its 
        moons, Lagrange points and nearby asteroids. It is unclear how 
        the missions, e.g., to Lagrange points, would differ from 
        previous robotic spacecraft missions, or what the urgency of 
        those missions would be in the absence of a timetable for human 
        missions to those locations. According to NASA budget 
        materials, the program will support missions costing $800 
        million or less.

    Several issues and questions raised by the Exploration Technology 
and Development program proposals include the following:

        <bullet>  What was the basis for the budget numbers proposed 
        for these programs?

        <bullet>  What are the goals and milestones for technology 
        development?

        <bullet>  In the absence of an overarching vision and concrete 
        mission, how will these technologies be applied?

        <bullet>  In the absence of an overarching vision and concrete 
        mission, what is the risk that technology development funds 
        will be used to support other objectives?

        <bullet>  What are the requirements against which advanced 
        technology developments will be conducted and what are the 
        metrics to measure progress?

        <bullet>  NASA budget materials indicate that part of the 
        purpose of these technology programs is to reduce the costs and 
        increase the capabilities of space activities. How does NASA 
        plan to establish metrics for the cost reductions to be accrued 
        and the enhanced capabilities to be achieved? What are the 
        criteria for success?

        <bullet>  The former robotic precursor program was conceived 
        with lunar exploration in mind. How will the funding for the 
        program be prioritized given the wide range of potential 
        activities it will undertake?

        <bullet>  There is scientific interest in all of the potential 
        targets the robotic precursor missions might explore. What is 
        the role of the Science Mission Directorate (SMD) in this 
        activity? To what extent will this program leverage SMD's long-
        term experience in robotics and the potential target areas 
        listed?

        <bullet>  One proposed activity for the robotic precursor 
        program is to land a robot on the Moon that can be remotely 
        operated and that can transmit near real-time video from the 
        Moon. What would be the justification for such a project when 
        the Google Lunar X Prize, which is a private activity, has 
        nearly identical objectives?

        <bullet>  As NASA seeks to broaden its technology development 
        programs and include participation, to some extent, from 
        international partners, what are the challenges? To what extent 
        will information security and International Traffic in Arms 
        Regulations (ITAR) pose issues for the programs and how will 
        NASA address those challenges?

Space Shuttle

    The proposed FY 11 budget request includes approximately $989 
million for the Space Shuttle Program, an increase of about $600 
million over that requested in FY 10 for the FY 11 Shuttle Program. The 
increases support the completion of the Shuttle manifest into the first 
quarter of FY 11, if necessary. If the manifest is completed by the end 
of FY 10, NASA indicates that it will work with the Administration and 
Congress to prioritize use of the additional funds. Once the flights 
are completed, NASA will augment its work on transition and retirement 
of the Shuttle.
    Under the Constellation Program, NASA was in the process of 
leveraging workforce synergies between Shuttle and Constellation and 
planned to transfer many Shuttle civil servants to Constellation. With 
the proposed shift in NASA's direction, the Shuttle Program will 
evaluate whether some of the Shuttle workforce could be tasked to new 
initiatives, including technology demonstration programs.
    Some issues and questions related to the Shuttle Program include 
the following:

        <bullet>  The 2009 Annual Report of the Aerospace Safety 
        Advisory Panel notes that ``Successful workforce transition 
        depends heavily on a decision being made about NASA's 
        direction.'' What steps is NASA taking to ensure the workforce 
        remains focused on safely flying out the Shuttle manifest at a 
        time when the proposed direction for NASA in the FY 11 request 
        largely eliminates a government follow-on to the Shuttle and 
        does not include funding for work on a heavy-lift launcher?

        <bullet>  The Augustine Committee noted the importance of 
        maintaining critical workforce skills and capabilities such as 
        the design and manufacturing of solid propellant motors. To 
        what extent does NASA's proposed redirection affect those 
        critical skill areas and what, if any, plans does NASA have to 
        address this issue? To what extent is NASA identifying other 
        skills used in the Shuttle and Constellation programs that 
        should be preserved as critical national capabilities?

        <bullet>  How much time can lapse before the U.S. cannot access 
        the critical skills needed to develop and operate a heavy-life 
        vehicle?

        <bullet>  How will decisions be made on the disposition of 
        Shuttle orbiters to external institutions? What are the 
        criteria for those decisions?

International Space Station

    As part of its FY 11 budget proposal for NASA, the Administration 
supports the extension and utilization of the ISS: ``The President's 
Budget provides funds to extend operations of the Space Station past 
its previously planned retirement date of 2016 . . . NASA will maximize 
return on this investment by deploying new research and test 
technologies in space and by making Space Station research capabilities 
available to educators and new researchers.'' To support the extension 
and increased utilization of the ISS, the Administration requests 
approximately $2.8 billion for the ISS in FY 11, an increase of about 
$463 million over that enacted in FY 10 and an increase of about $230 
million from that projected for FY 11 in the FY 10 budget submission. 
The Augustine Committee, among other external advisory bodies, noted 
the importance of extending ISS operations and utilization. In 
addition, the NASA Authorization Act of 2008 directed NASA to ``take 
all necessary steps to ensure that International Space Station remains 
a viable and productive facility . . . through at least 2020.'' 
According to NASA officials, the decision to extend ISS operations is 
critical to the agency's ability to plan for utilizing the ISS National 
Laboratory, decision making and planning with international partners, 
and working to plan for future cargo transportation needs.
    The NASA Authorization Act of 2005 designated the ISS a National 
Laboratory for use by the private sector and other Federal entities. 
According to NASA, up to 50 percent of ISS research capability may be 
available to support non-NASA users. NASA has engaged in National 
Laboratory partnerships with the National Institutes of Health and the 
Department of Agriculture. NASA has also entered into Space Act 
Agreements with private companies. Research that is ongoing or planned 
as part of the National Laboratory includes vaccine development, 
telemedicine, environmental testing among other research areas. Many of 
the systems and research being demonstrated are intended to have 
significant ground-based applications. The President's FY 11 request 
includes funding to pay for the transportation costs required to 
support National Laboratory user research on the ISS. This proposal 
represents a departure from the FY 10 plan, which was to require ISS 
National Lab users to cover their own transportation costs for 
accessing the ISS.
    Several issues and questions related to the future of the ISS 
include the following:

        <bullet>  What are the implications and contingencies for ISS 
        utilization should the availability of commercial cargo 
        transportation services be delayed considerably?

        <bullet>  How will internal NASA users--Exploration, Science, 
        Space Operations--determine their own priorities?

        <bullet>  The NASA Authorization Act of 2008 directed NASA to 
        ``identify the organization to be responsible for managing 
        United States research on the International Space Station . . 
        .'' A recent Government Accountability Office (GAO) report, 
        ``International Space Station: Significant Challenges May Limit 
        On-orbit Research'' also noted that other large research 
        institutions include a research management entity. What are 
        NASA's plans for a research management organization?

        <bullet>  Who or what organization will determine the 
        priorities for National Laboratory research conducted on the 
        ISS as well as who gets access to available transportation 
        capacity?

        <bullet>  The GAO also noted that ``NASA's staff members in ISS 
        fundamental science research areas have been decentralized or 
        reassigned, limiting its capability to provide user support.'' 
        What are NASA's plans for rejuvenating interest in ISS 
        fundamental science research areas?

        <bullet>  In comparing NASA ISS with other major research 
        laboratories and institutes, GAO found NASA's outreach to 
        potential users limited. What are NASA's plans to enhance user 
        outreach?

        <bullet>  Other issues relate to NASA's reliance on commercial 
        cargo transportation service, e.g., to what extent do cargo 
        providers understand user requirements and are they planning to 
        meet them?

21st Century Space Launch Complex

    The President's proposal for FY 11 includes $429 million in FY 11 
and a total of about $2.1 billion from FY 11-FY 15 for a 21st Century 
Space Launch Complex at Cape Canaveral [run by the USAF] and Cape 
Kennedy. To date, NASA has provided only limited details on what might 
be involved, the goals included in overview budget materials include 
increasing the operational efficiency of the Center and reducing launch 
costs for NASA and other launch site users, including commercial cargo 
service providers.

        <bullet>  What was the process used to identify infrastructure 
        at Cape Canaveral as a priority as opposed to another NASA 
        facility?

        <bullet>  To the extent that funds are used to reduce launch 
        costs for commercial cargo service providers, will those 
        providers reduce their planned prices to carry government cargo 
        or otherwise share in the cost of the improvements?

        <bullet>  What is the basis of the estimate of $429 million in 
        FY 11 and $2 billion total to support the modernization?

        <bullet>  What is the basis of the requirement for the 21st 
        Century Launch Complex in the wake of the proposed cancellation 
        of the Ares launch vehicle programs?

        <bullet>  To what extent, if at all, has this proposed 
        initiative been coordinated with DOD?

        <bullet>  What assumptions is NASA making about the outcomes 
        from this project in terms of efficiency, throughput, cost 
        savings, etc.?

        <bullet>  What are the priorities for spending the $429 million 
        within the FY 11 year?

        <bullet>  What is the target completion date, and would there 
        be any potential disruption or risk to ongoing launch services 
        during the upgrade?

        <bullet>  When will detailed plans be available for this 
        project?

        <bullet>  Why is this project not included in NASA's facilities 
        and maintenance budget line and prioritized against other NASA 
        facilities needs?

Earth Science
    The President's budget for FY 11 requests $1.8 billion for Earth 
science research, applications, Earth observing missions, education and 
outreach, and technology development, an increase of about $380 million 
over the FY 10 enacted budget. The runout for FY 11-FY 14 proposed in 
the budget represents an increase of about $1.8 billion as compared to 
the FY 10 request's runout. According to the Budget of the U.S. 
Government Fiscal Year 2011, the budget proposal for Earth science 
``accelerates the development of new satellites the National Research 
Council recommended as Earth Science priorities'' thereby continuing 
support for Earth science missions provided in the FY 10 request. The 
Administration's proposal also ``supports several research satellites 
currently in development, a campaign to monitor changes in polar ice 
sheets, and enhancements to climate models. In addition, the Budget 
provides funds for NASA to develop and fly a replacement for the 
Orbiting Carbon Observatory, a mission designed to identify global 
carbon sources and sinks that was lost when its launch vehicle failed 
in 2009.''
    The FY 10 appropriation for NASA provided $15 million to continue 
studies of the second pair of Earth Science decadal survey missions--
the Climate Absolute Radiance and Refractivity Observatory (CLARREO) 
and the Deformation, Ecosystem Structure, and Dynamics of the Ice 
(DESDnyI) mission to be implemented. Of the 15 missions recommended for 
implementation by NASA, two missions--the Soil Moisture Active-Passive 
(SMAP) and the Ice Satellite II (ICESat)--have entered the formulation 
phase, CLARREO and DESDnyI are in the concept study phase.

Other Earth Science Program Areas

    The proposed FY 11 budget request includes increases through FY 14 
for Earth Science technology to provide new and enhanced capabilities 
and measurements, for example, while the Multi-Mission Operations line 
remains essentially flat. Over the FY 11-FY 15 budget horizon, the 
budget plan includes modest increases for NASA's Applied Sciences 
program involving the development of decision support tools that apply 
the research results of NASA's Earth science missions to support other 
Federal agency and institutional missions in the areas of climate, 
ecosystems, agriculture, water, disaster management and other areas 
that benefit society. How or to what extent NASA will use the Applied 
Sciences Program for decision support for stakeholders, especially in 
the area of climate change, is a potential issue to explore in the 
hearing.

National Polar-orbiting Operational Environmental Satellite System

    In addition, the Administration's FY 11 budget proposes a major 
restructuring of the National Polar-orbiting Operational Environmental 
Satellite System (NPOESS) which was structured as an integrated tri-
agency program to meet civil and military requirements for 
environmental data. The restructuring will involve dissolving the NASA-
National Oceanic and Atmospheric Administration (NOAA)-DOD tri-agency 
Integrated Program Office and relegating responsibilities for portions 
of the program to NOAA/NASA and DOD. The three agencies will continue 
to coordinate their roles in environmental satellite observations. NOAA 
and NASA would have responsibility for the afternoon orbit of the 
program in what is called the Joint Polar Satellite System. DOD would 
have responsibility for the early morning orbit and existing European 
and DOD assets would be expected to continue providing other coverage. 
NOAA would exercise its ongoing relationship with NASA to procure 
instruments and spacecraft bus elements. The NASA budget request for FY 
11 does not include any budget impacts as a result of this 
restructuring, however the changes are expected to have implications 
for NASA as it assumes procurement responsibility for significant 
elements of the former NPOESS program.
    Key Issues for Earth Science include the following:

        <bullet>  In FY 10 the Administration requested increases of 
        more than $1.2 billion over the FY 09-FY 13 period, including 
        Recovery Act funds, for ``accelerating'' Earth Science Decadal 
        Survey and foundational Earth science missions. Where are we 
        now and how much acceleration has been accomplished as a result 
        of these investments? How much ``acceleration'' is the United 
        States buying with the proposed FY 11 increases for decadal 
        survey missions?

        <bullet>  To what extent are Decadal survey missions reflecting 
        the scope of science identified in the Decadal survey and to 
        what extent are measurements being included? Who has the 
        ``say'' in determining the scope (which affects cost) of the 
        Decadal survey missions?

        <bullet>  To what extent are the ``foundational missions'' 
        making adequate progress toward meeting launch readiness dates?

        <bullet>  What are the implications of funding the OCO reflight 
        for the plans for implementing Decadal survey missions? To what 
        extent are groups discussing and planning to demonstrate the 
        use of OCO data for verifying potential climate agreements that 
        may be negotiated in the future?

        <bullet>  Does NASA plan to participate in NOAA's Climate 
        Services initiative and if so, how? To what extent, if at all, 
        will NASA's Applied Sciences program be involved?

        <bullet>  What are the implications of the NPOESS restructuring 
        for NASA? Will NASA have sufficient acquisitions staff in place 
        to manage the significant contracts for instruments and 
        spacecraft buses that NASA will handle on behalf of NOAA?

Space Science
    The President's FY 11 budget requests $3.2 billion (not including 
Earth science) to fund NASA's space science programs, including 
Heliophysics, which seeks to understand the Sun and how it affects the 
Earth and the solar system; Planetary Science, which seeks to answer 
questions about the origin and evolution of the solar system and the 
prospects for life beyond Earth; and Astrophysics, which seeks answers 
to questions about the origin, structure, evolution and future of the 
universe and to search for Earth-like planets. The FY 11 budget request 
for space science represents a decrease of about $44 million below the 
amount requested for space science in FY 10, and a reduction of about 
$171 million for FY 11-FY 14 from the projections in the FY 10 budget 
proposal. Over the FY 11-FY 14 period, the Astrophysics budget is 
increased by about $111 million, the Planetary Science program is 
reduced by approximately $57 million, and the Heliophysics budget 
decreases by about $225 million, as compared to the FY 10 budget 
projection for FY 11-FY 14. The FY 11 proposal also requests funds to 
move forward on the Solar Probe Plus mission, a high priority mission 
recommended in the National Research Council's decadal survey on solar 
and space physics.
    During 2009, NASA's space science program launched Kepler, a 
mission to search for Earth-sized planets near distant stars, the Wide-
field Infrared Survey Explorer (WISE), which will scan the sky in the 
infrared spectrum and also detect asteroids, the Lunar Reconnaissance 
Mission, which is mapping the lunar surface, the Lunar Observation and 
Sensor Satellite (LCROSS) that impacted a crater and confirmed the 
presence of water in the permanently shadowed crater. NASA also 
completed the fifth human servicing mission of the Hubble observatory 
since its launch in 1990.
    The FY 11 budget proposal for NASA proposes to restart U.S. 
production of plutonium-238, which is needed to support power sources 
for deep space missions and other exploration activities. The U.S. 
ceased production of the Pu-238 material decades ago and has lately 
been purchasing the material from Russia. The availability of future 
Russian supplies, however, is highly uncertain. NASA's budget 
information does not include details on the roles and responsibilities 
of NASA and DOE or how much is being requested for NASA to support 
restarting Pu-238 production.
    Key issues for space science include:

        <bullet>  The availability and cost of launch vehicles are 
        major factors in planning, designing and budgeting for space 
        science missions. The cost of launch vehicles appears to be 
        rising, the major medium-class workhorse--the Delta II--is no 
        longer available for future missions, and excess ballistic 
        missiles whose engines are used for a family of launchers are 
        in limited supply. What are the implications of this situation 
        for NASA's science program? What is NASA doing to address this 
        situation?

        <bullet>  To what extent will the FY 11 budget plan give NASA 
        flexibility to budget for new missions, especially those to be 
        recommended in the NRC's astronomy and astrophysics and 
        planetary science decadal surveys?

        <bullet>  The 2008 NASA Authorization Act directed the 
        Administrator to ``establish an intra-Directorate long-term 
        technology development program for space and Earth science . . 
        . for the development of new technology.'' The FY 11 request 
        for NASA proposes new initiatives and major investments of 
        several billion dollars for advanced technology, however, none 
        of the new initiatives specifically responds to the 
        Congressional direction. What is the rationale for not 
        establishing an intra-Directorate technology program in SMD?

        <bullet>  In recent years, some of NASA's science missions have 
        experienced considerable cost growth and schedule delays. To 
        what extent, if any, has SMD considered any new approaches in 
        types of spacecraft, instruments, or mission planning to help 
        address issues related to cost growth?

        <bullet>  How, if at all, does SMD plan to participate in the 
        Space Technology program? What types of technology developments 
        would SMD see as candidates for the program? What does SMD 
        believe will be its contributions to the Agency's emphasis on 
        innovation?

        <bullet>  What, if any, implications does the proposed 
        extension of the ISS have for SMD? What potential opportunities 
        for science does the ISS extension make possible?

        <bullet>  What role, if any, does SMD envision playing in the 
        precursor robotic program?

        <bullet>  What are the implications, if any, of the proposed 
        cancellation of Constellation on SMD?

        <bullet>  What are the implications for SMD, if any, of the 
        President's proposal to rely on commercial crew and cargo 
        services to LEO?

        <bullet>  How much will NASA spend on plutonium-238 restart and 
        what will it be used for? What are the roles, responsibilities, 
        and cost-sharing between NASA and DOE for restarting plutonium-
        238? How sustainable is the funding over the out-years?

        <bullet>  The FY 11 request includes increases to detect 
        asteroids that could pose hazards to Earth. How will those 
        increases be used and to what extent will this funding help 
        make progress on the congressional direction to detect, track, 
        catalogue, and characterize 90% of near-earth objects 140 
        meters in diameter or larger?

Aeronautics Research and Space Technology
    For FY 11, NASA is requesting $1.51 billion for aeronautics and 
space research and technology of which about $580 million is requested 
for aeronautics and $572 million for a Space Technology budget line.

Aeronautics Research

    NASA's aeronautics program has and continues to conduct fundamental 
and systems-level research to enable technical capabilities and 
economic benefits for the aviation industry and the nation. The goals 
of the program are 1) to carry-out advanced, cutting-edge research that 
will yield benefits for the aeronautics community and 2) to develop the 
concepts and enabling technologies that involve systems-level 
approaches.
    The FY 11 proposal increases aeronautics by $73 million over the FY 
10 enacted budget and by $300 million over the FY 11-FY 14 period as 
compared to the FY 10 budget projections.
    The additional budget for aeronautics will support new initiatives 
that would augment NASA's contribution to the Next Generation Air 
Transportation System (NextGen). NextGen is a joint effort between the 
Federal Aviation Administration (FAA), NASA, DOD, Department of 
Homeland Security and Department of Commerce that will transform the 
entire national air transportation system, gradually allowing aircraft 
to safely fly more closely, reduce delays, and provide benefits for the 
environment and the economy through reductions in carbon emissions, 
fuel consumption, and noise. Specifically the FY 11 proposal includes:

        <bullet>  An increase of $20 million to initiate a grants 
        program as part of NASA's environmentally responsible aviation 
        program,

        <bullet>  An increase of $20 million to support work on 
        verifying and validating software-based systems, and

        <bullet>  An increase of $30 million to support issues related 
        to incorporating unmanned aircraft systems in the national 
        airspace.

    Issues for Aeronautics Research include:

        <bullet>  Is NASA's research and development program able to 
        address important issues related to aviation's impact on the 
        environment, e.g., noise, emissions, and energy consumption, 
        under current funding levels?

        <bullet>  How effectively is NASA's aeronautics research and 
        development program supporting the Nation's NextGen initiative?

        <bullet>  How can NASA work more effectively with industry, 
        universities and colleges to carry out a meaningful aeronautics 
        research and development program?

Space Technology Program

    The FY 11 request proposes a new Space Technology Program, which is 
bookept under a programmatic line now called Aeronautics and Space 
Research and Technology. The request includes $572 million in FY 11, an 
amount that is projected to increase to over $1 billion in FY 12 and 
remain at that level through FY 15. In addition, the Space Technology 
Program aims to strengthen U.S. leadership in various research areas, 
and foster the development of future-oriented, long-term capabilities. 
The program will include the Innovative Partnerships Program (IPP), 
which was formally located within the Cross-Agency Support program. The 
Space Technology Program will expand partnerships with academia, 
industry, other Federal agencies and international institutions.
    The establishment of a Space Technology Program responds to recent 
NRC reports, as well as the Augustine Committee report, that have 
called for reinvigorating NASA's role in advanced technology. The 
Subcommittee on Space and Aeronautics held a hearing to examine the 
results of NRC reviews and other issues regarding advanced technology 
development at NASA. The FY 11 budget request for the Space Technology 
Program does not include details on how NASA plans to implement the 
program, including what the milestones, criteria for success, and 
measures of progress will be.
    Issues for Space Technology include:

        <bullet>  What is the basis for the amount being requested for 
        this program?

        <bullet>  To what extent does the absence of an overarching 
        mission such as returning humans to the Moon affect the 
        urgency, focus, and criteria for success for the space 
        technology program?

        <bullet>  The FY 11 request provides several hundreds of 
        millions of dollars (excluding the Innovative Partnership 
        Program funding) in new money to be spent within the first year 
        of the program's life. How realistic is it to assume that a new 
        program in its first year of existence will be able to properly 
        set priorities and goals, establish solicitations, vet the 
        solicitations, and make selections in a manner that will 
        efficiently and effectively spend those dollars?

        <bullet>  What plans and safeguards are needed to effectively 
        double the size of the program after the first year?

        <bullet>  How are priorities for the projects to be 
        established?

        <bullet>  Will all of the funding be competed and, if not, what 
        proportion will be spent at NASA Centers?

        <bullet>  How is NASA defining ``game-changing innovations''?

        <bullet>  NASA notes that the program seeks to increase the 
        capability and affordability of space activities. In this 
        regard, what is a reasonable contribution to expect from the 
        projects this program will fund?

        <bullet>  To what extent has NASA considered whether cost-
        sharing or financial contributions will be part of the 
        partnerships with commercial, other Federal agencies, or 
        external institutions that it will be pursuing to conduct 
        advanced technology development activities?

Space Communications
    The President's FY 11 budget requests $485 million for Space 
Communications and Navigation, about $54 million less than the amount 
projected for FY 11 in the FY 10 request and $32 million less than the 
enacted FY 10 budget. NASA has largely completed acquisitions to 
replenish aging Tracking and Data Relay Satellite (TDRS) spacecraft, 
which are used to support communications and tracking for the 
International Space Station (ISS), Space and Earth science missions, as 
well as other Federal Government agencies. During the next year, NASA 
will determine whether or not it will procure an additional two TDRS 
spacecraft.
    The FY 11 budget request includes plans for NASA's Space 
Communications and Navigation program to begin procuring 34 meter 
antennas as upgrades to the three 70 meter antennas that comprise the 
Deep Space Network (DSN). The DSN supports continuous communications to 
spacecraft in orbit. The DSN is 40 years old, many of its subsystems 
are obsolete, and the GAO has raised concerns about its fragility and 
continuing ability to service a mounting workload. The 34 meter 
antennas will be linked as an array. The Program's goal is to complete 
the 34 meter upgrades to the DSN by 2025. The existing DSN 70 meter 
dish located in Goldstone, CA includes a radar capability that is 
critical for characterizing near-Earth objects and accurately 
determining their orbits. According to NASA officials, the requirements 
for the new 34 meter antenna array include the radar capability.
    Issues for Space Communications include:

        <bullet>  In light of proposed changes to NASA's exploration 
        strategy which add robotic precursor missions, are NASA's long-
        range plans for modernizing its space network adequate to 
        handle the higher workload?

        <bullet>  What is NASA doing to alleviate the aging of the 
        infrastructure supporting the Deep Space Network?

Education
    The President's budget requests $145.8 million in FY 11 to support 
NASA's Education program. The request represents a reduction of about 
$38 million from the FY 10 enacted budget. The most notable change in 
the FY 11 request is the focus on using NASA's education programs to 
encourage innovation, including innovative approaches in STEM teaching 
and education through the use of NASA resources and content. As part of 
this theme, the President proposes a budget of $20 million in FY 11 to 
support the Summer of Innovation, a pilot project being launched in FY 
10 to target at least 100,000 underperforming middle school students 
and to reach 5,000 STEM educators over the summer vacation and during 
other opportunities. The funds will be competed and managed through the 
Space Grant consortia.
    In FY 10, NASA plans to introduce as a pilot project the redesign 
of the Explorer Schools project, which works with selected schools to 
deliver NASA content to middle and high school students, to provide 
professional development, and to increase student engagement and 
proficiency in STEM areas. The NASA Authorization Act of 2008 directed 
a review of the Explorer Schools project. The redesigned Explorer 
Schools project will be ``open to all secondary schools and will 
utilize current technologies in the delivery of opportunities and 
experiences to meet the needs of today's learning and learners,'' 
according to NASA's Fiscal Year FY 2011 Budget Estimates book. The 
President's FY 11 request proposes about $8 million each year for the 
FY 11-FY 15 budget horizon.
    In addition to the programs included in NASA's Office of Education, 
the Science Mission Directorate, the Aeronautics Mission Directorate, 
the Exploration Systems Mission Directorate, and the Space Operations 
Mission Directorate as well as the NASA Centers all fund educational 
projects. The Office of Education coordinates education activities 
across the NASA and its Centers.
    Issues and questions related to the Education program include the 
following:

        <bullet>  What will NASA tell students and America's youth 
        about what it is doing and where it is going? How important is 
        their response?

        <bullet>  What is the increase for the Summer of Innovation 
        actually supporting and is there sufficient lead-time for NASA 
        and institutions to effectively initiate the pilot project for 
        the Summer of 2010?

        <bullet>  How will the results of the 2010 Summer of Innovation 
        pilot projects guide spending decisions for the $20 million 
        requested in FY 11?

        <bullet>  What are the implications of the proposed 
        cancellation of the Constellation Program for NASA on its 
        education programs and the ability to inspire youth to pursue 
        STEM or space-related education and careers?

        <bullet>  Some of NASA's educational programs, projects, and 
        student competitions directly reflect the goals of returning 
        humans to the Moon, developing a new crew launch and 
        exploration vehicle to get there, and potentially creating a 
        lunar infrastructure. Does NASA have any plans to alter those 
        projects to reflect the Agency's new direction?

        <bullet>  Students' decisions on education, studies, and 
        potential careers, even in the pre-college years, may be shaped 
        by their perceptions of long-term, concrete programs that will 
        support them should they pursue a particular path. The 
        President's FY 11 plans for human spaceflight do not specify a 
        target, a timeline, or a particular program for human 
        exploration beyond low-Earth orbit. Does this pose any risk of 
        losing America's best and brightest students to other technical 
        and scientific fields?

        <bullet>  NASA has long used visits to Shuttle launches as a 
        means to inspire students and Americans in support of the 
        Nation's space program. What, if anything, will replace this 
        unique opportunity for outreach?

NASA Infrastructure: Construction and Environmental Compliance and 
        Restoration
    NASA's institutional investments are intended to ensure that 
facilities and field installations can meet the agency's mission 
requirements in a safe, secure and environmentally sound manner.
    According to NASA's Fiscal Year 2011 Estimates book, ``Construction 
and Environmental Compliance and Restoration (CECR) provides for design 
and execution of discrete and minor revitalization construction of 
facilities projects, facility demolition projects, and environmental 
compliance and restoration activities.
    The Construction of Facilities (CoF) program ensures that the 
facilities critical to achieving NASA's space and aeronautics programs 
are the right size and type, and that they are safe, secure, 
environmentally sound, and operated efficiently and effectively. It 
also ensures that NASA installations conform to requirements and 
initiatives for the protection of the environment and human health.
    The purpose of NASA's Environmental Compliance and Restoration 
(ECR) program is to clean up chemicals released to the environment from 
past activities. Cleanups are prioritized by NASA to ensure that the 
highest priority liabilities are addressed first in order to protect 
human health and the environment and preserve natural resources for 
future missions.''
    NASA is requesting $397.3 million in FY 11 for Construction and 
Environmental Compliance and Restoration. Of that amount, about $335 
million is for construction of facilities which provides for the 
construction, repair, rehabilitation, and modification of basic 
infrastructure and institutional facilities. Replacement and renewal 
projects replacing old, inefficient, and deteriorated buildings with 
energy efficient buildings will reduce utility usage. The remaining 
$62.1 million requested for FY 11 is for environmental compliance and 
restoration which provides the personnel, services, and activities 
necessary to complete the cleanup of hazardous materials and wastes 
that have been released to the surface or groundwater at NASA 
installations. These activities are mandated under a variety of Federal 
and state environmental laws and regulations, as well as legally 
enforceable orders and agreements.
    NASA has recently undergone a comprehensive review of its 
facilities and is developing plans to reduce and renew these critical 
assets. It is worth noting that NASA's estimate of backlogged 
facilities and maintenance requirements totals about $2 billion. So 
while projected budget requests for construction and facilities rise 
from FY 12 ($316.3 million) to FY 15 ($349.0 million), it is unlikely 
that such projected levels will appreciably reduce the backlog in the 
near future. The Aerospace Safety Advisory Panel's 2009 Annual report 
identifies NASA's aging infrastructure as an important issue:
    ``Over 80 percent of NASA facilities are beyond their design life, 
and annual maintenance is underfunded.] Facilities continue to degrade 
and facilities failures are starting to impact missions and have safety 
implications Agency-wide. Evidence for this can be seen in the 
increasing number of small fires, key equipment losses through failures 
in material handling and transportation facilities, and in the ``weak 
signals'' that we observe in current safety reports. The infrastructure 
used to launch complex vehicles into space must be reviewed and 
maintained down to the smallest component to remain safe. In the past, 
one of NASA's goals was `ten healthy Centers.' A considerable 
investment in facility maintenance, repair, and replacement is needed 
for this goal to be achieved. This may be unrealistic in the current 
economic climate. Iffunding is not available, NASA should consider 
consolidating its programs and efforts at fewer Centers so that its 
activities may be safely continued at the remaining facilities. This 
planning needs to be part of a conscious and deliberate facilities 
strategy.''
    In the 2008 NASA Authorization Act (P.L. 110-422, Section 1022), 
the Congress had expressed concern over the need for adequate 
maintenance and upgrading of NASA's facilities In that legislation, the 
NASA Administrator was directed to determine and prioritize the 
maintenance and upgrade backlog at each of NASA's Centers and 
associated facilities and ``develop a strategy and budget plan to 
reduce that maintenance and upgrade backlog by 50% over the next five 
years.'' The Administrator is to deliver those reports to Congress 
concurrent with the delivery of the FY 11 budget request; the Committee 
has not yet received these reports.
    Issues and questions related to Construction and Environmental 
Compliance and Restoration include the following:

        <bullet>  How long will it take NASA to reduce its maintenance 
        and upgrade backlog? Does NASA have any plans to do so?

        <bullet>  Is the continued degradation of facilities impacting 
        agency missions and the safety of these missions?

        <bullet>  Will NASA's proposed strategy for human exploration 
        have any effect on its future environmental compliance and 
        restoration responsibilities?

Other Issues

Economic Impact of NASA Activities
    NASA's workforce and technology developments have a broad impact on 
the economy and society. NASA's past programs have developed 
technologies that are being used in the timing signals on an automatic 
teller, for credit card verifications at the gas station, and for 
providing tools that help navigate us through traffic. NASA's Spinoffs 
2009 report identifies several NASA-developed technologies that are 
spawning commercial products and services including:

        <bullet>  A NASA device that was developed to study cell growth 
        in a simulated weightless environment that is used for medical 
        research on treatments for heart disease and diabetes among 
        other conditions;

        <bullet>  Scheduling software designed for the Hubble Space 
        Telescope that is being used to help hospitals increase their 
        efficiency in allocating capacity for imaging procedures; and

        <bullet>  Spacesuits with a sun-blocking fabric and cooling 
        systems that are being modified for clothing to protect people 
        with light sensitivities and people at the beach and who 
        encounter sun exposure.

    These products and services represent examples of how NASA-
supported technologies and developments can be transitioned into 
products and services that contribute to a growing commercial space 
industry that is estimated at approximately $174 billion globally for 
2008, according to The Space Report 2009.
    In addition to stimulating commercial activity, NASA's challenging 
missions also lead to technological developments that make U.S. 
companies more competitive on a global basis and that enable companies 
to earn more work. At a Committee on Science and Technology hearing on 
the aerospace workforce and industrial base held in December 2009, one 
witness testified that ``It is no accident that the USA aerospace prime 
contractors and the hundreds of subcontractors have developed 
leadership positions on the vast majority of the relevant technologies. 
The NASA programs have clearly enabled USA companies to develop and 
maintain these leadership positions.'' Some of the industrial base that 
NASA supports also serves U.S. national security programs.
    NASA's scientific and technical jobs, like those of the broader 
aerospace industry, are highly skilled and well paid. NASA reports that 
it supports 45,000 work year equivalent contractors at or near its NASA 
centers. In addition, the Aerospace Industry Association, estimates 
that NASA indirectly supports 151,000 contractors. NASA also attracts 
the best and the brightest scientists and engineers. As one witness at 
the December 2009 Committee hearing on the aerospace workforce and 
industrial base who represented a NASA supplier company stated: ``NASA 
programs are really, really hard problems . . . . What that does is 
attract the very best and the very brightest engineers, and bright 
engineers attract other bright engineers.''
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Gordon. Come to order. We have got some interest 
in this hearing from members off the committee, and as long as 
space allows for it, I would like to include them on the dais.
    I remind folks that non-committee members are only 
recognized for questions after all committee members have been 
recognized. So without objection, Mr. Posey, Mr. Bishop, and 
Dr. Griffith would be allowed to participate if they so choose, 
and we welcome them here. Mr. Posey is--or rather Mr. Bishop is 
an alumnus of this committee, so we welcome you back.
    We are also--if you are--we all know that Ralph Hall is in 
a time machine anyway. He doesn't get any older, but if you 
think he has reversed, he hasn't. He couldn't be here today, 
and we are glad that Mr. Olson could take his place as the 
Ranking Member on the Space and Aeronautics Subcommittee. He is 
certainly well qualified to handle these chores today.
    So good morning and welcome Administrator Bolden. Today's 
hearing marks the beginning of this committee's review of 
NASA's fiscal year 2011 budget request, including the proposed 
changes to the Nation's human spaceflight plans.
    As you know NASA is an agency that occupies an important 
place in the Nation's R&D infrastructure, as well a being a 
source of inspiration and pride for all of our citizens. I know 
that my colleagues on both sides of the aisle want to make sure 
that we do all we can to ensure its future health and 
productivity.
    In that regard I am pleased that the President's fiscal 
year 2011 NASA budget request has a number of positive 
features. First, of course, is the fact that the budget request 
will increase NASA's five-year funding by a total of $6 billion 
over last year's out-year funding plan. It is less than many 
supporters of NASA believe is justified or needed, but in a 
fiscal environment in which many Federal agencies and programs 
are facing a funding squeeze, it represents a vote of 
confidence in NASA, and that should not be ignored.
    There are other good things in the proposed NASA budget. It 
recognizes the critical role of NASA's Earth Science Program 
and Climate Research play in increasing our understanding of 
climate change and other phenomena that impact our society. It 
moves to restore some of the purchasing power that was lost by 
NASA's Earth Science Program over the past decade.
    Aeronautics is another area that gets a needed boost in the 
fiscal year 2011 NASA budget request. It is hard to think of 
another NASA program that has had more of an impact on our 
economic competitiveness, national security, and quality of 
life, and I am pleased that its importance is recognized in 
this budget proposal.
    In addition, the budget recognizes the importance in 
investing in long-term technology development for both 
aeronautics and space, a view long shared by this committee.
    And finally, this budget also makes provisions for 
extending the operation of the International Space Station 
beyond 2015, as well as providing funds to allow for an orderly 
completion of the Space Shuttle's flight manifest; two very 
constructive steps.
    All of these initiatives that I have described are ones 
that I think could garner bipartisan support on this committee 
and the House at large. They are certainly consistent with last 
year's NASA Authorization Act.
    However, there are other features of this request that 
haven't gained much support. Namely, this budget proposal 
represents a radical change from the approach to human 
spaceflight and exploration that has been authorized and funded 
by the successive Congresses over the past five years. This new 
approach is not clearly traceable to either past legislation or 
past policy directives. It has raised as many questions as it 
has answered.
    Administrator Bolden, as you know, many folks in your own 
agency do not appear to have known what was in the budget 
request until the very weekend before its release. In addition, 
it has taken almost a month for Congress to get NASA's budget 
justification documents, a state of affairs that is not and 
should not be an acceptable way of doing business with regards 
to such an important national endeavor.
    This hearing is intended to help us understand the 
rationale for such a substantial change in direction from the 
approach of previous authorizations. In that regard, 
Administrator Bolden, there are a number of questions that I 
hope you will be able to address.
    For example, a feature of this proposal and one that has 
not garnered much support on the Hill is a plan to rely on as 
yet to be developed commercial crew transportation systems with 
no government back-up system. Leaving aside the issue of safety 
for the moment, do you have concrete evidence that you can 
provide us that shows that there will be sufficient, non-NASA 
commercial crew transportation markets to keep these companies 
viable, or is NASA going to be on the hook to do whatever it 
takes to keep them in business since NASA will have no other 
means of getting into orbit.
    That is, will NASA's action make these companies too 
important to fail despite the lack of any significant existing 
markets for their proposed services; with all the implications 
from the American taxpayer inherent in that phrase?
    In addition, in this budget request you are requesting a 62 
percent increase over what the government and the companies 
have previously said would be needed to help the two would-be 
commercial cargo transportation companies develop their 
systems; systems that are arguably much less challenging than 
the commercial crew transportation system that you would now 
want to support. Given the large cost increase, how much 
confidence should we have in the cost estimates for commercial 
crew contained in this budget request?
    I could go on to ask about other aspects of the human 
spaceflight proposal, but I have already taken enough time, 
enough of the committee's time. It is clear that the 
administration's human spaceflight proposals have profound 
implications for the workforce, for our position in the world, 
and for the future of the space program, and we are going to 
take a hard look at them.
    [The prepared statement of Mr. Gordon follows:]
               Prepared Statement of Chairman Bart Gordon
    Good morning, and welcome, Administrator Bolden. Today's hearing 
marks the beginning of this Committee's review of NASA's Fiscal Year 
2011 budget request, including the proposed changes to the nation's 
human space flight plans. As you know, NASA is an agency that occupies 
an important place in the nation's R&D infrastructure, as well as being 
a source of inspiration and pride for all of our citizens. I know that 
my colleagues on both sides of the aisle want to make sure that we do 
all we can to ensure its future health and productivity. hi that 
regard, I am pleased that the president's FY 2011 NASA budget request 
has a number of positive features.
    First, of course, is the fact that the budget request would 
increase NASA's five-year funding by a total of $6 billion over last 
year's outyear funding plan. It is less than many supporters of NASA 
believe is justified or needed, but in a fiscal environment in which 
many Federal agencies and programs are facing funding freezes, it 
represents a vote of confidence in NASA that should not be ignored.
    There are other good things in the proposed NASA budget. It 
recognizes the critical role that NASA's Earth science program and 
climate research play in increasing our understanding of climate change 
and other phenomena that impact our society, and it moves to restore 
some of the purchasing power that was lost by NASA's Earth science 
program over the past decade.
    Aeronautics is another area that gets a needed boost in the FY 2011 
NASA budget request. It is hard to think of another NASA program that 
has had more of an impact on our economic competitiveness, national 
security, and quality of life, and I am pleased that its importance is 
recognized in this budget proposal. In addition, the budget recognizes 
the importance in investing in long-term technology development for 
both aeronautics and space, a view long shared by this Committee.
    Finally, this budget also makes provision for extending the 
operations of the International Space Station beyond 2015, as well as 
providing funds to allow for an orderly completion of the Space 
Shuttle's flight manifest--two very constructive steps.
    All of the initiatives that I have described are ones that I think 
could garner bipartisan support on this Committee and in the House at 
large--they are certainly consistent with last year's NASA 
Authorization Act.
    However, there are other features of this request that haven't 
gained much support. Namely, this budget proposal represents a radical 
change from the approach to human space flight and exploration that has 
been authorized and funded by successive congresses over the past five 
years. This new approach is not clearly traceable to either past 
legislation or past policy directives, and it has raised as many 
questions as it has answered. Administrator Bolden, as you know, many 
folks in your own agency do not appear to have known what was in the 
budget request until the very weekend before it was released.
    In addition, it has taken almost a month for Congress to get the 
NASA budget justification documents, a state of affairs that is not--
and should not be--an acceptable way of doing business with regard to 
such an important national endeavor. This hearing is intended to help 
us understand the rationale for such a substantial change in direction 
from the approach of previous authorizations. In that regard, 
Administrator Bolden, there are a number of questions that I hope you 
will be able to address. For example, a feature of this proposal, and 
one that has not generated much support on the Hill, is the plan to 
rely on as-yet-to-be-developed commercial crew transport systems with 
no government backup system.
    Leaving aside issues of safety for the moment, do you have concrete 
evidence that you can provide us that shows that there will be 
sufficient non-NASA commercial crew transport markets to keep these 
companies viable, or is NASA going to be on the hook to do whatever it 
takes to keep them in business since NASA will have no other means of 
getting into orbit? That is, will NASA's actions make these companies 
``too important to fail'' despite the lack of any significant existing 
markets for their proposed services-with all of the implications for 
the American taxpayer inherent in that phrase?
    In addition, in this budget request you are requesting a 62% 
increase over what the government and the companies had previously said 
would be needed to help the two would-be commercial cargo transport 
companies develop their systems--systems that are arguably much less 
challenging than the commercial crew transport systems you now want to 
support. Given that large cost increase, how much confidence should we 
have in the cost estimates for commercial crew contained in this budget 
request? I could go on to ask about other aspects of the human space 
flight proposals, but I've already taken up enough of the Committee's 
time.
    It is clear that the Administration's human space flight proposals 
have profound implications for the workforce, for our position in the 
world, and for the future of our space program, and we are going to 
take a hard look at them. Administrator Bolden, you have a tough job. 
And I know that you are doing your best to be an advocate for this 
budget request and to present it in the best light that you can. 
However, I must be frank. So far, this plan has not found a lot of 
support here on the Hill. That could change, of course, but at present 
I cannot be confident that the votes are there to enact this budget 
proposal as is, and you shouldn't be either. So I'm going to ask you to 
be flexible and open, as changes may be required to this plan if we are 
to achieve a durable consensus here in Congress.
    Again, I want to welcome you to today's hearing, and I now yield to 
my good friend, Ranking Member Hall.

    Mr. Gordon. Again, I want to welcome you to today's 
hearing, and now I want to yield to another Texan, Mr. Olson.
    Mr. Olson. Thank you very much, Mr. Chairman, and first of 
all I want to make a very public statement that I realize that 
I am a poor substitute for the wit and wisdom of our Ranking 
Member, Ralph Hall, but he couldn't be here today, and he asked 
that I read his opening statement, and with your permission, 
Mr. Chairman, I would like to do so.
    Mr. Chairman, I look forward to working with you on the 
important issues facing NASA, and thank you for holding today's 
hearing on the fiscal year 2011 budget proposal. Thanks to your 
leadership today is benefit--NASA is benefiting from the 
guidance provided in the NASA Authorization Act of 2008.
    I also want to welcome the NASA Administrator, General 
Bolden, to his first appearance before our committee. We look 
forward to hearing the details of the administration's 
proposals.
    NASA's fiscal year 2011 proposal is a radical departure 
from the consensus that emerged after the Columbia accident. In 
fact, the NASA debate after the accident helped clarify many of 
the guiding principles and goals that were endorsed by both 
Republicans and Democrats in subsequent NASA authorizations.
    The Columbia Accident Investigation Board clearly warned us 
about the inherent risk of human spaceflight program that does 
not have vigorous and engaged national leadership. The CAIB 
also stressed the importance of working towards established 
goals, not flexible paths, and warned against unbounded 
technology development programs that lacking clear requirements 
in metrics are likely to fall prey to future budget reductions.
    As a mission-driven organization, NASA performs best with 
clear goals and destinations. I am deeply troubled about the 
future viability of America's human spaceflight. On the eve of 
completing the International Space Station and retiring the 
Space Shuttle, I cannot understand how the administration can 
propose such an ill-conceived decision to cancel the 
Constellation Program without providing a compelling 
alternative plan with measurable goals and adequate resources.
    This budget proposal, relying as heavily as it does on the 
unproven capabilities of a nascent commercial space industry, 
contains very few details. At worst, I am afraid that its 
reliance on the commercial, its reliance on commercial is 
unfounded, and as a consequence it not only threatens our 
leadership in space and our utilization of the International 
Space Station, but it also risks the loss of much of our 
aerospace industrial base and our highly-skilled workforce.
    I am also bothered by the apparent diminishment of crew 
safety in this request. Except for vague assurances that safety 
will not be undermined, I see no detail explaining how NASA 
plans to ensure that commercial systems will be equal to the 
expectations that guided the development of the Constellation.
    Until we in Congress have had a chance to examine the 
details of NASA's proposal and develop the appropriate 
legislation, I hope you will adhere to the intent of the 
appropriators, which is to continue the Constellation 
development in fiscal year 2010.
    General Bolden, I appreciate the fact that you accept 
responsibility for the poor way this budget was publicly rolled 
out, and I want you to take a message back to those who played 
an active role in its unveiling that such an exercise is 
ultimately counterproductive. This committee has been the most 
ardent supporter of NASA in the House, yet senior agency and 
administration officials have managed to surprise, frustrate, 
and anger those of us who have been your greatest advocates.
    I thought it was particularly troubling that senior people 
within the administration and on your staff engaged in a 
campaign of telephone calls with reporters prior to the budget 
rollout to explain embargoed program details instead of 
providing briefings to this committee. This is not a media 
campaign. NASA should be communicating with its policy and 
oversight committees, and I encourage you to carry that message 
back to the administration's suite and to the administration.
    Mr. Chairman, I care deeply about NASA, and I want to 
ensure the safety of the crews we send into space. I want to 
ensure that we can maintain and utilize the International Space 
Station. I want NASA to have clearly-defined goals because I 
believe that that is the only way we will make any progress. 
NASA is a mission-driven organization that produces its best 
results with clearly-defined goals and the resources to achieve 
them.
    I believe NASA's priorities are misplaced. With the 
retirement of the Space Shuttle and a plan to cancel the 
Constellation Program, it is more important than ever that we 
work together to provide NASA with the legislative guidance it 
needs. I know you share many of my concerns.
    I look forward to close--working close with you, and I hope 
you will make room in our busy schedule to hold the necessary 
hearings to ensure we give NASA the guidance it needs.
    Yield back my time.
    [The prepared statement of Mr. Olson follows:]
            Prepared Statement of Representative Pete Olson
    Mr. Chairman, I look forward to working with you on the important 
issues facing NASA and I thank you for holding today's hearing on their 
fiscal year 2011 budget proposal. Thanks to your leadership, NASA today 
is benefiting from the guidance provided in the NASA Authorization Act 
of 2008.
    I also want to welcome the NASA Administrator, General Bolden to 
his first appearance before our Committee. We look forward to hearing 
the details of the Administration's proposals.
    NASA's fiscal year 2011 proposal is a radical departure from the 
consensus that emerged after the Columbia accident. In fact, the 
national debate after the accident helped to clarify many of the 
guiding principles and goals that were endorsed by both Republicans and 
Democrats in the subsequent NASA Authorizations. The Columbia Accident 
Investigation Board clearly warned us about the inherent risks of a 
human space flight program that does not have vigorous and engaged 
national leadership. The CAIB also stressed the importance of working 
toward established goals, not flexible paths, and warned against 
unbounded technology development programs that, lacking clear 
requirements and metrics, are likely to fall prey to future budget 
reductions. As a mission-driven organization NASA performs best with 
clear goals--and destinations.
    I am deeply troubled about the future viability of America's human 
space flight program. On the eve of completing the International Space 
Station and retiring the Space Shuttle, I cannot understand how the 
Administration can propose such an ill-conceived decision to cancel the 
Constellation program without providing a compelling alternative plan 
with measurable goals and adequate resources. This budget proposal, 
relying as heavily as it does on the unproven capabilities of a nascent 
commercial space industry, contains very few details. At worst, I am 
afraid that its reliance on commercial is unfounded, and as a 
consequence, it not only threatens our leadership in space and our 
utilization of the International Space Station, but it also risks the 
loss of much of our aerospace industrial base and our highly-skilled 
workforce.
    I am also bothered by the apparent diminution of crew safety in 
this request. Except for vague assurances that safety will not be 
undermined, I see no detail explaining how NASA plans to ensure that 
commercial systems will be equal to the expectations that guided the 
development of Constellation.
    Until we in the Congress have had a chance to examine the details 
of NASA's proposal and develop the appropriate legislation, I hope you 
will adhere to the intent of the Appropriators which is to continue 
with the Constellation development in FY 2010.
    General Bolden, I appreciate the fact that you accept 
responsibility for the poor way this budget was publicly rolled out, 
and I want you to take a message back to those who played an active 
role in its unveiling that such an exercise is ultimately counter-
productive. This committee has been the most ardent supporter of NASA 
in the House, and yet senior agency and Administration officials have 
managed to surprise, frustrate and anger those of us who have been your 
greatest advocates. I thought it particularly troubling that senior 
people within the Administration and on your staff engaged in a 
campaign of telephone calls with reporters prior to the budget rollout 
to explain embargoed program details instead of providing briefings to 
this Committee. This is not a media campaign. NASA should be 
communicating with its policy and oversight committees. I encourage you 
to carry that message back to the Administrator's suite and to the 
Administration.
    Mr. Chairman, I care deeply about NASA, and I want to ensure the 
safety of the crews we send into space. I want to ensure we can 
maintain and utilize the International Space Station. I want NASA to 
have clearly defined goals because I believe that is the only way we 
will make any progress. NASA is a mission-driven organization that 
produces its best results with clearly defined goals and the resources 
to achieve them. I believe NASA's priorities are misplaced. With the 
retirement of the Space Shuttle and a plan to cancel the Constellation 
program, it is more important than ever that we work together to 
provide NASA with the legislative guidance it needs. I know you share 
many of my concerns. I look forward to working closely with you and I 
hope you will make room in our busy schedule to hold the necessary 
hearings to ensure we give NASA the guidance it needs.

    Chairman Gordon. Thank you, Mr. Olson.
    If there are members who wish to submit additional opening 
statements, your statements will be added to the record at this 
point.
    [The prepared statement of Ms. Giffords follows:]
        Prepared Statement of Representative Gabrielle Giffords
    Good morning. I would like to join Chairman Gordon in welcoming 
NASA Administrator Bolden to today's hearing. He is an inspiring 
individual, and as an astronaut himself, I know that he cares greatly 
for the space program and the future of human space flight.
    Today's hearing is one of the most important we will hold this 
year, as it bears directly on the future of our nation's space program. 
It will inform us on many key issues facing NASA, and we will be 
weighing many options in the subcommittee on space and aeronautics, on 
which I serve as chair, as we write reauthorization legislation for 
NASA.
    There is no doubt that NASA and our space program help define 
America in the eyes of the rest of the world. Not quite fifty years ago 
President Kennedy announced that America would land a man on the moon 
and return him safely to Earth. We committed the best and brightest of 
a generation to this goal and through the combined efforts of the newly 
formed National Aeronautics and Space Administration and the ever 
innovative commercial aerospace industry, we accomplished that goal in 
a short eight years. It is no exaggeration to say that we took the 
world to the moon; the landing was watched by 500 million people 
worldwide. Out of the initial competition that spurred the space race 
came unprecedented international collaboration and was born an America 
that was the unequivocal world leader in aeronautics. This is a legacy 
we should never abandon.
    Our space program has always been an engine of innovation for our 
nation, and equally importantly, a source of inspiration. When the 
Space Shuttle, the icon of the American space program, first flew in 
the early 80s you would be hard pressed to find a child who did not 
want to grow up to be an astronaut, and that meant staying in school, 
working hard, and taking math and science classes seriously. The space 
program has always inspired the youth of America to reach for the 
stars. As Members of Congress, and as Americans, we must refuse to let 
that dream fade.
    Today we discuss the President's proposals for the future of NASA. 
Chairman Gordon has highlighted a number of the proposals positive 
features, and I wish to state my agreement with him. There is good news 
for NASA in the president's budget request for NASA. The boost to 
science funding is in agreement with this committee and the president's 
repeatedly stated commitment to American investment in the sciences. 
The new investment in aeronautics research is also welcome and probably 
long overdue and will be critical to our future exploration.
    However, there are also features of the FY 2011 budget request that 
concern me greatly. As I stated in our subcommittee hearing earlier 
this month, I have serious concerns about the impact of this budget 
proposal on the future of American human space flight and exploration. 
By canceling the program of record, we trade a program that we know 
will work--even though it faced inevitable delays in part due to 
insufficient funding--that we know will safely take our astronauts, our 
American heroes, to space for a program that may work, but is in all 
honesty poorly defined.
    What is most striking about the budget is the lack of an overall 
vision. We went to the moon with a vision of exploring our first 
heavenly body; we flew the shuttle and International Space Station with 
the vision of living continuously in space. What is our vision now? 
What Congress and the American people deserve is a detailed plan: Where 
are we going? How will we get there? And when will we go?
    Today in your testimony you mentioned Mars as the ultimate 
destination, with a slew of other potential targets along the way. But 
how will we get out of low-earth orbit when we have no plans to build a 
heavy life vehicle? If the intention is to pause our development of an 
HLV for a few years while we develop new technologies, or to skip an 
HLV for a plan of multiple launches with in-orbit refueling and 
assembly, then I would like to see a plan and timetable for how and 
when we would have these things operational and then how they would 
take us to our destinations. If our plan is to go to the moon or 
asteroids of Lagrange points before setting off for Mars--each of these 
requiring significantly different systems--then I want to see a plan to 
do that.
    It is simply unfair to ask the American people to hand over 
billions of dollars for something that isn't even detailed enough to 
qualify for a loan from a loan shark.
    With that said, I am encouraged by the COTS program. As you 
mentioned in your testimony, we are hopefully close to seeing a test 
flight of the SpaceX Falcon rocket. I hope that is successful and that 
they quickly proceed to their goal of delivering cargo to ISS. Should 
this program succeed it gives us great hope that commercial crew--which 
is of course much more difficult and risks the lives of American 
heroes--could succeed. I believe that this committee and the Congress 
as a whole would be delighted to see this industry grow, and it would 
free up NASA to focus solely on missions beyond low Earth orbit, as 
envisioned in our previous NASA Authorization. Therefore, I am happy to 
see the president commit to making this a reality. However, I have 
strong reservations about pursuing this at the expense of the program 
that would take us out of LEO. That simply doesn't make sense. Congress 
intended to turn over LEO to commercial taxi services when they were 
proven, but what's the point if NASA hasn't developed the capability of 
flying at all?
    There are also many unresolved questions regarding commercial crew 
services. Who will handle things like mission control and capsule 
retrieval? How will indemnity be handled? Will companies big and small 
be able to compete for these contracts or will they be limited by the 
size of their liability?
    Additionally, I am concerned, as are most of my colleagues here, 
that outright cancellation of the entire Constellation program would 
put tens of thousands of engineers out of work and risk the vitality of 
the manufacturing base. Perhaps when commercial crew services are 
established there will be a robust industry that can absorb all these 
workers, but at this time I just don't see where they will go. These 
are exactly the types of good jobs we're trying to create. I think in 
this case it's a lot easier to save a job than to create a new one. In 
addition, these are exactly the type of jobs we need to keep here in 
America to shore up our innovation economy and protect our 
manufacturing base. I would hate to see American aeronautical engineers 
emigrating to Europe, India, Russia, and China because that's where the 
action is.
    My concern when considering the space program is not one pet 
project versus another; one aerospace company versus another; or one 
administration's plan versus another's. My concern is the prudent use 
of taxpayers' money, which cannot be accomplished by switching course 
every few years. The unknown unexplored path will also seem more 
exciting and more promising than the program of record, and in the 
spirit of discovery we should explore it, but not at the cost of a sure 
fire bet.
    My concern is the stewardship of a skilled American workforce and 
maintaining a manufacturing base that is second to none. Not just 
saving but creating jobs in a sector that will create a demand for 
scientists and engineers. I believe that the best and brightest young 
minds in our nation are smart enough to understand supply and demand, 
and so one understands why a sufficiently bright young student would 
eschew the vagaries and uncertainty of the aerospace industry for a 
more lucrative career in finance or law.
    Finally, my concern is maintaining the American dream to reach for 
the stars and honoring our legacy that America will continue to lead 
the world into the heavens, exploring the great unknown.
    The future of U.S. leadership in space is at stake, and we need to 
make hard decisions. Luckily presidents and members Congress from both 
sides of the aisle have long found common ground and common cause in 
our nation's reach for the stars--a fact worth noting in the hyper 
partisan era in which we find ourselves in today. For nearly two 
generations, Republicans and Democrats alike have agreed that exploring 
the universe is not only worthwhile, but necessary. That past should 
guide us as we chart NASA's future. Today's hearing will help us get 
the information we will need to make the informed decisions necessary.
    We continue to be that city upon a hill, and the world at this very 
moment watches us. Our space program is one of the crown jewels of our 
nation, and we must proceed carefully to maintain it.

    [The prepared statement of Mr. Costello follows:]
         Prepared Statement of Representative Jerry F. Costello
    Good Morning. Thank you, Mr. Chairman, for holding today's hearing 
on the National Aeronautics and Space Administration's (NASA) Fiscal 
Year 2011 (FY 11) budget request.
    The President's budget calls for $19 billion in FY 11 for NASA, 
which is a $270 million increase from FY 2010. I am pleased to see that 
the FY 11 budget request continues to address the budget shortfalls 
NASA saw during the previous administration. However, the budget is a 
general departure from the NASA Authorization Act of 2008 passed by 
Congress and signed into law and represents several important changes 
in the mission and focus of NASA. Most importantly, the budget 
terminates the Constellation program, in which the government has 
invested $9 billion over the last four years. Constellation represented 
NASA's sole program to bring humans to the International Space Station 
and the Moon, and its termination raises significant questions about 
the future mission and direction of human spaceflight in the U.S.
    First, the end of Constellation will result in the loss of tens of 
thousands of jobs at NASA and the companies with whom NASA has 
contracted out work. With the budget's strong investment in commercial 
human spaceflight over government-operated programs, there is a chance 
these jobs could disappear all together. I would like to hear from 
Administrator Bolden what plans are in place to assist in the 
transition of this workforce.
    Second, with the end of Constellation, a return to the moon by 2020 
will no longer be NASA's central goal in human spaceflight and 
exploration. In place of this definite mission, the FY 11 budget 
invests in three broad technology development programs and does not 
clearly indicate what NASA's next destination will be or provide a 
clear outline of how NASA's mission will change with the end of the 
Space Shuttle and the elimination of Constellation. I am interested in 
hearing more about the destinations, timelines, and metrics that will 
make up NASA's missions in view of these changes and how the vehicles 
and technological improvements developed for the new research programs 
will guide this new mission.
    Third, investing in Science, Technology, Engineering, and 
Mathematics (STEM) education programs is necessary to ensure the next 
generation of our aerospace workforce is competitive. For this reason, 
I am concerned about the $38 million reduction in funding for NASA's 
STEM programs. While the decrease is concerning, I support the 
President's proposals to improve NASA's outreach to young students 
through the Summer of Innovation program and the Explorer Schools pilot 
program, which will play an important role in inspiring young students 
to pursue careers in STEM fields. However, with no clear mission or 
destination, young students may not be inspired to pursue careers at 
NASA or in aerospace. I would be interested to know how NASA plans to 
continue attracting a strong workforce in view of decreased funding and 
elimination of NASA's mission.
    Finally, as the Chairman of the Aviation Subcommittee, I am pleased 
to see that NASA will increase its investment in aeronautics research 
by $73 million. This investment will be particularly important for the 
Next Generation Air Transportation System (NextGen), and its important 
work to modernize our national air transportation system. However, this 
increased funding will not fully replace the $143 million decrease 
NextGen saw FY 10. Continuing to increase NextGen funding will ensure 
that NASA continues to contribute vital research on aviation safety and 
environmental impacts of air travel. I would like to hear from 
Administrator Bolden how this year's funding levels will impact NASA's 
role in implementing NextGen.
    I welcome Administrator Bolden, and I look forward to his 
testimony. Thank you again, Mr. Chairman.

    [The prepared statement of Mr. Grayson follows:]
           Prepared Statement of Representative Alan Grayson
    Mr. Bolden, thank you for your leadership as the NASA 
Administrator, since your swearing in on the symbolic date of July 
17th, the same week as our nation's 40th anniversary of the celebrated 
Apollo 11th lunar landing. As a member of the Florida delegation, the 
House Science & Technology Subcommittee on Space & Aeronautics, and an 
outspoken advocate of space exploration, I look forward to working 
closely with you as we face both the challenges and triumphs that will 
lead the United States space program into the future.
    There were many features of the President's NASA budget that I 
support: an overall increase of $6 billion in NASA funding over the 
next five years, the extension of the International Space Station 
beyond 2015, an elevated focus in NASA's earth science and climate 
research, and overall funding increases in the aeronautics program. I 
applaud these aspects of the President's NASA budget, and appreciate 
the Administration's commitment to science and the advancement of 
technology.
    However, that being said, I cannot hide my utter disappointment and 
disapproval of the basic lack of vision reflected in this budget. Mr. 
Bolden, with these proposed changes in U.S. space policy, and no clear 
mission directorate for NASA's space exploration program, NASA's future 
in space is headed for nowhere. At a time when our international 
competitors are gaining, now is not the appropriate time for NASA to 
shed its leadership role in space exploration. On May 7, 2009, the 
Office of Science and Technology Policy announced the formation of the 
``Review of United States Human Space Flight Plans Committee'', also 
known as the Augustine Committee. This Committee was formed with the 
primary goal of ensuring that our great nation is on ``a vigorous and 
sustainable path to achieving its boldest aspirations in space'', and 
put together a number of options in which U.S. space exploration could 
move forward. The Administration chose none of them. Instead it 
declared a space policy based upon wishful thinking, and provided a 
budget that will take a once storied and inspiring agency and will 
outsource its services to an unproven private sector.
    Mr. Bolden, the absence of a plan, is not a plan. The magic of the 
marketplace will not save our space exploration program, and it will 
certainly not provide the inspiration and pride that American's knew in 
1969. As a Member of Congress, and a space enthusiast, I ask the 
Administration to scrap this short sighted proposal, so that we may 
work together in reestablishing ourselves as the worldwide leader in 
space exploration.

    At this time I would like to introduce our only witness 
today, Mr. Charles Bolden, who is the Administrator of the 
National Aeronautics and Space Administration. Welcome, Mr. 
Bolden. As our witnesses or witness should know, any additional 
statement other than your written statement or spoken statement 
will be made a part of the record, and with that we will then 
follow with questions from our members for--at five minutes.
    So, Mr. Bolden, you are--you may proceed.

 STATEMENT OF CHARLES F. BOLDEN, JR., ADMINISTRATOR, NATIONAL 
              AERONAUTICS AND SPACE ADMINISTRATION

    Mr. Bolden. Mr. Chairman and Members of the Committee, 
thank you very much for the opportunity to discuss the 
President's 2011 budget request for NASA. I am grateful for the 
support and guidance of this committee, and I look forward to 
working with you on enactment of the President's bold new 
direction for our agency.
    I want to say upfront that I understand the committee's 
concerns that details such as our justification documents have 
been slow to reach you. I apologize and ask your continued 
patience as we finalize the details of this historic change in 
NASA's direction.
    Since the introduction of the budget, many have asked what 
the destination is for human spaceflight beyond low-earth orbit 
under the President's plan. NASA's exploration efforts will 
focus not just on our moon but also on near-earth asteroids, 
strategic deep space zones called Lagrange points, and the 
planet Mars and its moons. For me the ultimate destination in 
our solar system at present is Mars.
    While I--we cannot provide a date certain for the first 
human visit, with Mars as a key long-term destination we can 
identify missing capabilities needed for such a mission and use 
this to help define many of the goals for our emerging 
technology development. The right investments in technology 
will allow us to map out a realistic path to this destination 
that continues to inspire generations of school children, just 
as it inspired me years ago growing up in Columbia, South 
Carolina, and watching Buck Rogers go to Mars with ease each 
week from my seat in the balcony of the Carolina Theatre in 
Columbia.
    The President's fiscal year 2011 budget request for NASA is 
$19 billion, including an increase of $276 million over the 
enacted 2010 level. Longer term, I am pleased that the budget 
commits an increased investment of $6 billion to--in NASA's 
science, aeronautics, and enabling technologies over the next 
five years compared with last year's plan.
    All of us at NASA appreciate the President making NASA such 
a high priority at a time when the budget realities dictate 
reductions and freezes for other worthwhile programs. With the 
President's new vision, the NASA budget will invest much more 
heavily on technology R&D than recent NASA budgets. This will 
foster new technological approaches, standards, and 
capabilities that are critical to enable next generation 
spaceflight, Earth sensing, and aeronautics capabilities.
    These investments will produce additional opportunities for 
U.S. industry and spur new businesses such as a recently-
announced partnership between NASA and General Motors to build 
an advanced dexterous humanoid robot we call R2. I want to 
share a few highlights about NASA's bold new path to become an 
engine of innovation with an ambitious new space program that 
includes and inspires people around the world.
    Under this program the United States will pursue a more 
sustainable and affordable approach to human space exploration 
through the development of transformative technologies and 
systems. We will encourage the development of commercial human 
spaceflight vehicles to access low Earth orbit. We will develop 
new technologies that will enable more efficient U.S. human 
exploration into the solar system than is currently conceived.
    As the Constellation Program is ended in an orderly manner, 
I want to thank all of the NASA employees and contractors who 
have worked so hard on that program. Their commitment has 
brought great value to the agency and to our Nation, and they 
will continue to play a pivotal role in NASA's future path.
    Many of the things NASA has learned from the Constellation 
Program will be critical as the agency moves forward. More 
specifically, in fiscal year 2011, NASA will undertake a 
flagship technology development and demonstration program with 
our international partners, commercial and other government 
entities, to demonstrate critical technologies such as in-orbit 
propellant storage and transfer, inflatable modules, autonomous 
automated rendezvous and docking, and closed-loop life support 
systems.
    Heavy-lift research and development that will investigate a 
broad scope of R&D activities to support new space vehicle 
propulsion technologies, robotic precursor missions to multiple 
destinations in the solar system in support of future human 
exploration, including missions to Mars, the moon, Mars and its 
moons, Lagrange points, and nearby asteroids.
    Significant investments for the development of commercial 
crew and further cargo capabilities, extension of the lifetime 
of the International Space Station to 2020, or beyond, in 
concert with our international partners. Pursuit of cross-
cutting space technology capabilities led by the newly-
established office of the chief technologist to spawn game-
changing innovations to make space travel more affordable and 
more sustainable.
    Climate change and observations which will enable NASA to 
substantially accelerate and expand its earth science 
capabilities, including a replacement for the Orbiting Carbon 
Observatory. Aeronautics R&D including critical areas of Next 
Generation Air Transportation System or NextGen, green aviation 
and safe integration of unmanned aircraft systems into national 
airspace. Education initiatives, including the recently 
announced Summer of Innovation pilot program, to inspire middle 
school students.
    Americans and people worldwide have turned to NASA for 
inspiration throughout our history. Our work gives people an 
opportunity to imagine what is barely possible, and we at NASA 
get to turn those dreams into real achievements for all mankind 
through the missions we execute.
    This budget gives NASA a roadmap to even more historic 
achievements as it spurs innovation, employs Americans in 
exciting jobs, and engages people around the world.
    Mr. Chairman, thank you again for your support and that of 
this committee. I would be pleased to respond to any questions 
you or other Members of the Committee may have.
    [The prepared statement of Mr. Bolden follows:]
              Prepared Statement of Charles F. Bolden, Jr.
    Mr. Chairman and Members of the Committee, thank you for the 
opportunity to appear today to discuss the President's FY 2011 budget 
request for NASA. NASA is grateful for the support and guidance 
received from this Committee through the years and looks forward to 
working with you on enactment of the President's bold new direction.
    The President's FY 2011 budget request for NASA is $19.0 billion, 
which represents an increase of $276.0 million above the amount 
provided for the Agency in the FY 2010 Consolidated Appropriations Act 
(P.L. 111-117), and an increased investment of $6.0 billion in NASA 
science, aeronautics, human spaceflight and enabling space technologies 
over the next five-years compared with last year's budget plan. 
Enclosure 1 displays the details of the President's FY 2011 budget 
request for NASA.
    Before I discuss the details of the NASA budget request, I would 
like to talk in general about the President's new course for human 
exploration of space. Our mission is to develop the required 
technology, knowledge and infrastructure to sustainably extend human 
presence throughout the solar system. NASA's exploration efforts will 
focus not just on our moon, but also on near-earth asteroids, strategic 
deep space zones called Lagrange points, and the planet Mars and its 
moons. For me, the ultimate destination in our solar system at present 
is Mars. While we cannot provide a date certain for the first human 
visit, with Mars as a key long-term destination we can identify missing 
capabilities needed for such a mission and use this to help define many 
of the goals for our emerging technology development.
    Let me pause here for a moment to emphasize that we need the new 
capabilities and knowledge we are developing, not to perfect our 
approach to spaceflight, but to enable even the most basic of missions. 
For example, if you gave NASA unlimited resources today, we could not 
take a human safely to Mars in the near future, because we have not 
solved the interrelated problems of shielding humans from radiation in 
space, providing consumables to last the distance, and constructing a 
rocket to take all of those items into space.
    Over the next several years, NASA will build technologies and 
infrastructure to enable safe human exploration at a more sustainable 
rate. If done properly, the United States and its partners will be able 
to send human missions beyond low earth orbit more safely, more-cost-
effectively, and more capably than currently conceived.
    First, we will extend the life of the International Space Station 
(ISS), likely to 2020 or beyond. The unique laboratory environment of 
the ISS will provide answers to key questions about human survivability 
in space and provide the environment to test critical enabling 
technologies to benefit life on Earth as well as enhance our ability to 
venture to destinations such as Mars, the Moon, and asteroids.
    We will also encourage and support private sector investment in 
space. NASA has already invested in the private sector to transport 
cargo to the ISS. Two companies are making great progress, and we hope 
in the next few months to have the first demonstration of the Falcon 9 
that will serve as the launch vehicle for the SpaceX system. The FY 
2011 budget also includes a $6 billion, five-year investment in crew 
transport to the ISS by a broad range of private companies. When 
successful this will expand the utilization of not only the ISS but 
also near Earth space to a greater segment of society.
    Several years from now, when we have developed some of the critical 
technologies we need to explore safely and effectively, when our 
robotic precursor missions have scouted out the most interesting sites 
for human exploration, when our international partners have worked with 
us to develop new exploration architectures with shared costs and 
benefits, then we will be ready to press the accelerator for human 
missions into the solar system. Our goal will be then, as it is now, to 
create a lasting human space-faring capability for our nation, and with 
our international and commercial partners, for the World. Now let me 
turn to describe the FY 2011 NASA budget request in detail.

Highlights of the FY 2011 Budget Request

    The President has laid out a bold new path for NASA to become an 
engine of innovation, with an ambitious new space program that includes 
and inspires people around the world. Beginning in FY 2011, the United 
States will pursue a more sustainable and affordable approach to human 
space exploration through the development of transformative 
technologies and systems. As the Constellation Program is ended in an 
orderly manner, NASA will encourage the development of commercial human 
spaceflight vehicles to safely access low-Earth orbit and will develop 
new technologies that will lay the foundation for a more exciting, 
efficient and robust U.S. human exploration of the solar system than we 
are currently capable of, while further strengthening the skills of our 
workforce and our Nation in challenging technology areas. NASA will 
also invest increased resources in climate change research and 
observations; aeronautics research and development (R&D), including 
green aviation; space technology development of benefit across the 
entire space sector; and education with an emphasis on Science, 
Technology, Engineering and Mathematics (STEM) learning.
    Here is a broad outline of the FY 2011 budget plan followed by more 
details. In FY 2011, NASA will undertake:

        <bullet>  Transformative technology development and 
        demonstrations to pursue new approaches to human spaceflight 
        exploration with more sustainable and advanced capabilities 
        that will allow Americans to explore the Moon, Mars and other 
        destinations. This effort will include a flagship demonstration 
        program, with international partners, commercial and other 
        government entities, to demonstrate critical technologies, such 
        as in-orbit propellant transfer and storage, inflatable 
        modules, automated/autonomous rendezvous and docking, closed-
        loop life support systems, and other next-generation 
        capabilities. It will also include projects that are smaller 
        and shorter-duration, which will demonstrate a broad range of 
        key technologies, including in-situ resource utilization and 
        advanced in-space propulsion.

        <bullet>  Heavy-lift propulsion research and development that 
        will investigate a broad scope of R&D activities to support 
        next-generation space launch propulsion technologies, with the 
        aim of reducing costs and shortening development timeframes for 
        future heavy-lift systems for human exploration.

        <bullet>  Robotic precursor missions to multiple destinations 
        in the solar system in support of future human exploration, 
        including missions to the Moon, Mars and its moons, Lagrange 
        points, and nearby asteroids.

        <bullet>  Significant investments for the development of 
        commercial crew and further cargo capabilities, building on the 
        successful progress in the development of commercial cargo 
        capabilities to-date. NASA will allocate these funds through 
        competitive solicitations that support a range of higher- and 
        lower-programmatic risk systems and system components, such as 
        human-rating of existing launch vehicles and development of new 
        spacecraft that can ride on multiple launch vehicles.

        <bullet>  Extension of the lifetime of the International Space 
        Station (ISS), likely to 2020 or beyond, in concert with our 
        international partners, with investments in expanded ISS 
        utilization through upgrades to both ground support and onboard 
        systems and use of the ISS as a National Laboratory.

        <bullet>  Pursuit of cross-cutting Space Technology 
        capabilities, led by the newly established Office of the Chief 
        Technologist, which will fund advancements in next-generation 
        technologies, to help improve the Nation's leadership in key 
        research areas, enable far-term capabilities, and spawn game-
        changing innovations that can unlock new possibilities and make 
        space activities more affordable and sustainable. A NASA focus 
        on innovation and technology will enable new approaches to our 
        current mission set and allow us to pursue entirely new 
        missions for the Nation.

        <bullet>  Climate change research and observations, which will 
        enable NASA to substantially accelerate and expand its Earth 
        Science capabilities, including a replacement for the Orbiting 
        Carbon Observatory, development of new satellites recommended 
        by the National Academy of Sciences Decadal Survey, and 
        development of smaller Venture class missions. This investment 
        will ensure the critically important continuity of certain key 
        climate measurements and enable new measurements to address 
        unknowns in the climate system, yielding expanded understanding 
        of our home planet and improved understanding of climate 
        change.

        <bullet>  Aeronautics research and development, including 
        critical areas of the Next Generation Air Transportation 
        System, environmentally responsible aviation, and safe 
        integration of unmanned aircraft systems into the national 
        airspace.

        <bullet>  Education initiatives, including the recently 
        announced Summer of Innovation pilot program involving NASA 
        scientist and curricula to inspire middle-school students and 
        their teachers with exciting experiences that spur those 
        students to continue in STEM careers.

    I wish to emphasize that NASA intends to work closely with the 
Congress, including this Committee, to make a smooth transition to the 
new Exploration program, called for in the President's request, working 
responsibly on behalf of the taxpayers. With my deepest gratitude, I 
commend the hard work and dedication that thousands of NASA and 
contractor workers have devoted to Constellation over the last several 
years. Their commitment has brought great value to the Agency and to 
our Nation, and they will continue to play a pivotal role in NASA's 
future path. Many of the things NASA has learned from the Constellation 
program will be critical as the Agency moves forward.
    The following contains more detail on the summary points made 
above, in the standard budget order for NASA's appropriation accounts.

Science

    The President's FY 2011 request for NASA includes $5,005.6 million 
for Science. The NASA Science Mission Directorate (SMD) continues to 
expand humanity's understanding of our Earth, our Sun, the solar system 
and the universe with 59 science missions in operation and 30 more in 
various stages of development. The Science budget funds these missions 
as well as the research of over 3,000 scientists and their students 
across our Nation. The recommendations of the National Academies/
National Research Council (NRC) decadal surveys help to guide SMD in 
setting its priorities for strategic science missions; and SMD selects 
competed missions and research proposals based on open competition and 
peer review.
    The FY 2011 budget request for Science includes $1,801.7 million 
for Earth Science. This request increases investment in Earth Science 
by $1.8 billion from FY 2011 to FY 2014 compared to the FY 2010 budget, 
for a more aggressive response to the challenge of climate change. NASA 
will rapidly develop an Orbiting Carbon Observatory-2 mission for 
launch early in 2013 and a GRACE Follow-On mission for launch in late 
2015, respectively, to initiate and extend key global climate data 
sets. This request accelerates several high-priority Decadal Survey 
missions that will advance climate research and monitoring. The 
increased funding accelerates launch of the Soil Moisture Active/
Passive (SMAP) mission by six months from its estimated date at the 
recent Agency Key Decision Point (KDP)-B review, to November 2014. 
ICESAT-2 is advanced by five months relative to the estimated date at 
its recent Agency KDP-A review, to October 2015. The Climate Absolute 
Radiance and Refractivity Observatory (CLARREO) mission and the 
Deformation, Ecosystem Structure and Dynamics of Ice (DESDynI) mission 
are each accelerated by two years, with both launching in late 2017. 
Thus, the budget request allows all four Tier-1 Decadal Survey missions 
to be launched between 2014 and 2017. In addition, NASA--working with 
the U.S. Global Change Research Program--will be able to identify and 
begin development for accelerated launch of selected Tier-2 Decadal 
Survey missions focused on climate change. The budget supports critical 
continuity of climate observations, including a Stratospheric Aerosol 
and Gas Experiment III (SAGE III) instrument to be developed for 
deployment on the ISS, while also supporting an accelerated pace of 
smaller ``Venture class'' missions. Finally, increased resources for 
Earth Science will allow NASA to expand key mission-enabling 
activities, including carbon monitoring, technology development, 
modeling, geodetic ground network observations, and applications 
development including the highly successful SERVIR program.
    At present, NASA Earth-observing satellites provide the bulk of the 
global environmental observations used for climate change research in 
the United States and abroad. This year, analyses of NASA satellite 
measurements quantified the rates of ground water depletion since 2003 
in California and in India's Indus River valley--rates that are 
unsustainable for the future. NASA conducted the first ICEBridge 
airborne campaigns in both Arctic and the Antarctic, to maintain the 
critical ice measurements during the gap in time between the ICESAT-1 
and -2 satellites.
    In FY 2011, the Glory and Aquarius missions will launch; and FY 
2011 should close with the launch of the NPOESS Preparatory Project. 
The Landsat Data Continuity Mission will complete spacecraft 
integration and test, the Operational Land Imager will be delivered, 
and the Thermal Infrared Sensor will continue development. The Global 
Precipitation Mission will complete its System Integration Review in 
preparation for the beginning of assembly, integration and testing. 
During FY 2011, the SMAP mission will transition from formulation to 
development, and ICESAT-2 will begin design. Also in FY 2011, 
instrument development and observations initiated under the first 
Venture class solicitation for sustained airborne missions will reach 
full funding, and the next Venture class solicitations will be 
released-this time for space-based mission instrument, and complete 
mission, developments. Engineering studies and focused, actively-
managed technology investments--instruments, components, and 
information systems--continue for the suite of future missions 
recommended by the National Research Council (NRC) Decadal Survey. In 
FY 2011, the Earth Science Technology Program will make additional, 
competitively-selected, instrument technology investments to meet 
decadal survey measurement goals. Earth Science Research and Applied 
Sciences Programs will continue to employ satellite observations to 
advance the science of climate and environmental change, mitigation, 
and adaptation. NASA will demonstrate the use of Uninhabited Aerial 
Systems in field campaigns addressing atmospheric trace gas composition 
and hurricane genesis, and NASA's modeling and data analysis efforts 
will contribute to assessment activities of the Intergovernmental Panel 
in Climate Change and the U.S. Global Change Research Program.
    The FY 2011 budget request for Science includes $1,485.8 million 
for Planetary Science. The current NASA planetary missions continue to 
make new discoveries and return fascinating images, including a 
previously unknown large and askew ring of Saturn and a near-complete 
map of the surface of Mercury. Mars continues to intrigue with signs of 
water ice just below the surface at mid-latitudes. The Mars rover 
Spirit is now an in situ science prospector, while Opportunity 
continues to roll toward the crater Endeavor. The Moon Mineralogy 
Mapper instrument on India's Chandrayaan-1 mission detected small 
amounts of water and hydroxyl molecules at unexpectedly low latitudes 
on the lunar surface. NASA selected three new candidate mission 
concepts for further study under the New Frontiers program, and will 
select the winning concept in FY 2011 to proceed to development. NASA 
will issue its next Discovery Announcement of Opportunity this year, 
and will select mission concepts and fund concept studies in FY 2011. 
NASA will also begin Advanced Stirling Radioisotope Generator 
development in FY 2011 to be available as an option to improve the 
performance of the radioisotope-fueled power sources for use in the 
next Discovery mission. The Mars Science Laboratory will complete 
development in FY 2011 for launch in fall 2011, beginning the most 
comprehensive astrobiology mission to the Red Planet to date. The MAVEN 
Mars aeronomy mission will continue development for launch in late 
2013. NASA will establish a joint Mars Exploration Program with the 
European Space Agency (ESA) with a trace gas orbiter mission, including 
a European technology demonstration lander. In FY 2011, NASA plans to 
select instruments for the mission via a joint Announcement of 
Opportunity. To advance scientific exploration of the Moon, NASA will 
launch the GRAIL mission in late 2011 and continue development of LADEE 
for launch in 2013. Continuing its exploration of the outer planets, 
NASA will launch the Juno mission to Jupiter in August 2011. NASA will 
continue studies that support the possibility of a new major Outer 
Planets Mission concept pending the outcome of the NRC decadal survey 
now in progress, and will coordinate with ESA on a solicitation for 
science instruments. The new NRC Decadal Survey in Planetary Science 
should be complete in FY 2011. The FY 2011 budget request increases 
NASA's investment in identification and cataloging of Near Earth 
Objects and, with the Department of Energy, begins funding the 
capability to restart Plutonium-238 production here in the United 
States.
    The FY 2011 budget request for Science includes $1.076.3 million 
for Astrophysics. The golden age of Astrophysics from space continues, 
with 14 observatories in operation. Astrophysics research, technology 
investments, and missions aim to understand how the universe works, how 
galaxies, stars and planets originated and developed over cosmic time, 
and whether Earth-like planets--and possibly life--exist elsewhere in 
the cosmos. The NASA Kepler telescope has discovered five exoplanets, 
ranging in size from Neptune to larger than Jupiter, demonstrating that 
the telescope is functioning as intended; additional discoveries are 
anticipated in the coming months and years. NASA's newest space 
observatory, WISE (Wide-Field Infrared Explorer), has captured its 
first look at the starry sky and its sky survey in infrared light has 
begun. Radio astronomers have uncovered 17 millisecond pulsars in our 
galaxy by studying unknown high-energy sources detected by the Fermi 
Gamma-ray Space Telescope.
    The Hubble Space Telescope is operating at its peak performance 
thanks to the very successful servicing mission last year by the STS-
125 crew. The Herschel and Planck missions, led by the European Space 
Agency with NASA as a partner, launched in 2009 and are returning 
remarkable scientific results. In FY 2011, NASA will complete most of 
the development of the NuSTAR mission and prepare it for launch. NASA 
will also begin developing the Gravity and Extreme Magnetism (GEMS) 
mission recently selected in the Explorer small satellite program. The 
James Webb Space Telescope (JWST) continues to make good progress in 
development toward a 2014 launch. Flight hardware for the many JWST 
subsystems is being designed, manufactured and tested, including the 18 
segments of its 6.5-meter primary mirror; and the mission-level 
Critical Design Review for JWST will occur this spring. The SOFIA 
airborne observatory successfully conducted its first open-door flight 
test in December 2009--a major milestone toward the beginning of early 
science operations this year. The NRC is conducting a new Decadal 
Survey in astronomy and astrophysics, which will set priorities among 
future mission concepts across the full spectrum of Astrophysics, 
including dark energy, gravity wave, and planet-finding missions; the 
``Astro2010'' Decadal Survey is expected in September.
    The FY 2011 budget request for Science includes $641.9 million for 
Heliophysics. The Heliophysics operating satellites provide not only a 
steady stream of scientific data for the NASA research program, but 
also supply a significant fraction of critical space weather data used 
by other government agencies for support of commercial and defense 
activities in space. These data are used for operating satellites, 
optimization of power transmission networks, and supporting 
communications, aviation and navigation systems. The NASA Aeronomy of 
Ice in Mesosphere (AIM) satellite has provided the first comprehensive, 
global-scale view of the complex life cycle of Earth's highest clouds, 
Polar Mesospheric Clouds, finding clues to why they appear to be 
occurring at lower latitudes than ever before. The STEREO B spacecraft 
recently observed a sunspot behind the Sun's southeastern limb--before 
it could be seen from Earth. In a few days, this sunspot produced five 
Class M solar flares of the kind that disturb radio signals on Earth, 
signaling the end of the Sun's extended quiet period of recent years. 
The Solar Dynamic Observatory (SDO), launched on February 11, will 
provide images of the Sun of unprecedented resolution, yielding new 
understanding of the causes of solar variability and its impact on 
Earth. In FY 2011, the Radiation Belt Storm Probes mission will 
complete hardware manufacturing and begin integration and testing. The 
Solar Orbiter Collaboration with the European Space Agency will 
continue in formulation, and the Solar Probe Plus mission will undergo 
an initial confirmation review at the end of FY 2011. The 
Magnetospheric Multi-scale mission will continue development toward a 
Critical Design Review. IRIS, a recently selected small Explorer 
mission, will hold its Critical Design Review in FY 2011. The next 
Explorer Announcement of Opportunity will be released in 2010, with 
selection for Phase A studies in FY 2011. NASA is working with the NRC 
to arrange for the next decadal survey in Heliophysics.

Aeronautics Research

    The U.S. commercial aviation enterprise is vital to the Nation's 
economic well-being, directly or indirectly providing nearly one 
million Americans with jobs. In 2008 aerospace manufacturing provided 
the Nation with a trade surplus of over $57 billion. In the United 
States, more than 60 certified domestic carriers operate more than 
28,000 flights daily, moving nearly one million travelers each day. We 
expect these flights to be safe, affordable, and convenient. We expect 
airlines to offer flights when and where we want to travel. In business 
and in our personal lives, the aviation industry is a key enabler to 
our way of life and the smooth functioning of our economy. However, the 
air transport system is near maximum capacity given today's procedures 
and equipment. Rising concerns about the environmental and noise 
impacts of aviation further limit future growth.
    The FY 2011 budget request for Aeronautics is $579.6 million, an 
increase of $72.6 million, which will strongly support our existing 
portfolio of research and development to directly address these most 
critical needs of the Nation and enable timely development of the Next 
Generation Air Transportation System (NextGen). Through a balanced 
research and development portfolio, NASA's Aeronautics Research Mission 
Directorate (ARMD) is exploring early-stage innovative ideas, 
developing new technologies and operational procedures through 
foundational research, and demonstrating the potential of promising new 
vehicles, operations, and safety technology in relevant environments. 
Our goals are to expand capacity, enable fuel-efficient flight 
planning, reduce the overall environmental footprint of airplanes today 
and, in the future, reduce delays on the ground and in the sky, and 
improve the ability to operate in all weather conditions while 
maintaining the current high safety standards we demand.
    The FY 2011 budget request for Aeronautics includes $228.5 million 
for the Fundamental Aeronautics Program, which seeks to continually 
improve technology that can be integrated into today's state-of-the-art 
aircraft, while enabling game-changing new concepts such as Hybrid Wing 
Body (HWB) airframes which promise reduced drag (thus improving fuel 
bum) and open-rotor engines which offer the promise of 20 percent fuel 
burn reduction compared to today's best jet engines. In partnership 
with Boeing and the Air Force, NASA has completed over 75 flights of 
the X48B sub-scale HWB aircraft at Dryden Flight Research Center in the 
last two years to explore handling and control issues. NASA is 
partnering with General Electric and Boeing to evaluate performance and 
integration of new open-rotor engine concepts in propulsion wind 
tunnels at the Glenn Research Center. NASA is also addressing key 
challenges to enable new rotorcraft and supersonic aircraft, and 
conducting foundational research on flight at seven times the speed of 
sound. American Recovery and Reinvestment Act funds have enabled NASA 
to re-commission a full-scale airframe structural test facility and to 
improve wind tunnels at the Langley, Ames, and Glenn Research Centers 
that are needed to assess new concepts that hold the promise of 
significant reductions in aircraft weight and fuel consumption. In 
partnership with industry, NASA has just initiated the first new 
government-funded effort on low NOx combustors in 15 years. In FY 2011, 
NASA will invest $30.0 million to design, build, and demonstrate a new 
generation of aircraft engine combustors that will lower the emission 
of harmful nitrogen oxides by 50 percent compared with current 
combustors while ensuring compatibility with current and future 
alternative aviation fuels.
    A key research goal is to develop synthetic and bio-derived 
alternatives to the petroleum-derived fuel that all jet aircraft have 
used for the last 60 years, but little is known about the emissions 
characteristics of these alternative fuels. In 2009, NASA led a team of 
eight partners from government agencies, industry, and academia in 
measuring emissions from an aircraft parked on the ground operating on 
various blends of synthetic and standard jet fuel. This team discovered 
that synthetic fuel blends can reduce particulate emissions by as much 
as 75 percent compared to conventional jet fuels, which would offer a 
major improvement in local air quality around airports. Using results 
from this and other research efforts, NASA has established a publicly-
available database of fuel and emissions properties for 19 different 
fuels and will perform similar tests on biofuels as they become 
available.
    The FY 2011 budget request for Aeronautics includes $82.2 million 
for Airspace Systems. The focus of this program is to achieve 
reductions in environmental impact not only through new aircraft, 
engines, and fuels, but also through improved air traffic management 
procedures. Using flight data from just the top 27 airports in the 
country, NASA systems analysis results indicate that nearly 400 million 
gallons of fuel could be saved each year if aircraft could climb to and 
descend from their cruising altitude without interruption. Another 200 
million gallons could be saved from improved routing during the cruise 
phase of flight. Achievement of such operations requires that aircraft 
spacing in the air and on-time arrival and departure from the regions 
around our major airports be greatly improved. New satellite-based 
navigation aids such as the ADS-B system that the Federal Aviation 
Administration (FAA) is installing throughout the country can enable 
these improvements, but safe and efficient operational procedures must 
first be developed, validated, and certified for operational use. In 
2009, NASA partnered with FAA, United Airlines, and Air Services 
Australia to validate pilot and controller procedures for a new concept 
originally developed by NASA that enables aircraft to safely conduct 
climbs and descents outside radar coverage in close proximity to nearby 
traffic. NASA also provided safety analyses needed for regulatory 
approval. The procedures benefit both airlines and the traveling public 
by providing long-haul oceanic flight with easier access to fuel-
efficient, turbulence-free altitudes. United Airlines is expected to 
begin flying the oceanic in-trail procedures on revenue flights in May 
2011.
    The FY 2011 budget request for Aeronautics includes $113.1 million 
for the Integrated Systems Research Program. Begun in FY 2010, this 
program evaluates and selects the most promising ``environmentally 
friendly'' engine and airframe concepts emerging from our foundational 
research programs for integration at the systems level. In FY 2011, the 
program will test integrated systems in relevant environments to 
demonstrate that the combined benefits of these new concepts are in 
fact greater than the sum of their individual parts. Similarly, we are 
integrating and evaluating new operational concepts through real-world 
tests and virtual simulations. These efforts will facilitate the 
transition of new capabilities to manufacturers, airlines and the FAA, 
for the ultimate benefit of the flying public. In addition to strongly 
supporting our ongoing research portfolio, the FY 2011 budget request 
includes increased funding to expand our research in new priority areas 
identified through close consultation with industry, academia and other 
Federal agencies. In FY 2011, NASA will initiate a $30 million targeted 
effort to address operational and safety issues related to the 
integration of unmanned aircraft systems into the National Airspace 
System and augment research and technology development efforts by $20 
million, including grants and cooperative agreements, to support NASA's 
environmentally responsible aviation research.
    The FY 2011 budget request for Aeronautics includes $79.3 million 
for the Aviation Safety Program. This program conducts research to 
insure that aircraft and operational procedures maintain the high level 
of safety which the American public has come to count on. Safety issues 
span aircraft operations, air traffic procedures, and environmental 
hazards and this program is supporting research and delivering results 
in all three areas. American carriers operate 6,500 aircraft on more 
than 28,000 flights daily. For most of the day the FAA is controlling 
more than 4,000 aircraft in the sky at the same time. Further increases 
in capacity will require increased levels of automation for command and 
control functions and to analyze vast amounts of data, as well as 
increased complexity of the overall system. It now costs more to prove 
today's flight-critical systems are safe than it does to design and 
build them. The Joint Planning and Development Office has identified 
Verification and Validation (V&V) of aviation flight-critical hardware 
and software systems as one of the major capability gaps in NextGen. 
Therefore in FY 2011, NASA is initiating a new $20 million research 
activity in V&V of aviation flight-critical systems to develop 
methodologies and concepts to effectively test, validate and certify 
software-based systems that will perform reliably, securely, and safely 
as intended.
    NASA will continue to tackle difficult issues that threaten the 
safety of commercial flight, ranging from human/machine interaction to 
external hazards such as weather and icing, as the aircraft industry 
has come to rely on NASA expertise in predicting the effects of icing 
on aircraft performance at low and intermediate altitudes. However, 
over the last ten years a new form of icing problem has surfaced, 
occurring primarily in equatorial regions at high cruise altitudes and 
causing engine power loss or flameout. These conditions cannot be 
duplicated in any existing ground test facility. To study this problem, 
in 2009 NASA initiated an effort to modify the Propulsion Systems 
Laboratory at the Glenn Research Center to enable research on ways to 
mitigate the effects of high-altitude icing and development of new 
engine certification procedures.
    The FY 2011 budget request for Aeronautics includes $76.4 million 
for the Aeronautics Test Program (ATP), which makes strategic 
investments to ensure availability of national ground facilities and 
flight assets to meet the testing needs of NASA and the Nation. The 
program also invests in the development of new test instrumentation and 
test technologies. One such example is ATP's collaboration with the 
Aviation Safety Program to provide a new testing capability in the 
NASA-Glenn PSL facility to address the threat of high-altitude ice 
crystals to jet engine operability. The program recently demonstrated 
for the first time the ability to generate ice crystals at the very 
cold temperatures (-60 +F) encountered at commercial aircraft cruise 
altitudes. The PSL high-altitude ice crystal capability will become 
operational in FY 2011. The program also completed the development of a 
new Strategic Plan to provide the vision and leadership required to 
meet national goals; provide sustained support for workforce, 
capability improvements, and test technology development; and provide 
strategic planning, management, and coordination with NASA, government, 
and industry stakeholders. This plan will provide informed guidance as 
ATP develops a critical decision tool for building well-coordinated 
national testing capabilities in collaboration with the Department of 
Defense through the National Partnership for Aeronautical Testing 
(NPAT).
    Partnerships with industry, academia, and other Federal agencies 
are critical to the success and relevance of NASA research. Through 
close collaboration, NASA ensures that it works on the right challenges 
and improving the transition of research results to users. NASA is 
using NASA/FAA Research Transition Teams (RTTs) to conduct joint 
research and field-trials to speed acceptance of new air traffic 
management procedures. The Agency is also coordinating management and 
operation of the Federal Government's large aeronautics ground test 
infrastructure through the NPAT. Through NASA Research Announcements 
(NRAs), NASA solicits new and innovative ideas from industry and 
academia while providing support for Science, Technology, Engineering, 
and Math departments. The Agency also funds undergraduate and graduate 
scholarships, Innovation in Aeronautics Instruction grants to improve 
teaching programs at the university level, and sponsor student design 
competitions at undergraduate and graduate levels for both U.S. and 
international entrants. By directly connecting students with NASA 
researchers and our industrial partners we become a stronger research 
organization while inspiring students to choose a career in the 
aerospace industry.

Exploration

    The FY 2011 budget request for Exploration is $4,263.4 million, an 
increase of $483.6 million above the FY 2010 enacted level. Included in 
this budget request is funding for three new, robust programs that will 
expand the capabilities of future space explorers far beyond those we 
have today. NASA will embark on these transformative initiatives by 
partnering with the best in industry, academia and other government 
agencies, as well as with our international partners. These partners 
have been integral to much of NASA's previous success and are vital to 
our bold new vision.
    NASA will encourage active public participation in our new 
exploration missions via a new participatory exploration initiative. 
Additionally, the FY 2011 budget request builds upon NASA's commercial 
cargo efforts by providing significant funding for the development of 
commercial human spaceflight vehicles, freeing NASA to focus on the 
forward-leaning work we need to accomplish for beyond-LEO missions. The 
FY 2011 budget request is a 40 percent increase over last year's 
investment in the Human Research Program, to help prepare for future 
human spaceflight exploration beyond low-Earth orbit. Lastly, the 
Exploration FY 2011 budget request includes funding for the 
Constellation Program close-out activities spread across FY 2011 and FY 
2012.
    In the near term, NASA is continuing Constellation work to ensure 
an orderly closeout of the program in FY 2011 and to capture of all of 
the knowledge learned through its key efforts. The Constellation 
Program is focusing on completing its Preliminary Design Review (PDR), 
which will conclude this year. NASA believes that completing the 
Constellation PDR will support not only the close-out process for 
Constellation, but also will ensure that historical data from 
Constellation work is documented, preserved and made accessible to 
future designers of other next-generation U.S. human spaceflight 
systems.
    The Exploration FY 2011 budget request includes three new robust 
research and development programs that will enable a renewed and 
reinvigorated effort for future crewed missions beyond low-Earth orbit:

        <bullet>  Technology Development and Demonstration Program: 
        $652.4 million is requested in FY 2011, and a total of $7,800.0 
        million is included in the five year budget plan, to invent and 
        demonstrate large-scale technologies and capabilities that are 
        critical to future space exploration, including cryo-fluid 
        management and transfer technologies; rendezvous and docking 
        technologies; and closed-loop life support systems. These 
        technologies are essential to making future exploration 
        missions more capable, flexible, and affordable.

        <bullet>  Heavy-Lift and Propulsion Research and Development 
        Program: $559.0 million is requested in FY 2011, and a total of 
        $3,100.0 million is included in the five-year budget plan, for 
        an aggressive, new heavy-lift and propulsion R&D program that 
        will focus on development of new engines, propellants, 
        materials and combustion processes that would increase our 
        heavy-lift and other space propulsion capabilities and 
        significantly lower operations costs--with the clear goal of 
        taking us farther and faster into space consistent with safety 
        and mission success.

        <bullet>  Robotic Exploration Precursor Program: $125.0 million 
        is requested in FY 2011, and $3,000.0 million is included in 
        the five-year budget plan, for robotic missions that will pave 
        the way for later human exploration of the Moon, Mars and 
        nearby asteroids. Like the highly successful Lunar 
        Reconnaissance Orbiter and Lunar Crater Observation and Sensing 
        Satellite missions that captured our attention last fall, 
        future exploration precursor missions will scout locations and 
        demonstrate technologies to locate the most interesting places 
        to explore with humans and validate potential approaches to get 
        them there safely and sustainably.

    Cross-agency teams for each of these three areas are working to 
develop plans that delineate key areas for research and development, 
specify milestones for progress and set launch dates for relevant 
missions. They will report to the Administrator over the coming months, 
and the results of their efforts will be shared with the Congress when 
they are complete.
    The Exploration FY 2011 budget request for Commercial Spaceflight 
is $812.0 million, which includes $500.0 million to spur the 
development of U.S. commercial human spaceflight vehicles, and a total 
of $6 billion in the five-year budget plan. This investment funds NASA 
to contract with industry to provide astronaut transportation to the 
International Space Station as soon as possible, reducing the risk of 
relying solely on foreign crew transports, and frees up NASA resources 
to focus on the difficult challenges in technology development, 
scientific discovery, and exploration. We also believe it will help to 
make space travel more accessible and more affordable. An enhanced U.S. 
commercial space industry will create new high-tech jobs, leverage 
private sector capabilities and energy in this area, and spawn other 
businesses and commercial opportunities, which will spur growth in our 
Nation's economy. And, a new generation of Americans will be inspired 
by these commercial ventures and the opportunities they will provide 
for additional visits to space. NASA plans to allocate this FY 2011 
funding via competitive solicitations that support a range of 
activities such as human-rating existing launch vehicles and developing 
new crew spacecraft that can ride on multiple launch vehicles. NASA 
will ensure that all commercial systems meet stringent human-rating and 
safety requirements before we allow any NASA crew member (including 
NASA contractors and NASA-sponsored International partners) to travel 
aboard a commercial vehicle on a NASA mission. Safety is, and always 
will be, NASA's first core value.
    In addition to the $500 million identified for crew transportation 
development efforts, the budget also includes $312.0 million in FY 2011 
for incentivizing NASA's current commercial cargo program. These 
funds--by adding or accelerating the achievement of already-planned 
milestones, and adding capabilities or tests--aim to expedite the pace 
of development of cargo flights to the ISS and improve program 
robustness.
    Today, NASA is using $50.0 million from the American Recovery and 
Reinvestment Act of 2009 to help drive the beginnings of a commercial 
crew transportation industry. Through an open competition, in early 
February, NASA awarded Space Act Agreements to five companies who 
proposed ideas and concepts intended to make commercial crew services a 
reality. While there are many vibrant companies out there that we hope 
to partner with in the future, these five companies, along with our two 
currently funded Commercial Orbital Transportation Services partners 
(Space Exploration Technologies and Orbital Sciences Corporation) are 
at the forefront of a grand new era in space exploration.
    The Exploration FY 2011 budget request includes $215.0 million for 
the Human Research Program, an increase of more than 40 percent over 
the FY 2010 enacted level, and an investment of $1,075 million over the 
five-year budget plan. The Human Research Program is a critical element 
of the NASA human spaceflight program in that it develops and validates 
technologies that serve to reduce medical risks associated for crew 
members.
    The Exploration FY 2011 budget request includes $1,900.0 million 
for Constellation Closeout requirements, and a total of $2,500.0 
million over the FY 2011-2012 timeframe. These funds will be used for 
related facility and close-out costs, potentially including increased 
costs for Shuttle transition and retirement due to Constellation 
cancellation. The Agency has established senior planning teams to 
outline options for Constellation close out expeditiously and 
thoughtfully and to assess workforce, procurement and other issues, 
which will report to the Administrator over the coming months, to 
ensure that people and facilities are best utilized to meet the needs 
of NASA's new missions. NASA will work closely with the Congress as 
these activities progress.
    NASA recognizes that this change will personally affect thousands 
of NASA civil servants and contractors who have worked countless hours, 
often under difficult circumstances, to make the Constellation Program 
successful. I commend the investment that these dedicated Americans 
have made and will continue to make in our Nation's human spaceflight 
program. Civil servants who support Constellation should feel secure 
that NASA has exciting and meaningful work for them to accomplish after 
Constellation, and our contractor colleagues should know that NASA is 
working expeditiously to identify new opportunities for them to partner 
with the Agency on the new Exploration portfolio.

Space Technology

    Through the new Space Technology Program, led by the recently 
established Office of the Chief Technologist, NASA will increase its 
support for research in advanced space systems concepts and game-
changing technologies, enabling new approaches to our current mission 
set and allowing the pursuit of entirely new missions. Using a wide 
array of management, funding, and partnership mechanisms, this program 
will engage the brightest minds in private industry, across the NASA 
Centers, and throughout academia. This new program builds upon the 
success of NASA's Innovative Partnerships Program and directly responds 
to input from multiple NRC reports, as well as the Augustine Committee. 
The Space Technology program will meet NASA's needs for new 
technologies to support future NASA missions in science and 
exploration, as well as the needs of other government agencies and the 
Nation's space industry in a manner similar to the way NACA aided the 
early aeronautics industry. Many positive outcomes are likely from a 
long-term NASA advanced space systems concepts and technology 
development program, including a more vital and productive space future 
than our country has today, a means to focus NASA intellectual capital 
on significant national challenges and needs, a spark to renew the 
nation's technology-based economy, an international symbol of our 
country's scientific and technological leadership, and a motivation for 
many of the country's best young minds to enter into educational 
programs and careers in engineering and science.
    The FY 2011 budget request for Space Technology is $572.2 million, 
and $4,925.9 million is included in the five-year budget plan. With 
this initiative, NASA will expand its Technology and Innovation 
portfolio to include: open competitions to stimulate highly innovative, 
early-stage space system concepts and ideas; development of 
technologies that can provide game-changing innovations to address NASA 
and national needs; and development and infusion of cross-cutting 
capabilities into missions that address needs from multiple NASA 
Mission Directorates, other government agencies, and commercial 
activities in space, while fostering and stimulating a research and 
development culture at NASA Centers. Beginning in FY 2011, activities 
associated with the Innovative Partnerships Program are transferred to 
Space Technology.
    The need for advanced capabilities is increasing as NASA envisions 
missions of increasing complexity to explore and understand the Earth, 
our solar system, and the universe. Technology and innovation are 
critical to successfully accomplishing these missions in an affordable 
manner. The Space Technology program will enhance NASA's efforts to 
nurture new technologies and novel ideas that can revolutionize our 
aerospace industrial base, as well as to address national and global 
challenges and enable whole new capabilities in science and exploration 
that will be of benefit to the Nation. Key focus areas include 
communications, sensors, robotics, materials, and propulsion. The Space 
Technology program will use open competitions such as NASA Research 
Announcements and Announcements of Opportunity, targeted competitions 
such as those for small business (SBIR), universities (STTR), and 
engage early career scientists and engineers. NASA will also continue 
to use challenges and prizes to stimulate innovative new approaches to 
technology development and will encourage partnerships with both 
established and emerging commercial space industries. Through the three 
major elements of this program--Early-Stage Innovation, Game-Changing 
Innovation, and Crosscutting Capabilities--a broad suite of management, 
funding and partnership mechanisms are employed to stimulate innovation 
across NASA, industry and academia.
    The Early-Stage Innovation program element sponsors a wide range of 
advanced space system concept and initial technology development 
efforts across academia, industry and the NASA Centers. This program 
element includes: (a) the Space Technology Research Grant program 
(analogous to the Fundamental Aeronautics program within NASA's 
Aeronautics Research Mission Directorate) that focuses on foundational 
research in advanced space systems and space technology, (b) re-
establishment of a NIAC-like Program to engage innovators within and 
external to the Agency in accordance with the recommendations of the 
NRC's Fostering Visions of the Future report, (c) enhancement of the 
Innovative Partnership Programs Seed Fund into a Center Innovations 
Fund to stimulate aerospace creativity and innovation at the NASA field 
Centers, (d) NASA's SBIR/STTR program to engage small businesses, and 
(e) the Centennial Challenges Prize Program to address key technology 
needs with new sources of innovation outside the traditional aerospace 
community. Competitive selection is a major tenet of all the activities 
within this low technology readiness level (TRL) program element.
    The Game Changing Innovation program element focuses on maturing 
advanced technologies that may lead to entirely new approaches for the 
Agency's future space missions and solutions to significant national 
needs. Responsive to the NRC report, America's Future in Space. 
Aligning the Civil Space Program with National Needs, this program 
element demonstrates the feasibility of early-stage ideas that have the 
potential to revolutionize future space missions. Fixed-duration awards 
are made to PI-led teams comprised of government, academia and industry 
partners. These awards are evaluated annually for progress against 
baseline milestones with the objective of maturing technologies through 
ground-based testing and laboratory experimentation. NASA intends to 
draw from DARPA's experience to create and implement collaborative 
game-changing space technology initiatives. New technologies considered 
may include advanced lightweight structures and materials, advanced 
propulsion, power generation, energy storage and high bandwidth 
communications. With a focus on such potentially revolutionary 
technologies, success is not expected with each investment; however, on 
the whole, and over time, dramatic advances in space technology 
enabling entirely new NASA missions and potential solutions to a wide 
variety of our society's grand technological challenges are 
anticipated.
    A Crosscutting Capabilities program element matures a small number 
of technologies that are of benefit to multiple customers to flight 
readiness status. Technical risk, technology maturity, mission risk, 
customer interest, and proposed cost are discriminators planned for use 
in the selection process. For infusion purposes, proposing teams are 
required to have a sponsor willing to cost share a minimum of 25 
percent of the planned development effort. With objectives analogous to 
the former New Millennium program, NASA will pursue flight 
demonstrations not only as standalone missions, but also as missions of 
opportunity on planned NASA missions as well as international and 
commercial space platforms. The Commercial Reuseable Suborbital 
Research Program (which provides suborbital flight opportunities for 
technology demonstrations, scientific research and education), the 
Facilitated Access to the Space environment for Technology (FAST) 
project (which focuses on testing technologies on parabolic aircraft 
flights that can simulate microgravity and reduced gravity 
environments) and the Edison Small Satellite Demonstration Missions 
project (which develops and operates small satellite missions in 
partnership with academia). are also included in this program element.
    NASA has had past success in the development of game-changing 
technologies and the transfer of its products and intellectual capital 
to industry. As an example, consider the Mars Pathfinder mission of the 
early 1990s. In addition to accomplishing its science and technology 
objectives, Mars Pathfinder established surface mobility and ground 
truth as important exploration principles, created a groundswell of 
interest and a foundational experience for a new generation of Mars 
scientists and engineers, re-engaged the public with Mars as a 
destination worthy of exploration, led to the creation of NASA's Mars 
program and establishment of a Mars program budget line, and led to a 
wide spectrum of small missions to Mars, the asteroids, comets and 
other bodies in our solar system. For NASA's robotic exploration 
program, Mars Pathfinder was clearly a game-changer. In a more recent 
example, consider NASA's recent improvements to thermal protection 
system (TPS) materials through an Advanced Capabilities development 
project. Over three years, a NASA-industry team raised the TRL of 8 
different TPS materials from 5 different commercial vendors, eventually 
selecting the best as the system for the Orion heat shield. In addition 
to providing a heat shield material and design for Orion on time and on 
budget, this Advanced Capabilities development project re-invigorated a 
niche space industry that was in danger of collapse, re-established a 
NASA competency able to respond to future TPS needs. For example, the 
team identified a potentially catastrophic problem with the planned MSL 
heat shield and remedied the problem by providing a viable alternate 
heat shield material and design within stringent schedule constraints. 
The mature heat shield material and designs have been successfully 
transferred to the commercial space industry, including the TPS 
solution for the SpaceX Dragon capsule. Beginning in FY 2011, the new 
NASA Space Technology program aims to strengthen and broaden these 
successful innovation examples across a wide range of NASA enterprises 
and significant national needs.

Space Operations

    The FY 2011 budget request includes $4,887.8 million for Space 
Operations, funding the Space Shuttle program, the International Space 
Station Program, and the Space and Flight Support program.
    The FY 2011 budget request for the Space Shuttle program is $989.1 
million. In 2009, the Space Shuttle flew five times, delivering to the 
ISS its final set of solar arrays and the equipment needed to support a 
six-person permanent crew; servicing the Hubble Space Telescope; 
completing the assembly of the three-module Japanese Kibo science 
laboratory; outfitting the Station with two external payload and 
logistics carriers, the Materials Science Research Rack-1, the Fluid 
Integrated Rack, the Minus Eighty-Degree Laboratory Freezer, a 
treadmill, and air revitalization equipment; and, delivering key 
supplies.
    In 2010, the Shuttle is slated to fly out its remaining four 
missions, including the recently completed STS-130 mission. In April, 
Shuttle Discovery will carry up critical supplies for the ISS using a 
Multi-Purpose Logistics Module (MPLM) and the Lightweight Multi-Purpose 
Experiment Support Structure Carrier (LMC). Atlantis will launch in May 
with the Russian Mini-Research Module-1, as well as the Integrated 
Cargo Carrier-Vertical Light Deployment (ICC-VLD). This summer, 
Endeavour will carry the Alpha Magnetic Spectrometer (AMS) and attach 
it to the Station's truss structure. The AMS is a particle physics 
experiment, which will use the unique environment of space to advance 
knowledge of the universe and contribute to understanding the 
universe's origin. AMS is presently undergoing critical thermal and 
electrical testing at the European test facilities in the Netherlands. 
If these tests are successful, AMS will ship to KSC in May for the July 
launch. The final Shuttle mission, STS-133, is targeted for September 
of this year. Discovery will carry supplies to ISS, as well as an MPLM 
that will be installed on ISS as a permanent module, expanding the 
Station's storage volume. This flight will mark the completion of ISS 
assembly.
    For almost 30 years, the Space Shuttle has carried U.S. and 
international astronauts into orbit; played a key role in the 
construction, outfitting, and resupply of the ISS; serviced the Hubble 
Space Telescope five times; served as an Earth-orbiting laboratory 
through the Spacelab and SpaceHab missions; and deployed a diverse 
array of payloads, including science probes and research experiments 
(such as the Magellan mission to Venus and Earth-orbiting tether 
experiments), communications satellites; and even student projects. 
NASA recognizes the role the Space Shuttle vehicles and personnel have 
played in the history of space activity, and looks forward to 
transitioning key workforce, technology, facilities, and operational 
experience to a new generation of human spaceflight exploration 
activities.
    FY 2011 will be the first full year of major Space Shuttle Program 
(SSP) transition and retirement (T&R) activities. T&R is focused on the 
retirement of the SSP and the efficient transition of assets to other 
uses once they are no longer needed for safe mission execution. These 
activities include identifying, processing, and safing hazardous 
materials, and the transfer or disposal of SSP assets, including the 
preparation of Orbiters and other flight hardware for public display. 
T&R also covers severance and retention costs associated with managing 
the drawdown of the SSP workforce.
    A key element of America's future in space is the International 
Space Station. The FY 2011 budget request for the International Space 
Station Program is $2,779.9 million. As of May 2009, the ISS has been 
able to support a six-person permanent crew, and during the STS-127 
mission last July, the Station hosted 13 astronauts representing the 
five space agencies in the ISS partnership, including those of the 
United States, Russia, Japan, Europe and Canada. The three major 
science labs aboard ISS were completed in 2009 with the delivery of the 
Exposed Facility of the Japanese Kibo module. In addition, the first 
flight of Japan's H-II Transfer Vehicle (HTV) was successfully carried 
out last fall, adding a new cargo-carrying spacecraft to the fleet.
    This year will mark the completion of assembly of the ISS--the 
largest crewed spacecraft ever assembled, measuring 243 by 356 feet, 
with a habitable volume of over 30,000 cubic feet and a mass of 846,000 
pounds, and powered by arrays which generate over 700,000 kilowatt-
hours per year. The ISS represents a unique research capability aboard 
which the United States and its partner nations can conduct a wide 
variety of research in biology, chemistry, physics and engineering 
fields which will help us better understand how to keep astronauts 
healthy and productive on long-duration space missions. Funding for ISS 
research is also reflected in the Exploration budget request and in the 
Space Technology budget request.
    The FY 2011 budget request includes a dramatic increase in the 
Nation's investment in the research and capabilities of the ISS. With 
this investment, NASA will be able to fully utilize the ISS and 
increase those capabilities through upgrades to both ground support and 
onboard systems. Importantly, this Budget extends operations of the 
ISS, likely to 2020 or beyond. This budget makes a strong commitment to 
continued and expanded operation of the ISS. The United States as 
leader in space made this first step and will now work with the other 
ISS international partners to continue International operation of the 
ISS. ISS can inspire and provide a unique research platform for people 
worldwide.
    ISS research is anticipated to have terrestrial applications in 
areas such as biotechnology, bioengineering, medicine and therapeutic 
treatment. The FY 2011 budget request for ISS reflects increased 
funding to support the ISS as a National Laboratory in which this 
latter type of research can be conducted. NASA has two MOUs with other 
U.S. government agencies, and five agreements with non-government 
organizations to conduct research aboard the ISS. NASA intends to 
continue to expand the community of National Laboratory users of the 
ISS. This budget request supports both an increase in research and 
funding for cargo transportation services to deliver experiments to the 
Station.
    ISS can also play a key role in the demonstrations and engineering 
research associated with exploration. Propellant storage and transfer, 
life support systems, and inflatable technology can all benefit by 
using the unique research capabilities of ISS.
    In addition to supporting a variety of research and development 
efforts, the ISS will serve as an incubator for the growth of the low-
Earth orbit space economy. NASA is counting on its Commercial Resupply 
Services (CRS) suppliers to carry cargo to maintain the Station. The 
first CRS cargo flights will begin as early as 2011. It is hoped that 
these capabilities, initially developed to serve Station, may find 
other customers as well, and encourage the development of further space 
capabilities and applications. The suppliers involved will gain 
valuable experience in the development and operation of vehicles that 
can: 1) fly to the ISS orbit; 2) operate in close proximity to the ISS 
and other docked vehicles; 3) dock to ISS; and, 4) remain docked for 
extended periods of time.
    As a tool for expanding knowledge of the world around us; advancing 
technology; serving as an impetus for the development of the commercial 
space sector; demonstrating the feasibility of a complex, long-term, 
international effort; and, perhaps most importantly, inspiring the next 
generation to pursue careers in science, technology, engineering, and 
mathematics, the ISS is without equal.
    The FY 2011 budget request for Space and Flight Support (SFS) is 
$1,119.0 million. The budget request provided for critical 
infrastructure indispensable to the Nation's access and use of space, 
including Space Communications and Navigation (SCaN), the Launch 
Services Program (LSP), Rocket Propulsion Testing (RPT), and Human 
Space Flight Operations (HSFO). The SFS budget also includes a new and 
significant investment in the 21st Century Space Launch Complex, 
intended to increase operational efficiency and reduce launch costs by 
modernizing the Florida launch capabilities for a variety of NASA 
missions, which will also benefit non-NASA users.
    In FY 2011, the SCaN Program will begin efforts to improve the 
robustness of the Deep Space Network (DSN) by initializing the 
replacement of the aging 70m antenna capability with the procurement of 
a 34m antenna. The NASA DSN is an international network of antennas 
that supports interplanetary spacecraft missions and radio and radar 
astronomy observations for the exploration of the solar system and the 
universe. The DSN also supports selected Earth-orbiting missions. In 
the third quarter, a System Requirements Review (SRR) of the Space 
Network Ground Segment Sustainment (SGSS) Project will be conducted, 
and the Program will have begun integration and testing of the Tracking 
and Data Relay Satellites (TDRS) K&L. In the area of technology, the 
Communication Navigation and Networking Reconfigurable Testbed 
(CoNNeCT) will be installed on ISS. This test bed will become NASA's 
orbiting SCaN laboratory on the ISS and will validate new flexible 
technology to enable greater spacecraft productivity. NASA will also 
have its first optical communication system ready for integration into 
the Lunar Atmosphere and Dust Environment Explorer (LADEE) spacecraft. 
In addition, the Disruption Tolerant Networking (DTN) protocols will 
complete their development at the end of FY 2011 and should be ready 
for operations throughout the solar system. The SCaN operational 
networks will continue to provide an unprecedented level of 
communications and tracking services to over 75 spacecraft and launch 
vehicles during FY 2011.
    The LSP has six planned NASA launches in FY 2011 including Glory, 
Aquarius, Juno, Nuclear Spectroscopic Telescope Array (NuSTAR), NPOESS 
Preparatory Project (NPP) and the Gravity Recovery and Interior 
Laboratory (GRAIL) mission. In addition to processing, mission 
analysis, spacecraft integration and launch services, LSP will continue 
to provide support for the development and certification of emerging 
launch services.
    The RPT Program will continue to provide test facility management, 
and provide maintenance, sustaining engineering, operations, and 
facility modernization projects necessary to keep the test-related 
facilities in the appropriate state of operational readiness. These 
facilities will support many of the tests planned under ESMD's 
propulsion research program.
    HSFO includes Crew Health and Safety (CHS) and Space Flight Crew 
Operations (SFCO). SFCO will continue to provide trained crew for the 
manifested Space Shuttle requirements, four ISS long-duration crew 
rotation missions. CHS will identify and deliver necessary core medical 
capabilities for astronauts. In addition, CHS will gather astronaut 
medical data critical for determining medical risk as a result of space 
flight and how best to mitigate that risk.
    The 21st Century Launch Complex initiative will primarily benefit 
NASA's current and future operations at the Kennedy Space Center (KSC), 
but will also help to improve KSC launch operations for future and 
current non-NASA users of the range, with the goal of transforming KSC 
into a modern facility. This new initiative focuses on upgrades to the 
Florida launch range, expanding capabilities to support commercial 
launch providers, such as commercial cargo flights and future 
commercial crew flights in support of ISS, and expendable launch 
vehicles in support of the Science mission directorate payloads and 
robotic precursor missions. Additional areas under consideration 
include modernization activities to support safer and more efficient 
launch operations; enhancing payload processing capabilities through 
capacity increases, improvement, and modernization, in addition to 
potentially relocating the KSC perimeter where appropriate and 
feasible, to enable certain existing private sector facilities to lie 
outside the security perimeter, thus making it far more convenient to 
use those facilities; environmental remediation to reduce the impact on 
the surrounding areas; and supporting the modernization of the launch 
range capabilities. We will fully coordinate this activity with all 
users of the range.

Education

    The FY 2011 budget request for Education is $145.8 million. This 
budget request furthers NASA's commitment to inspiring the next 
generation of explorers in the STEM disciplines. In FY 2011, NASA will 
continue to strongly support the Administration's STEM priorities and 
will continue to capitalize on the excitement of NASA's mission to 
stimulate innovative solutions, approaches, and tools that inspire 
student and educator interest and proficiency in STEM disciplines. This 
strategy will increase the distribution and impact of NASA progressive 
opportunities for elementary and secondary teachers, university 
faculty, students of all ages, and the public.
    In FY 2011, NASA will support the Administration's STEM education 
teaching and learning improvement efforts, including Race to the Top 
and Educate to Innovate, while continuing efforts to incorporate NASA 
content into the STEM education initiatives of other Federal agencies. 
This summer, NASA will launch Summer of Innovation, an intensive STEM 
teaching and learning program targeted at the middle school level that 
includes follow-on activities during the school year. NASA content and 
products will be incorporated into evidence-based summer learning 
programs across participating states with the goal of improving student 
academic performance and motivating them to pursue further education 
and successful careers. The FY 2011 request includes funding for Summer 
of Innovation over a three-year period.
    NASA will also continue to partner with academic institutions, 
professional education associations, industry, and other Government 
agencies to provide K-12 teachers and university faculty with the 
experiences that capitalize on the excitement of NASA discoveries to 
spark their student's interest and involvement. Examples of such 
experiences are the NASA student launch initiatives and other hands-on 
payload development and engineering opportunities. The FY 2011 budget 
request also places increased emphasis on Education and cyber-learning 
opportunities and expands teacher pre-service, professional development 
and training programs. Additionally, NASA seeks to prepare high school 
students for undergraduate STEM study through experiences that blend 
NASA research and engineering experiences with classroom study and 
mentoring. Another Agency education goal is to broaden community 
college participation in NASA research and STEM workforce development.
    In FY 2011, the Agency aims to increase both the use of NASA 
resources and the availability of opportunities to a diverse audience 
of educators and students, including women, minorities, and persons 
with disabilities. An example is the Innovations in Global Climate 
Change Education project that will be implemented within the Minority 
University Research and Education Program. The project will seek 
innovative approaches to providing opportunities for students and 
teachers to conduct research using NASA data sets to inspire 
achievement and improve teaching and learning in the area of global 
climate change.

Cross-Agency Support

    NASA Cross-Agency Support provides critical mission support 
activities that are necessary to ensure the efficient and effective 
operation and administration of the Agency. These important functions 
align and sustain institutional and program capabilities to support 
NASA missions by leveraging resources to meet mission needs, 
establishing Agency-wide capabilities, and providing institutional 
checks and balances. Cross-Agency Support includes two themes: Center 
Management and Operations and Agency Management and Operations. The FY 
2011 budget request includes $3,310.2 million for Cross-Agency Support.
    NASA's FY 2011 budget request includes $2,269.9 million for Center 
Management and Operations, which funds the critical ongoing management, 
operations, and maintenance of nine NASA Centers and major component 
facilities. NASA Centers continue to provide high-quality support and 
the technical talent for the execution of programs and projects.
    NASA's FY 2011 budget request includes $1,040.3 million for Agency 
Management and Operations, which funds the critical management and 
oversight of Agency missions, programs and functions, and performance 
of NASA-wide activities, including five programs: Agency Management, 
Safety and Mission Success, Agency Information Technology Services, and 
Strategic Capabilities Assets Program. Beginning in FY 2011, activities 
associated with the Innovative Partnerships Program are transferred to 
the Space Technology program. The FY 2011 budget request provides:

        <bullet>  $428.1 million for Agency Management, which supports 
        executive-based, Agency-level functional and administrative 
        management requirements. Agency Management provides for the 
        operational costs of Headquarters as an installation; 
        institutional and management requirements for multiple Agency 
        functions; assessment and evaluation of NASA program and 
        mission performance; strategic planning; and independent 
        technical assessments of Agency programs.

        <bullet>  $201.6 million for Safety and Mission Success 
        activities required to continue strengthening the workforce, 
        training, and strengthening the fundamental and robust checks 
        and balances applied on the execution of NASA's mission, and to 
        improve the likelihood for safety and mission success for 
        NASA's programs, projects, and operations. The engineering, 
        safety and mission assurance, health and medical independent 
        oversight, and technical authority components are essential to 
        NASA's success and were established or modified in direct 
        response to many of the key Challenger and Columbia accident 
        board recommendations for reducing the likelihood for future 
        accidents. Included under Safety and Mission Success is the 
        Software Independent Verification and Validation program.

        <bullet>  $177.8 million for Agency Information Technology 
        Services, which encompasses cross-cutting services and 
        initiatives in IT management, applications, and infrastructure 
        necessary to enable the NASA Mission and improve security, 
        integration and efficiency of Agency operations. NASA plans 
        significant emphasis on continued implementation of five major 
        Agency-wide procurements to achieve the following: (1) 
        consolidation of IT networks leading to improved network 
        management, (2) consolidation of desktop/laptop computer 
        services and mobile devices to improve end-user services, (3) 
        data center consolidation to provide more cost-effective 
        services, (4) Agency public web site management to improve 
        access to NASA data and information by the public, and (5) 
        Agency business systems development and maintenance to provide 
        more efficient and effective business systems. NASA will also 
        continue to improve security incident detection, response, and 
        management through the Security Operations Center.

        <bullet>  $29.8 million for the Strategic Capabilities Assets 
        Program (SCAP). This program funds the costs required to 
        sustain key Agency test capabilities and assets, such as an 
        array of flight simulators, thermal vacuum chambers, and arc 
        jets, to ensure mission success. SCAP ensures that assets and 
        capabilities deemed vital to NASA's current and future success 
        are sustained in order to serve Agency and national needs. All 
        assets and capabilities identified for sustainment either have 
        validated mission requirements or have been identified as 
        potentially required for future missions.

Construction and Environmental Compliance and Restoration

    NASA Construction and Environmental Compliance and Restoration 
provides for the design and execution of all facilities construction 
projects, including discrete and minor revitalization projects, 
demolition for closed facilities, and environmental compliance and 
restoration. The FY 2011 budget request includes $397.4 million for 
Construction and Environmental Restoration, made up of:

        <bullet>  $335.3 million for the Construction of Facilities 
        (CoF) Program, which funds capital repairs and improvements to 
        ensure that facilities critical to achieving NASA's space and 
        aeronautics program are safe, secure, environmentally sound, 
        and operate efficiently. The Agency continues to place emphasis 
        on achieving a sustainable and energy-efficient infrastructure 
        by replacing old, inefficient, deteriorated building with new, 
        efficient, high performance buildings that will meet NASA's 
        mission needs while reducing future operating costs.

        <bullet>  $62.1 million for Environmental Compliance and 
        Restoration (ECR) Program, which supports the ongoing cleanup 
        of current or former sites where NASA operations have 
        contributed to environmental problems. The ECR Program 
        prioritizes these efforts to ensure that human health and the 
        environment are protected for future missions. This program 
        also supports strategic investments in environmental methods 
        and practices aimed at reducing NASA's environmental footprint 
        and lowering the risks of future cleanups.

Conclusion

    Americans and people worldwide have turned to NASA for inspiration 
throughout our history--our work gives people an opportunity to imagine 
what is barely possible, and we at NASA get to turn those dreams into 
real achievements for all humankind. This budget gives NASA a roadmap 
to even more historic achievements as it spurs innovation, employs 
Americans in fulfilling jobs, and engages people around the world as we 
enter an exciting new era in space. NASA looks forward to working with 
the Committee on implementation of the FY 2011 budget request.
    Mr. Chairman, thank you for your support and that of this 
Committee. I would be pleased to respond to any questions you or the 
other Members of the Committee may have.

                  Biography for Charles F. Bolden, Jr.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Nominated by President Barack Obama and confirmed by the U.S. 
Senate, retired Marine Corps Maj. Gen. Charles Frank Bolden, Jr., began 
his duties as the twelfth Administrator of the National Aeronautics and 
Space Administration on July 17, 2009. As Administrator, he leads the 
NASA team and manages its resources to advance the agency's missions 
and goals.
    Bolden's confirmation marks the beginning of his second stint with 
the nation's space agency. His 34-year career with the Marine Corps 
included 14 years as a member of NASA's Astronaut Office. After joining 
the office in 1980, he traveled to orbit four times aboard the space 
shuttle between 1986 and 1994, commanding two of the missions. His 
flights included deployment of the Hubble Space Telescope and the first 
joint U.S.-Russian shuttle mission, which featured a cosmonaut as a 
member of his crew. Prior to Bolden's nomination for the NASA 
Administrator's job, he was employed as the Chief Executive Officer of 
JACKandPANTHER LLC, a small business enterprise providing leadership, 
military and aerospace consulting, and motivational speaking.
    A resident of Houston, Bolden was born Aug. 19, 1946, in Columbia, 
S.C. He graduated from C. A. Johnson High School in 1964 and received 
an appointment to the U.S. Naval Academy. Bolden earned a bachelor of 
science degree in electrical science in 1968 and was commissioned as a 
second lieutenant in the Marine Corps. After completing flight training 
in 1970, he became a naval aviator. Bolden flew more than 100 combat 
missions in North and South Vietnam, Laos, and Cambodia, while 
stationed in Namphong, Thailand, from 1972-1973.
    After returning to the U.S., Bolden served in a variety of 
positions in the Marine Corps in California and earned a master of 
science degree in systems management from the University of Southern 
California in 1977. Following graduation, he was assigned to the Naval 
Test Pilot School at Patuxent River, Md., and completed his training in 
1979. While working at the Naval Air Test Center's Systems Engineering 
and Strike Aircraft Test Directorates, he tested a variety of ground 
attack aircraft until his selection as an astronaut candidate in 1980.
    Bolden's NASA astronaut career included technical assignments as 
the Astronaut Office Safety Officer; Technical Assistant to the 
director of Flight Crew Operations; Special Assistant to the Director 
of the Johnson Space Center; Chief of the Safety Division at Johnson 
(overseeing safety efforts for the return to flight after the 1986 
Challenger accident); lead astronaut for vehicle test and checkout at 
the Kennedy Space Center; and Assistant Deputy Administrator at NASA 
Headquarters. After his final space shuttle flight in 1994, he left the 
agency to return to active duty the operating forces in the Marine 
Corps as the Deputy Commandant of Midshipmen at the U.S. Naval Academy.
    Bolden was assigned as the Deputy Commanding General of the 1st 
Marine Expeditionary Force in the Pacific in 1997. During the first 
half of 1998, he served as Commanding General of the 1st Marine 
Expeditionary Force Forward in support of Operation Desert Thunder in 
Kuwait. Bolden was promoted to his final rank of major general in July 
1998 and named Deputy Commander of U.S. Forces in Japan. He later 
served as the Commanding General of the 3rd Marine Aircraft
    Wing at Marine Corps Air Station Miramar in San Diego, Calif., from 
2000 until 2002, before retiring from the Marine Corps in 2003. 
Bolden's many military decorations include the Defense Superior Service 
Medal and the Distinguished Flying Cross. He was inducted into the U.S. 
Astronaut Hall of Fame in May 2006.
    Bolden is married to the former Alexis (Jackie) Walker of Columbia, 
S.C. The couple has two children: Anthony Che, a lieutenant colonel in 
the Marine Corps who is married to the former Penelope McDougal of 
Sydney, Australia, and Kelly Michelle, a medical doctor now serving a 
fellowship in plastic surgery.

    Chairman Gordon. Thank you, sir. At this point we will 
begin our first round of questions, and the Chairman recognizes 
himself for five minutes.
    You have laid out an exciting agenda for NASA. Certainly 
there were many other areas that NASA encourages outside of the 
human exploration, and I am glad that you have really a bold 
agenda there.
    But the questions that have been raised most often have 
been about the exploration program, so let me go back to my 
original opening statement when I asked or sort of pointed out 
as we are going through a too-big-to-fail trauma right now for 
the taxpayers and the economy, my concern is that we could get 
into a too important to fail.
    So if we--if the companies that are going to provide the 
commercial crew transportation don't have other markets, then 
are we going to wind up having to support them. So can you give 
me some type of concrete evidence that there will be other 
markets for their services?
    Mr. Bolden. Mr. Chairman, the evidence that I have used has 
been the studies that have come from the industry themselves, 
from the commercial market. You know, unfortunately, it is 
not--we at NASA have not done any market surveys nor have, you 
know, have I offered to do that or asked to do it, so I am 
depending upon surveys and information that has come from the 
industry themselves.
    Chairman Gordon. Well, and I don't say that they are bad 
folks, but this is a little bit like the fox looking after the 
hen house, isn't it? I mean, if you are getting information 
from them that justifies themselves, I would encourage you to--
I think certainly NASA needs to look into this. I think it 
would make it a much more comfortable situation for many of us 
if we thought that they weren't going to be wards of the state 
or of NASA.
    And so let me just say that is not a satisfactory answer 
and I would hope that you could get us some more information.
    And in that regard in the request, your budget request, you 
asked for a 62 percent increase on what the government had, 
what the companies had previously said would be necessary. 
Where did this increase come from?
    Mr. Bolden. Mr. Chairman, when we priced what we were going 
to ask for in the budget for the commercial, the COTS Program 
and other commercial endeavors, we looked at past cost for 
programs, we looked at what industry estimates for programs, 
and we asked several of the companies what they thought it 
would cost for a program of this nature, and that is where the 
cost estimates come from.
    Chairman Gordon. Well, didn't just recently within the last 
year or two the companies said they could do this for less, 
which is the result of the 62 percent increase?
    Mr. Bolden. Sir, let me go--I will get an answer for you 
for the record for that, because there have been some companies 
who have come in within the last few months that said they 
could do it quicker. I am not aware of any that have said they 
could do it for less. So I will get you an answer for the 
record for the that.\1\
---------------------------------------------------------------------------
    \1\ Page 20, line 409, of the transcript (see Appendix 2: 
Additional Material for the Record).
---------------------------------------------------------------------------
    Chairman Gordon. Where this is going is part of the reason 
that--the justification from moving from Constellation to a 
different approach is expense, and so if we--if it is not going 
to be less expensive, then there has to be a better explanation 
I think why this move.
    And so finally, Administrator Bolden, there appears to be 
some confusion among individuals at your agency as to whether 
money from the Constellation Program needs to be set aside this 
fiscal year to avoid violating the Anti-Deficiency Act. So to 
make certain that we are all on the same page, I wonder if you 
would agree that the following is the current situation.
    In 2010, Commerce, Justice, and Science Appropriation Act 
explicitly instructed NASA, and I quote, that ``none of these 
funds provided herein shall be available for the termination or 
elimination of any program, project, or activity of the 
architecture of the Constellation Program nor shall such funds 
be available to create or initiate a new program, project, or 
activity unless such program termination, elimination, 
creation, or initiation is provided in subsequent appropriation 
acts.'' Is that a fair, I mean, is that your understanding?
    Mr. Bolden. That is my understanding, Mr. Chairman, and in 
fact, that is in, I think, a letter that I sent recently to 27 
members of the House who questioned what we were doing with the 
Constellation Program. As I told them, we were not--we were in 
compliance with the direction of the 2010 Appropriations Act 
and that I have directed no cancellations or terminations and 
that we intended to comply with the law.
    Chairman Gordon. Well, so then could you explain the 
letters that NASA is sending to the Constellation contractors? 
I have one example here in which NASA is asking for estimates 
of the termination liability costs for this quarter as well as 
the next three quarters. This seems to indicate that NASA is 
contemplating cancellation, canceling Constellation contracts 
in the very near term.
    In fact, this letter which was sent out on February the 
22nd, asks for a response by March the 5th, next Friday.
    Mr. Bolden. And, sir, and that was covered in the letter 
that I did send in responding to the Members of Congress. What 
I tried to explain was that I think it is fiscally responsible 
on my part and expedient that I try to get estimates from the 
companies as to what they feel their termination costs would be 
if, in fact, the President's direction that we cancel the 
Constellation Program in 2011 were to take effect. It was--it 
is a planning figure for us, and it is not direction to do 
anything. I asked them to make sure that we can see their 
numbers for what it would be to fund termination.
    Chairman Gordon. But wouldn't it be more appropriate to ask 
for the termination costs in 2011 rather than cancellation 
costs at this quarter?
    Mr. Bolden. Mr. Chairman, let me go back and check, double 
check for the record, but I think I was asking for what would 
be the termination cost if the President's direction were 
carried out that we cancel the program.\2\
---------------------------------------------------------------------------
    \2\ Page 22, line 465, of the transcript (see Appendix 2: 
Additional Material for the Record).
---------------------------------------------------------------------------
    Chairman Gordon. Well, again, the letter that we have 
indicates that it is--they start with this quarter. ``Please 
provide your estimate termination liability for the subject 
contract as a part of this in each of the 3 quarters as of 
April the 1st, 2010, July the 1st, 2010, October the 1st, 2010, 
January the 1st, 2011.''
    And this went over the signature of Terrell Cochran.
    Mr. Bolden. Yes, sir.
    Chairman Gordon. I think I don't want to abuse my time, and 
so, Mr. Olson, you are recognized for five minutes.
    Mr. Olson. Thank you very much, Mr. Chairman, and thank 
you, Administrator Bolden, for your appearance here today 
before this Committee. Always good to have someone from the 
home turf here in this hearing room.
    Mr. Master, I have got--or Mr. Administrator, I have got a 
couple concerns and questions I would like to ask you. One of 
them is sort of the process with which this decision was made, 
because if you read some media reports and hear some things in 
the community, it seemed to be made by a very small cabal for 
lack of a better term, of people here in Washington, DC. I know 
for a fact that no one at the Johnson Space Center was 
consulted about the decision to terminate the Constellation. 
And I particularly want to make sure that you were involved in 
that decision, so I ask you, I mean, this is the largest cut in 
the President's budget. Did you hear directly from the 
President on this?
    And, again, this is important to me. I have got to go back 
home and explain to my constituents who--and many of them in 
their case, unfortunately, are losing their jobs, I've got to 
explain this to them. And I can't just say this was an OMB call 
or it was pre-decisional with no details.
    So, please, could you enlighten me a little bit about the 
process and the people who were involved in making this 
decision?
    Mr. Bolden. Congressman, I think you are aware that I 
cannot discuss the pre-decisional discussions that we had, but 
I can tell you that the President's decision with this as with 
everything are iterative in the process, and I was a member of 
those who advised the President in the formulation of his 
budget.
    So I am the one that represented NASA in providing 
information and counsel to the President in arriving at this 
budget, and once that decision was made, it became my budget. 
So it is my budget.
    Mr. Olson. Yes, sir. Again, it is very important to me that 
you were included in that, because you are the head of NASA, 
and again, as I told you, representing the Johnson Space 
Center, you have lived there, you live there still, you know, 
the Grayswell. I am not going to get in trouble with my 
colleagues here, but the manned spaceflight, and you know, we 
have got--nobody there had any idea what happened. They picked 
up and read the paper like I did on February 1, Monday morning, 
and----
    Mr. Bolden. Congressman, I can assure you, you know, once 
again, as I said, it was an iterative process. Every time I 
requested a meeting with anybody else involved, I got it. I met 
with the President personally, so this is my budget, and it 
results from the consultation that I contributed to the 
President's decision.
    Mr. Olson. Appreciate that. Further question for you, sir.
    I would like to refer you to the report of the Aerospace 
Safety Advisory Panel, their report from 2009, and let me read 
a quote from the report. It states, ``to abandon the Ares I as 
a baseline vehicle for alternative without demonstrated 
capability nor proven superiority or even the equivalent is 
unwise and probably not cost effective.''
    As you know----
    Mr. Bolden. Yes, sir. I----
    Mr. Olson. --your name is on this report.
    Mr. Bolden. My name is in that because I used to be a 
member of the Aerospace Safety Advisory Panel.
    Mr. Olson. You betcha, but given this new budget I want to 
ask you now do you disavow all of this, part of this, or none 
of it?
    Mr. Bolden. I don't disavow any of it. I support, and I 
respect the opinions offered by the Aerospace Safety Advisory 
Panel. I consider them valuable counsel. I consult with Vice 
Admiral Dyer frequently because I know that we will sometimes 
have differences of opinion, but he is a much wiser person that 
I because he is older than I am.
    But I do not take issue with anything that they presented. 
It is just that in the process of decision making sometimes we 
agree to disagree.
    Mr. Olson. Appreciate that, sir, and just to follow up 
again on one of the Chairman's comments. What is the backup if 
the commercial companies fail to deliver or go bankrupt or 
somehow can't perform? How do we protect the taxpayer dollars 
from those situations?
    Mr. Bolden. Congressman, the backup is actually--puts us in 
a better situation than we would have been with Constellation. 
If we had gone through with the Constellation Program, we would 
have one system. We would have one vehicle for going into low 
earth orbit, and that was going to be Ares I. We would have had 
one vehicle to go beyond low Earth orbit. That would have been 
Ares V.
    As it is right now I have two companies that are bidding on 
or competing for--to handle access to low Earth orbit. I am 
hopeful that both of them will successful. We are also 
intending to go out and reopen the competition to see if we can 
add even more companies into the mix. So conceivably there 
could be multiple companies that we recognize as having met the 
safety criteria for what we want to do, and then we are much 
better off than we would have been with a NASA design and built 
system in a single Ares I.
    Mr. Olson. Thank you for your comment, Mr. Administrator. I 
am sorry to cut you off. Got a little bit of time here, and I 
want to ask one more question or make sure you are aware of a 
situation I am hearing about back home.
    There was a statement made by a very senior political 
appointee in the NASA front office, Mr. Alan Ladwig. It has 
been reported on Twitter, and here is what he said. ``For those 
who fuss over President Obama's budget for NASA, I have two 
words; bite me.''
    Bite me. I mean, that is one hell of a message to send to 
thousands of loyal NASA employees and contractors who have 
given their life to human spaceflight, and you know, according 
to our committee staff here, I mean, this outrageous statement 
was made while he was in a speech, while he was overseas for an 
audience in Strasburg, France.
    And I think I know the answer, but I just want to make 
sure. Is this NASA's budget message to the American people and 
to our international partners? Bite me?
    Mr. Bolden. Congressman, I was not aware of any statement 
of that nature, and I think you know that I would never 
tolerate that, and I would--rather than make any comment about 
it without, you know, finding out its validity, I would just 
say that is unacceptable.
    Mr. Olson. I appreciate those comments. We will get you the 
information you need.
    Mr. Bolden. Oh, I will get the information.
    Mr. Olson. That is the Marine Corps general I love. Thank 
you, Mr. Chairman. Yield back my time.
    Chairman Gordon. Thank you, Mr. Olson.
    Mr. Costello is recognized.
    Mr. Costello. Mr. Chairman, thank you, and Administrator 
Bolden, thank you for being here today, and I thank the 
Chairman for calling this hearing.
    Administrator Bolden, I have major concerns as well about 
the administration's plan to terminate the Constellation 
Program. As you know, we have invested over $9 billion over the 
last four years in this program. My concerns are many, and they 
involve costs of this action, not only in terms of cost in 
terms of money but also what the action will do to weaken our 
science and engineering workforce here in the United States.
    The loss of jobs and how it will affect our economy, the 
loss of--my concerns about safety as to how it will affect the 
safety of our--those who participate in the program, and also 
the impact on national security.
    As you know, the United States, Russia, Europe, Japan, and 
China have all been--their space programs have all been 
government-funded programs. If, in fact, the private sector 
could create a successful space program, I think they would 
have done so by now, either here in the United States or 
elsewhere. So these are a few of my concerns.
    I happen to agree with Senator Bill Nelson. I don't think 
that we can do this on the cheap, and in fact, I think we could 
point to many programs in the Department of Defense, Department 
of Homeland Security, and other agencies of the Federal 
Government where we have outsourced functions that used to be 
the function of the Federal Government, and it, in fact, has 
cost the taxpayers more when we look at the cost overruns and 
some of the other issues that we have dealt with, both in Iraq, 
Afghanistan, and other contractors that have been hired to 
perform government functions.
    So I want you to take that back to the administration. They 
are going to hear that not only from me, they are going to hear 
it from, I think, the appropriators and others. So I have major 
concerns with going down this path.
    I do have a couple of questions on my other hat as chairman 
of the Aviation Subcommittee of Transportation concerning two 
issues; one NextGen, and the other issue is just held a hearing 
yesterday on icing. As you know, we had a number--one 
commercial tragedy concerning icing about 13 years ago and a 
number in general aviation issues. So my concern is that we 
have seen over the past few years a decline in funding since 
fiscal year 2005. I wonder if--will aircraft icing on the side 
of R&D, which, of course, involves NASA, be a priority for NASA 
in fiscal year 2011?
    Mr. Bolden. Congressman, I can assure you that when you 
look at icing and other issues that have not been funded 
before, the Glenn Research Center is the home of the largest 
icing simulation facility that we have. We--one of the things 
that we are also going to increase spending on is research into 
rotary wing issues. Rotary wing also has a problem with icing 
but even more importantly, we are beginning to look at issues 
of noise pollution, so we are looking for quieter rotor blades 
so that the increase in the aeronautics budget will enable us 
to do much more than we have been doing in the past.
    You mentioned NextGen. We are actually increasing the 
spending that we are putting forward on NextGen because we 
really believe in it. We think it is critical for the Nation. 
One of the biggest champions of NextGen right now is the 
Secretary of Homeland Security, Secretary Janet Napolitano, in 
an Executive Committee meeting on NextGen that I attended with 
her, she was the number one spokesperson saying that if we 
didn't bring this program online very soon, that she was going 
to be in trouble, because it--NextGen is going to enable us to 
get people from the curbside safely in the air to their 
destinations, back to their baggage and back home, and it is 
critical that we do that. So we are increasing the amount of 
money that we are going to spend on the Next Generation Air 
Transportation System.
    Mr. Costello. We heard testimony yesterday concerning the 
icing hearing that enough research, some research has been done 
but maybe not enough coming from NASA, so I would just ask you 
to make it a priority. We need to do rulemaking and to move 
forward so that we can make certain that pilots who are not 
only on the ground but in the air, that they have adequate 
information concerning icing, training, and know what to do 
when they get into icing conditions, not only when they leave 
the ground but in the air.
    Also on--my final question is about NextGen. Do you believe 
that you have adequate funds to move forward with the Next 
Generation Air Traffic Control System in this fiscal year 
budget proposal?
    Mr. Bolden. Congressman, there are never enough funds to do 
what I want to do with NextGen. You know, some of it is if you 
gave me all the money in the world, I couldn't get you there 
any quicker because of technological issues that we face. Some 
of the problems with NextGen don't have anything to do with 
funding at all on the part of NASA. They have to do with 
getting buy-in from the business and the general aviation 
community because they are a huge portion of the airspace 
users, and pricing of the equipment needed for the heart and 
soul of the NextGen system is something that we see resistance 
from the business and general aviation communities because they 
contend that the commercial guys don't have to worry about it. 
They just raise the price of the ticket. I am not sure that 
that is true, but that is their contention.
    So I am confident that we have sufficient funds for this 
year and the out years to help us bring into play those systems 
that are necessary for NextGen. We will have to continue 
working, though, with the various segments of the user 
communities to see that we get them to buy the equipment that 
will be necessary to make this system effective.
    Mr. Costello. Finally, let me make the point that the Joint 
Planning and Development Organization, that is JPDO as you know 
it, NASA is very involved with them. I would encourage you to 
continue to make certain that you cooperate closely because the 
only way this is going to get done is through a cooperative 
effort with all of the Federal agencies involved. Thank you.
    Mr. Bolden. I guarantee you we will do that. Even when I--
before coming to this job when I served on an advisory council 
for the NASA, for the FAA Administrator, then I observed that 
NASA was a very strong member of the NextGen team, and since I 
have arrived as the Administrator, I have put extra emphasis on 
it. So I think you can be guaranteed that we are going to 
continue to push as hard as we can for the delivery of this 
system.
    Mr. Costello. Thank you, and thank you, Mr. Chairman.
    Chairman Gordon. Sure. Mr. Rohrabacher is recognized.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman. Let me 
identify myself with the remarks of my colleague concerning air 
traffic control and icing type of research. I think that quite 
often that job that NASA has has not got the focus, and people 
don't get the PR or the publicity that human spaceflight gets, 
but those are vitally important to the safety and security of 
our--of the American people. And that is your job, and General, 
welcome aboard.
    It is pleasant to hear that you do accept criticism, and I 
appreciate the fact that you have----
    Mr. Bolden. I am married.
    Mr. Rohrabacher. There you go.
    Mr. Bolden. And I have been for 42 years.
    Mr. Rohrabacher. Well, some people have had--some people 
get up here, and they get a little bit----
    Mr. Bolden. To the same wife by the way.
    Mr. Rohrabacher. Good for you. God bless you. But some 
people don't acknowledge criticism or they just feel 
uncomfortable. You met that head-on where you have been 
criticized that your people briefed journalists before they 
briefed Members of Congress who are on the committee of 
jurisdiction. I am glad to hear that you have taken that 
seriously and will make sure that doesn't happen again.
    Some of the--let me just note that NASA can't do 
everything, and if we are going to do these things like we just 
mentioned, air traffic control and research into icing to help 
protect people, we can't have programs that have $9 billion 
that are behind schedule, way behind schedule, and over budget 
and just ignore it and let it go on until you end up with a $50 
billion program that is behind schedule and over budget and may 
not be able to reach its goals. Sometimes you have to make 
decisions.
    I will just have to say that I appreciate the fact that 
this administration and that you as leader in this area have 
decided to make some decisions. That fits with a Marine general 
I might add. You were in the Marines?
    Mr. Bolden. Yes, sir. I am a Marine.
    Mr. Rohrabacher. You know, my dad was a lieutenant colonel 
in the Marines, and he would just roll over in his grave if he 
didn't think that I was calling you general and sir and the 
rest of it, but congratulations, General, for making decisions. 
In the Marines they say, the worst decision is no decision.
    Mr. Bolden. No decision. Yes, sir.
    Mr. Rohrabacher. And I think that you should proceed in the 
rest of your responsibilities with that in mind.
    Let me just note that some of the criticism that I hear of 
the decision that has been made here in Constellation that the 
primary consideration behind that criticism seems to be not 
safety and not necessarily human spaceflight, because we are 
not talking about human spaceflight but being accomplished in a 
different way. But instead in maintaining NASA's workforce.
    Now, NASA, maintaining NASA's workforce, just to maintain 
the workforce is an expensive proposition, and if maintaining a 
workforce that is not meeting its responsibility, it is not on 
time, not doing things on schedule, not getting this thing to a 
place where we are going to accomplish specific missions, then 
that workforce is holding America back. And I can see whether 
it was the Space Shuttle Program or many other programs that I 
have been witnessing here in the last 20 years that maintaining 
the NASA workforce becomes a goal in and of itself. We have got 
to break ourselves from that type of thinking, or we are not 
going to be the leading power in space, and we should be.
    I happen to believe that some of the criticism I have heard 
just totally disregards the fact that we have got private 
sector companies that have invested a lot of money in space and 
been very successful, and we now, I mean, we have the Atlas 
Program, we have the Delta Systems. I mean, these are very, 
very efficient and effective space transportation systems.
    Now, correct me if I am wrong, but isn't it your plan, your 
proposal, to instead of going to this Constellation, which as 
you say would put all our eggs in one basket, isn't that to 
expand upon private sector and diversified sources to meet our 
obligations in low Earth orbit and delivering supplies and 
people to the Space Station?
    Mr. Bolden. Congressman, that would be our hope, and you 
have pointed out something that we probably have not done a 
very good job of getting to the public and to Members of the 
Congress. Commercial--the way I define commercial, it is the 
aerospace industry.
    Mr. Rohrabacher. Sure.
    Mr. Bolden. Some people define commercial as 
entrepreneurial, and they think that that is the only people 
that we are talking about here.
    Mr. Rohrabacher. We are talking about----
    Mr. Bolden. But when we started out----
    Mr. Rohrabacher. Yeah.
    Mr. Bolden. --with--and it started before my 
administration. Actually, Administrator Griffin was the one 
that began the COTS Program. When they started out, the only 
bidders happened to be entrepreneurial firms or smaller firms, 
and it, again, it is because the larger firms chose not to bid. 
We are going to, you know, open another round of bidding, and 
it is my hope that we will have some of the more experience 
aerospace companies who will decide that they, too, want to bid 
on----
    Mr. Rohrabacher. General, my time is about up. Let me just 
say that we need to encourage large companies, Boeing, 
Lockheed, Northrop, and the rest of these companies, we need to 
encourage them to be more entrepreneurial, and we need them--
and that, I believe that is part of your plan, and but we also 
need to encourage those entrepreneurs who may become big 
companies in the future, and we want to wish them success, but 
I don't believe that the criticism that is saying that the 
decision being made has put us at risk of not having a human 
spaceflight capacity for the United States of America, I don't 
believe that is justified. I don't believe that it places the 
type of faith in big companies like Boeing and Lockheed, who 
have developed many technologies in the aerospace. In the 
history of aerospace they have done tremendous work, and we 
should be concerned about that rather than focused on 
maintaining the NASA workforce and read that NASA bureaucracy.
    So thank you very much, and looking forward to working with 
you, General.
    Chairman Gordon. Mr. Wu is recognized.
    Mr. Wu. Thank you very much, Mr. Chairman, and thank you, 
Administrator Bolden, for your service to our Nation as a 
Marine, as an astronaut, and now as Administrator of NASA, 
where I believe that you continue to be a good, loyal soldier 
and doing your job as best you know how.
    Let me express my concern about the possible downside 
effects of this administration's decision. We are optimists by 
nature and especially those technologists who work in space. So 
the administration has on its side the rhetoric of the market 
and private sector and competition. The administration will at 
least initially have the benefit of technologists who look 
optimistically to the future.
    I think it is incumbent upon those of us who at least for 
some time have seen the political sector work to be concerned 
about the potential downside analysis of what happens after a 
few years if this administration's proposal is accepted by this 
Congress.
    We have a Constellation Program, which is not working out 
in an ideal way, but it is a public program, funded in the ways 
that every human spaceflight program thus far has been funded, 
because achieving Earth orbit is fundamentally different from 
a--the ballistic ventures that private companies have been able 
to do, at least at the very beginning.
    The problem is that right now we are terminating or 
proposing to terminate Ares I because it is over cost. Now, we 
can discuss the flawed technology all that we want, but it is 
what we are committed to, and now we are going to put our--all 
our eggs in the private sector basket, and there are basically 
three contractors right now; it is Lockheed-Martin, Boeing, and 
Space X. And they have the Atlas, the Delta IV, and a proposed 
Falcon IX.
    It looks good right now to privatize, but this is the easy 
part. This is just the privatizational step. In 3, 4, five 
years, maybe 5 or six years when we really hit the hard part of 
getting those launch vehicles human rated, I suspect that we 
might have some of the same cost problems that public launch 
vehicles have had and that Ares I has, and if we do, it seems 
to me that the way Washington, DC, and the public decision-
making process works is that we will then terminate the 
commercial spaceflight program because of exorbitant costs 
given to us by the private sector, just as the public sector 
has run into cost problems.
    This is--the cost problems are to be anticipated. If you 
can cite a single satellite program that has come in on budget, 
I would be very interested to hear about that. So space--the 
costs go up because it is hard, and NASA's job is to do the 
hard things. I think one of the fundamental flaws of Ares was 
the decision to do something that was off the shelf because 
NASA should be in the business of making new technology and 
pushing our economy and pushing our--and pushing the envelope.
    Computer science wouldn't be where it is without NASA's 
push for better ways to do things in the 1960s. I think that 
material science made a lot of progress because of the 1970s 
and the Space Shuttle, and our experience in putting astronauts 
in space for a longer period of time has paid great benefits. 
These are benefits to the American people, these are benefits 
to the human race.
    If my sort of downside analysis works out, what is at 
stake? What is fundamentally at stake is whether future 
generations of astronauts speak English or speak Chinese, and I 
am an advocate that at least English be the lead language in 
human spaceflight. I was against privatization in the Bush 
Administration, I am against privatization in the Obama 
Administration.
    I think that you all are running a huge risk, and I don't 
want to see human spaceflight, at least by Americans and the 
17-nation consortium, which is counting on us, to be tubed and 
to have human spaceflight go to the Chinese or to the Indians.
    And Mr. Chairman, let me just take one moment to express my 
concern. I got a call from a Canadian reporter. I call a call 
from a Canadian reporter about this topic, and I thought, 
golly, I mean, I expected a call from a Florida reporter. I 
don't expect calls from Oregon reporters because, you know, our 
connection with space are the astronauts that I bring for space 
camp announcements, scholarship announcements every spring.
    But the Canadian made it really clear that if we don't fly, 
Canadians don't fly, and this is true of a number of other 
nations. They are depending on us, the American public is 
depending on us. We have failed on the mission of pushing 
technology with the current Ares I, but that is something we 
can fix, and if we privatize this, we are still going to need a 
labor force, and if you think that we are going to be able to 
afford three separate contractors for human spaceflight, I 
would like to see your business plan. I would like to--my 
apologies. Not yours. I would like to see the administration's 
business plan, because, you know, there is the business of 
lifting satellites up, but I don't think there is a workable 
business plan for lifting humans up into low Earth orbit, at 
least, you know, from my business--it just doesn't look like it 
pencils out, and that is why we subside with tax dollars, and 
we can either do it directly to NASA, or we can give the money 
to Boeing, the Lockheed-Martin, or to Space X.
    And I just want to note that to date they haven't launched 
a human being. We talk about airlines in space. Well, if--when 
we encouraged airlines after World War II, that was the right 
time. If we had encouraged airlines in 1910, before World War 
I, it would have been significantly premature, and I would 
encourage the Administration and your agency to consider 
whether this is premature, whether this is wise, and whether 
this dooms us to a future where there are no Americans in space 
or at least that the dominant language in space is not English.
    Chairman Gordon. Thank you, Mr. Wu, and the unopposed Mr. 
McCaul is recognized.
    Mr. McCaul. Thank you, Mr. Chairman, and I will allow you 
to answer--I am going to echo my colleagues, Mr. Wu and Mr. 
Olson.
    Like Mr. Olson in my district I have many NASA employees 
and contractors at the Johnson Space Center. You know, since 
the inception of NASA, the mission has always been human 
spaceflight. You know, President Kennedy talked about landing a 
man on the moon, bring him safely back to the Earth. President 
Johnson carried that vision on. The goal was met, and I am 
concerned about the mission changing.
    I am concerned about the human spaceflight mission being 
completely cut out of this budget, the Constellation Program 
going away, and an increase in funding towards something that I 
don't consider to be a core mission of NASA, and that is 
climate change and weather observation.
    It seems to me we are getting away from the core mission of 
NASA. We are getting away from the national security aspects 
that NASA has always played that we know was vitally important 
to our space race against the Soviets back in the '60s. I think 
as Mr. Wu mentioned, the language, I hope it does continue to 
be English, but I think the Chinese and Russians could overtake 
us.
    I don't--you know, commercial space developers I don't 
believe are at the point where they can take over this program. 
We have already spent--we have invested $9 billion in the 
Constellation Program. It will take another $2.5 billion to 
terminate. That is $11.5 billion invested in the Constellation 
Program, and now we are just pulling the rug out from 
underneath that program. I think we are sending a message in 
terms of the mission that is not a positive one, and that is 
human spaceflight is not the priority anymore but rather 
climate change and weather observation.
    I know you spend a lot of time at the Johnson Space Center, 
and I really respect your service and thank you for your 
service as Administrator, but I find it hard to believe that 
you actually agreed with the President's decision here. Now, I 
know you have to carry out his orders. You are in the chain of 
command, but I question whether you do agree with this, having 
the experience that you have had at the Johnson Space Center.
    So if you would just care to comment to me on--and I know 
you won't be able to answer, maybe you can, whether you really 
do agree with this decision.
    Mr. Bolden. I can answer.
    Mr. McCaul. And how possibly commercial space developers 
can pick up the slack, particularly after we have invested so 
much money in the Constellation Program.
    Mr. Bolden. Congressman, I do agree with the decision. I 
think it is possible, and in fact, I will try not to take too 
much time, but I will take some of us back to the 1980s when I 
first came into the astronaut office. We had not long flown the 
STS I, II, and III. We had gotten into the Space Shuttle 
Program, and it became apparent to us that if we continued, if 
NASA continued to try to operate the Shuttle, that is all we 
were going to do.
    And we actually started looking for commercial entities 
that would be willing to come in and take over operations of 
the Shuttle, much the same as we are trying to do today with 
the new commercial program. And there were companies like 
United Airlines, Lockheed, Boeing, American Airlines that all 
were going to bid on the operations contract for the Space 
Shuttle, to offload that.
    We even participated in providing training manuals to them 
for crews and the like, and then something happened called 
Challenger, and in 1986, January of 1986, when we lost the 
Challenger, all efforts at outsourcing, if you will, because 
that is what it would have been at the time, outsourcing the 
operation of the Shuttle went away.
    The Air Force was going to take over the responsibility for 
conducting classified missions, which NASA, some of you will 
remember, NASA flew all of the human classified missions up 
until 1986. January of 1986, January 28, 1986, the world 
changed. President Reagan decided that it was not smart to put 
satellites on the Space Shuttle, you know. They did not feel it 
was worth the risk to put an astronaut and a satellite in the 
same vehicle, and we stopped deploying satellites.
    So the world changed on January 28, 1986, and things that 
we are trying to do today we were trying to do then, and I 
think they would have been successful had it not been for the 
Challenger accident, and I don't make light of anything, but I 
tell people all the time, the trauma of the loss of Challenger 
to this Nation and the world, we are still suffering.
    Mr. McCaul. And General, with all due respect, I've got 15 
seconds. I want to throw this last question out to you, and 
that is I think NASA, the program has been one of the best 
investments of Federal dollars that we have had, the model 
success, the return on investment. What are we to tell our 
constituents? What are we to tell the people at the Johnson 
Space Center in Houston, Texas, Clear Lake, the people that you 
know so well. Mr. Olson and myself, when we go back home, what 
impact is this going to have on them?
    Mr. Bolden. The Johnson Space Center as well as the other 
NASA centers, we are going to do everything in our power to 
ensure that the programs that develop from this budget that 
are--that we are able to develop from this budget, from the 
increased money that we are going to have, are going to enable 
them to continue to do the type of work that they do. They are 
going to--there is always going to be need for engineering 
effort. There is always going to be a need for development, and 
we are, you know, I wish I could give you definitive programs 
that we are going to have now, but we are two weeks, three 
weeks after the rollout of the budget, and we have not gotten 
those types of answers.
    But I promise you that within months, because I have asked 
for studies to be brought to me to help us determine which 
programs we are going to do. Within months we will be able to 
put some meat on the bones, if you will, because I realize 
there is a lack of detail, and that is disturbing to everybody. 
It is disquieting and discomforting to me, but we are going to 
get some answers for you. We will have some programs defined.
    Mr. McCaul. Well, I think you are going to find there is 
going to be a lot of opposition in Congress to the cut of the 
Constellation Program. Mr. Chairman, I hope we can work 
together in the Congress on this issue. Thank you.
    Chairman Gordon. You are absolutely right, Mr. McCaul, and 
we want to continue to talk through this in, you know, in a 
fair and reasonable way and better understand what, you know, 
will this new program work, you know, why do you make the 
changes. There is more discussion that needs to occur.
    And to continue that discussion, the Chair of our 
Subcommittee on Space and Aviation, Ms. Giffords, is 
recognized.
    Ms. Giffords. Thank you, Mr. Chairman. Good morning, 
General Bolden.
    There are many members here that don't have as much time 
with you, so I am going to try to keep my statement as pretty 
brief as possible and just wrap up with a question at the end.
    On the positive side, there was a lot about the President's 
budget that we can be excited about. Unfortunately, our country 
has under-funded science, under-funded the investment into 
research that we all know is really important to those of us 
that sit on this Committee. And I think it was interesting to 
see in the President's budget proposal that there was a variety 
of funding streams that we are frankly really excited about.
    As you have heard from my colleagues and you will continue 
to hear, there is serious, serious concerns about the 
President's decision to decimate our American human spaceflight 
program. By canceling the program of record, we trade a program 
that we know will work, although it has experienced delays and 
part of those delays, unfortunately, came from drastic under-
funding, but it is a program that has been deemed as the safest 
program to take our astronauts back to lower Earth orbit and 
then back to the moon, Mars, or wherever we choose to explore.
    My concern when considering the space program and the 
future is not one pet project over another, one state over 
another, one facility over another, one plan, one aerospace 
company over another. It is truly how do we best and most 
prudently use the taxpayers' dollars to achieve this great 
desire that we have sea, lands and Members of Congress as well 
have to explore. We want to get outside of lower Earth orbit. 
We want to really challenge the way that we understand science 
and space, and we want to move forward.
    You are going to have a lot of questions that our 
subcommittee, Mr. Olson and I and members of our subcommittee, 
are going to be grappling with as we move forward with writing 
the authorization plan. Some of the things you are going to 
hear about, of course, is the workforce, and Mr. Rohrabacher is 
no longer here, but if you look at the tens of thousands of 
direct jobs that are going to be impacted with the sun setting 
of Shuttle and with the planned termination of Constellation. 
But, in fact, hundreds of thousands of highly-skilled jobs 
through subcontractors and indirect industries will be impacted 
if these decisions move forward as well. And we are going to be 
working to flush out those numbers so that every Member of 
Congress understands the impact to their employers and to their 
constituents.
    We are also going to delve further into what is going to be 
happening with the production of the solid rocket motors. I 
mean, the decline in this industry when looking at our 
acquisition of strategic missiles, is something of great 
concern, and I serve on that House Armed Services Committee, 
and as I understand, Secretary Gates was not consulted and was 
not aware of the plan to terminate Constellation, which has a 
direct impact on our Nation's security.
    We are also going to be delving into international 
competitiveness. A few months ago we had a hearing with a 
variety of experts. We heard from Mr. Houser of Space 
Foundation, who had recently returned from visiting--and I 
quote him here, he says, ``In this past September a delegation 
led by the Space Foundation visited China and toured a number 
of previously-secret space facilities. It was a stunning 
experience. Not only are China's facilities newer than ours, 
they are state of art and in some ways downright luxurious 
compared to ours.''
    So as China continues to invest heavily, as the Russians 
continue to be steadfast in their commitment, and as we see 
other countries show an interest, I am very concerned and other 
members as well on what is going to happen with U.S. dominance 
in an area that we think is so important.
    So my question to you knowing that these other questions 
are out there and we will continue to gather the information as 
we write our authorization bill, we were pretty surprised here 
at the United States Congress about this decision to terminate 
a program that the American people and Members of the Congress 
have invested tremendously in, not just for the last couple of 
years and the last 10, 11, $12 billion in Constellation, but 
for 50 years, in fact, so can you please talk, General Bolden, 
about who was consulted, how you went about this decision, who 
did you reach out to, who did you bring in to make a radical 
decision like this to terminate our United States human 
spaceflight program?
    Mr. Bolden. Madam Congresswoman, I can explain that I 
brought in all of my senior leaders from the time that I began 
the Administrator we had strategic planning meetings dealing 
with the fact that I was going to have to make a recommendation 
to the President. So we met for months to formulate a position 
that I took. I consulted with the President, and as far as what 
the discussion was, again, I have to go back to the fact that 
it is all pre-decisional, and I am not at liberty to share 
that.
    But I played an integral part in the decision that the 
President made, and once that decision was made, then the 
budget became mine. So this is my program, it is my budget, and 
I, you know, I can't say that too many times. I wish I could 
blame it on somebody else if somebody needs to take the blame, 
but I played an integral part in the process that arrived at 
the President's decision on where we are going. And I do agree 
with it.
    Ms. Giffords. Well, Mr. Chairman, General Bolden, certainly 
we understand as NASA Administrator that this is your plan. I 
am trying to make sure that everyone understands that, at least 
speaking for myself, that I very much wanted to see NASA 
successful, and I want to see the President successful, but 
that means the United States of America to be successful. And 
proposing a decimation of the most exciting project or program 
that the United States does without consulting with Members, 
without talking to the defense industry, without really 
building a coalition to make such a radical shift, is hard to 
stomach, and it is just something that, you know, we are going 
to have to work through because there is deep, deep concern 
among the subcommittee members, Democrats and Republicans. I 
mean, this is a very strong bipartisan concern that we have 
with what was proposed by the President, and we want to work 
with you, we want to work with the President, but some of 
these, you know, what you are proposing in a four-page draft 
memo is just, it is too great of a shift to really not have 
those details when presented to us in the Congress.
    So, Mr. Chairman, we are going to be working to get that 
information, and I thank you for the time.
    Chairman Gordon. Thank you, Chair Giffords.
    Before we proceed, let me just make a quick announcement to 
our friends that are visiting on the committee now. Our rules 
require that--we always try to alternate back and forth, but 
since there are more on the majority side here, they need to go 
through first, and then we will be happy to let you participate 
in any way you would like.
    And so Ms. Fudge is recognized.
    Ms. Fudge. Thank you, Mr. Chairman, and thank you, Mr. 
Bolden. It is nice to see you again.
    Mr. Bolden, just in my opinion the lack of a clear mission 
with goals and milestones fails to not only inspire the current 
NASA workforce but also fails to inspire the future generation 
of scientists and astronauts, something that is so critical at 
this point in American history, while we are talking about the 
need for more students to be excited about careers in STEM 
fields. Having no light at the end of the tunnel be it on Mars 
or the moon, we will not serve our country well at this time.
    Just last week I was at JFK High School in my district 
where I was talking to a young ROTC student. I asked him what 
he wanted to be, and he said, an astronaut. I had no clue what 
to say to him at that point. I wanted to say to him, find 
something else to do because the chances of becoming an 
astronaut or a rocket scientist are approaching zero because 
NASA is canceling its human spaceflight plan.
    I am confident that NASA Glenn can play a significant role 
in the technology development programs you have described and 
look forward to learning about Glenn's part in the new 
programs. But clearly these are important priorities that 
support that mission of NASA, but the idea of technology 
development alone without a corresponding flight plan may not 
be sustainable.
    We have seen this before in NASA's recent history. In 2003, 
Project Prometheus was a technology development program to 
create nuclear power and propulsion technologies. Then NASA 
administration Sean O'Keefe--Administrator Mr. O'Keefe stated 
that the objective of the program was to hone technologies that 
would allow the agency to fly any number of destinations that 
are possible, which sounds quite similar to what we are hearing 
today. After two years and $464 million, Project Prometheus was 
canceled due to a shifting of agency priorities at a top-line 
budget number that squeezed out many other programs.
    Technology development programs are always vulnerable when 
not tied to a specific flight program. How can we be sure that 
these technology development initiatives will not meet the same 
fate, especially with no independent assessment of the end cost 
of supporting commercial crew transport development?
    If these cost estimates rise, how can we know these 
technology development programs will not be sacrificed as they 
have in the past?
    Mr. Bolden. Congresswoman, let me just quote something from 
the Augustine Committee report, the concluding observations, 
and for those of you who have it or have seen it, it is on page 
111, and I found it interesting because Norm Augustine and I 
talked about this extensively during the course of the program. 
He said, ``Planning a human spaceflight program should start 
with agreement about the goals to be accomplished by the 
program, that is agreement about its raison d'etre. Not about 
which objective in space to visit. Too often in the past 
planning the human spaceflight program has begun with where 
rather than why.''
    Norm and I talked extensively about it because as I did in 
the strategic planning sessions with my leadership, I said, you 
know, if we don't know why we are doing this, we may as well 
quit. My question to them was why do we even--why do humans 
need to go to space? We do need a destination. That destination 
ultimately is Mars. But we need to know why we are going there. 
We are going there because the human species is incredibly 
inquisitive. We think that there is potential for life on Mars 
or at least potential for people to be able to live there at 
some time, much more than any other planet in our solar system.
    So that is the why that we came up with, but in direct 
answer to your question, you know, I was glad you did not tell 
the student not to think about being an astronaut. I would have 
told--and I assume it was a middle school student? High school?
    Ms. Fudge. High school.
    Mr. Bolden. I would have told him forget it for awhile. I 
always do, and I would have told him, go back and study and 
make sure you graduate from high school, go to college, and 
then get an undergraduate technical degree as Congresswoman 
Edwards will probably tell you I always tell them.
    So I am glad you did not tell him not----
    Ms. Fudge. But I want, I really want you to get to we have 
done something like this in the past. Because the cost became 
exorbitant, we just shifted and said we are not going to do 
anymore. How can you guarantee me that is not going to happen 
now?
    Mr. Bolden. I can't guarantee you, but I can tell you that 
I am confident that the program that we are laying out based on 
the budget that we have will support and sustain our ability to 
get not only to low Earth orbit, to continue to get to low 
Earth orbit, but to go beyond low Earth orbit with a program 
once we develop a heavy-lift launch vehicle, that will get us 
to Mars, get us to the moon, get us to asteroids. It is 
critical that we do all these things.
    While Mars is the ultimate goal, asteroids are pretty 
important, too, because they threaten the planet, and unless I 
know what they are made of, whether they are dirt or whether 
they are iron, I don't know what to advise the President on how 
to protect the plant from them. So I can see one day when the 
astronauts go to asteroids, because we don't understand them a 
lot. We were all awakened when Hubble gave us an image of the 
planet Jupiter late last year with this big black hole in it, a 
hole that was the size of several diameters of Earth. That was 
a wake-up call.
    So there are a lot of reasons that we need to send humans 
to space that are different from what they were September of 
last year. We learn something new every day about why we need 
to be exploring space, and the program that we have now, 
particularly because we have sufficient funding research and 
development makes it different from when we were trying to do 
Prometheus. We were probably down to zero in the money that 
NASA sent to colleges and universities around the country for 
technical research and development. I think you will agree with 
that. You know, Wilberforce or any other college in your area 
probably got nothing from NASA for research and development.
    This budget allows us to start putting money back on 
college campuses so that kids will be excited about wanting to 
go study with a professor who is working on a project, a 
research project for NASA. That wouldn't happen last year. So 
things are different, and that is why I am confident that this 
is going to work.
    Ms. Fudge. But, again, you can't tell me that in another 
year or two or three we may just change and shift gears again.
    Mr. Bolden. Congresswoman, I can't tell you, you know, in 
our system of government there are good things about our system 
of government, and there is one horrible thing about our system 
of government, and that is it changes every four years and with 
it ideas change.
    And so I can't guarantee that President Obama, if he is 
reelected, or the new President if he is not reelected, will 
have the same vision that the President presently has. I can 
tell you that as long as President Obama is sitting where he is 
and I am sitting where I am, we are focused on increasing the 
research and development that is done in industry and academia. 
We are focused on getting kids to the point where they become 
proficient in STEM courses so that we don't lose the battle of 
intellect to the Chinese or the Russians or the Indians or 
anyone else.
    We have a very--we have a shared vision, and I, you know, 
people tell me I don't know what the President wants to do. I 
do know what the President wants to do. I have sat with him. I 
know how much STEM education, how important it is to him and 
how much inspiring kids is to him, and we did not frivolously 
arrive at this budget.
    Ms. Fudge. Thank you.
    Chairman Gordon. Thank you, Mr. Bolden, and Ms. Edwards is 
recognized.
    Ms. Edwards. Thank you, Administrator Bolden, for your 
testimony today and for being here.
    I want to say, I mean, I, like many of my colleagues, have 
just been floored by this proposal, and I think part of the 
reason is jumping off the point where you ended, about 
inspiration. I think one of the things that inspires young 
people to get engaged in science, to be interested in space is 
the inspiration that has actually been created really through 
the human spaceflight program. And so it is--I am struggling 
trying to figure out how in this budget we derive that 
inspiration for the future.
    But I want to go to some specific details. One is, you 
know, I could be really concerned, not as concerned about this 
budget because truth be told, Goddard Spaceflight Center, which 
is in my--in the county in which I live and a lot of the folks 
who work at Goddard are my constituents, and you know what? We 
win big in this budget, but the fact of the matter is that this 
is really about a vision for our space program, and our space 
program is a three-leg stool. It is the Earth sciences in which 
we engage, it is the research and development and technology 
development, but it is also human exploration, and I feel that 
this budget, with this budget we lose one of those legs of that 
stool.
    And so I want to ask you actually about the commercial 
sector, and I will just quote for a minute from Anatoly 
Perminov of the head of the Russian Space Agency, and he said, 
``We have an agreement until 2012 that Russia will be 
responsible for this about carrying astronauts from other 
countries into low Earth orbit, but after that, excuse me, but 
the prices should be absolutely different then.''
    What is it about in terms of the administration and your 
confidence in the commercial sector that enables you to believe 
that after 2012, we will have a robust commercial sector that 
is really able to deliver on its promises? Because if you look 
at the--what has been expended to date, I want to know what 
hardware has been delivered from the $618 million that has gone 
out. What services have been provided? What does NASA own? 
Where are the intellectual property rights, and what has 
actually been tested and worked to give us that kind of 
confidence that after 2012, we won't just be floating more and 
more money into this, having lost 9 and then 3 billion, $12 
billion out of where we have been?
    I just--I really don't get it, and I would say lastly that 
just in terms of risk, the commercial sector is never going to 
absorb the kind of risk that it really takes to get these 
vehicles off the ground, and at the end of the day the taxpayer 
will always have to absorb that risk, and if that is true, then 
why not really take it on by continuing to have NASA fully 
engaged in human spaceflight? Because when it is all said and 
done, it is going to be on us anyway.
    And I want to correct for the record Mr. Rohrabacher 
because the reality is that the job loss that we are talking 
about in this workforce is a private sector workforce. It is a 
technical, skilled, scientific, scientifically capable 
workforce that is a private sector workforce. This isn't just 
about retaining government jobs.
    Thank you.
    Mr. Bolden. Congresswoman, I think you asked me a question, 
and I am going to try to remember it and answer it for you. 
However, I want to thank you for the comment in response to 
Congressman Rohrabacher's because I didn't--he didn't ask me a 
question, so I didn't get a chance to comment on it. It is more 
than just jobs. We are talking about people who have incredible 
qualifications and capabilities, and so I share everyone's 
concern about the workforce, about retaining the workforce. I 
have had conversations with some of you. You know, it is my 
intent that this budget will allow us to try to find ways to 
cross train our people, to help bring them into the 21st 
century workforce where, you know, a person who is--who can 
turn a wrench or hammer a nail or whatever else it is, there 
are very few jobs like that in the space industry anymore, and 
we have got to transition the workforce.
    We were going to see a bucket in terms of job losses at the 
termination of the Shuttle Program. We knew that. What has kind 
of thrown us a curveball is that a number of those people, not 
all of them, were going to have gone to the Constellation 
Program. We are working feverishly now and will be working over 
the coming months to come up with follow-on programs that are 
going to replace the Constellation Program to ensure that we 
can get humans beyond low Earth orbit, to ensure that we 
maintain the ability to get humans into low Earth orbit by 
American-manufactured rockets. And we are going to do that.
    Ms. Edwards. But, Mr. Bolden, what gives you the confidence 
in this program given that they are already behind schedule, 
they are already under budget, and they haven't delivered 
anything yet?
    Mr. Bolden. I have not--I mean, you have information I 
don't have, Congresswoman. I, you know, we have milestones for 
Orbital and for Space X to meet, and to date I have not been 
informed that anyone has missed a milestone. We are--as far as 
I know, Space X, because I visited their launch complex 40 
facility and looked at their rocket and talked to their 
engineers two weeks ago when I was down for the STS-130 launch, 
and they were very optimistic that they were going to launch 
here in a month or so. Their first flight.
    Now, they don't launch for us until 2011. They are--we will 
be their third flight, so they have milestones that they have 
to meet, and until they fail to meet a milestone, I can't say 
that they are behind. You know, we pay them based on their 
meeting milestones, and so far we have not failed to pay them 
because they have not failed to meet a milestone.
    Orbital is a very proven company when it comes to putting 
things in space. Putting people in space is a new deal for 
them. Boeing, Lockheed, USA, ATK, these are all well-
established companies, and they have an opportunity to bid in 
the next round for commercial, you know, for an opportunity to 
be a part of the commercial space program. And what makes me 
confident that it is going to work is because these are 
experienced people who are dedicated to what they do, to human 
spaceflight.
    As I told the employees at Marshall, they are being unfair 
when they criticize companies like Space X and Orbital and 
others because some of the people who are doing the jobs now 
were their former coworkers. You know, we are not talking about 
hobby shops. We are talking about very professional engineers 
in these commercial companies.
    Chairman Gordon. Thank you.
    Mr. Bolden. You know, that they can do what we ask them to 
do.
    Chairman Gordon. Mr. Grayson is recognized.
    Mr. Grayson. Thank you. What is our next destination for 
America in space?
    Mr. Bolden. The next destination for America in space, and 
I am not being trite when I answer this, is the International 
Space Station. We have got to get there four more times this 
year. The big, the long-term destination after we successfully 
close out the Space Shuttle Program, the ultimate destination 
is Mars, and there are intermediate points that we are going to 
have to get to before we are capable of going to Mars.
    If you gave me all the money in the Federal budget today, I 
could not get a human to Mars. I could not morally put a human 
in a spacecraft and launch them on an 8-month mission to Mars 
because I do not understand the radiation requirements----
    Mr. Grayson. All right. So what is our next destination in 
space?
    Mr. Bolden. The next ultimate destination is Mars.
    Mr. Grayson. No. The next one.
    Mr. Bolden. Congressman, the next destination as I said 
before is the International Space Station, and we got to do 
that four more times.
    Mr. Grayson. All right. Let us not be trite then. What is 
the one after that?
    Mr. Bolden. It is Mars.
    Mr. Grayson. So there is nothing in-between as far as you 
are concerned?
    Mr. Bolden. But there are intermediate stops----
    Mr. Grayson. What are they?
    Mr. Bolden. --on the way there.
    Mr. Grayson. What is the next one?
    Mr. Bolden. The moon is a destination, Lagrange points are 
destinations.
    Mr. Grayson. Which one is next?
    Mr. Bolden. You mean where do we go immediately next? Is 
that the question?
    Mr. Grayson. That is what next means.
    Mr. Bolden. Congressman, I--we are in the process of 
developing a program. I will have to be able to give you the 
details, and I will come back and make it for the record in the 
coming months.
    Mr. Grayson. So why are we even talking about how to get to 
the next destination. We don't even know what that is.
    Mr. Bolden. Congressman, we do know what it is. We know 
what----
    Mr. Grayson. What is it?
    Mr. Bolden. Congressman, I, you know, we can go back and 
forth forever.
    Mr. Grayson. We seem to have to here. I am looking for an 
answer.
    Mr. Bolden. Okay. The next destination in the Constellation 
Program was the moon.
    Mr. Grayson. What about now since you are trying to 
eliminate that?
    Mr. Bolden. Congressman, the program of record and the 
program to which we are working right now because you have told 
me that I have to continue to work the Constellation Program, 
you know, we are talking about the 2011 budget, but if you ask 
me right now, the next destination is the moon.
    Mr. Grayson. Okay. Good. Now, the Augustine report came up 
with four options and several sub-options or alternatives 
within the options. Which one did the administration adopt?
    Mr. Bolden. The administration adopted the recommendations 
of the Augustine report which is the flexible path.
    Mr. Grayson. Which option?
    Mr. Bolden. The flexible path.
    Mr. Grayson. The flexible path?
    Mr. Bolden. Yes, sir.
    Mr. Grayson. Okay. So you think that----
    Mr. Bolden. That was the recommendation of the Augustine 
Committee.
    Mr. Grayson. All right. Now, you can correct me if I am 
wrong, but I did read the report, and it seemed to me that the 
flexible path involved continuing the Constellation Program. Is 
that a fair statement?
    Mr. Bolden. The Constellation, you know, the Augustine 
Committee did not recommend cancellation of the Constellation 
Program.
    Mr. Grayson. So then I am right.
    Mr. Bolden. You are right that they did not recommend 
cancellation of the Constellation Program?
    Mr. Grayson. The flexible path included continuation of the 
Constellation Program.
    Mr. Bolden. The flexible path did not necessarily include--
I think you are cherry picking from the report. The report 
said----
    Mr. Grayson. I just want to know why you had all these 
people come together, the people who knew the most about the 
space program, and then you ignored their recommendation to 
continue the Constellation Program. That is what I am asking.
    Mr. Bolden. Congressman, they did not recommend 
continuation of the Constellation Program. What they said----
    Mr. Grayson. The flexible path did.
    Mr. Bolden. Congressman, what the report said was that they 
find no technical challenges in the Constellation Program that 
cannot be met the way that NASA has always met them, however, 
to do so will cost a significant amount more than anyone will 
reasonably be able to place in a budget.
    Mr. Grayson. Right. Regarding the budget, it seems to be 
your plan to put people in space through commercial programs. 
Is that correct?
    Mr. Bolden. I intend to put people into low Earth orbit 
through commercial programs.
    Mr. Grayson. How often has that happened so far?
    Mr. Bolden. We do it today.
    Mr. Grayson. Explain to me. Go ahead.
    Mr. Bolden. Well, today I go out and I pay USA to operate 
the Space Shuttle out of the Kennedy Space Center. The vast 
majority of my workforce right now as Congresswoman Edwards 
mentioned, 89 percent of the workforce in the Shuttle Program 
today are contractors.
    Mr. Grayson. So you consider the Space Shuttle Program to 
be a commercial program?
    Mr. Bolden. I consider the Space Shuttle Program to be 
evidence that commercial entities can successfully operate----
    Mr. Grayson. Would you just please answer the question. My 
time is limited.
    Mr. Bolden. Yes.
    Mr. Grayson. Okay. So what is wrong with continuing at 
that?
    Mr. Bolden. We would not--I do not think it would be wise 
to continue the Space Shuttle Program beyond the four 
additional flights that we are on track to fly right now. I 
think that would not be prudent.
    Mr. Grayson. But if one is commercial and the other is 
commercial, what is the advantage of switching?
    Mr. Bolden. The advantage is that we relieve ourselves of 
the responsibility and the cost for operating and maintaining 
infrastructure as we do today with the Space Shuttle Program.
    Mr. Grayson. Isn't it true that commercial entities have 
never put a man in orbit?
    Mr. Bolden. Commercial entities have put every human in 
orbit that we, the United States has flown. If--and you can 
take that up with North American Rockwell or Boeing or the 
United Space Alliance.
    Mr. Grayson. Honestly, I will tell you, my time is up now, 
so I am going to tell you this briefly. I think that what you 
are doing is taking a shot in the dark. You have no way of 
knowing if any commercial entity will ever be able to put a man 
in orbit, no matter how much money you throw at them. What you 
are doing is you are taking NASA's man space program and making 
it a faith-based initiative.
    I yield the rest of my time.
    Chairman Gordon. Ms. Kosmas, thank you for your patience 
and you are recognized.
    Ms. Kosmas. Thank you very much. Thank you, General Bolden. 
I want to first of all thank you for your service to our 
country, both in the military and as an astronaut for us. I 
want to hearken on a comment that was made yesterday by Dr. 
Holdren where to quote him, he wants to ensure that what we do 
continues America's leadership in space and science and assume 
that you would agree that that is a goal worthy of our 
attention.
    Mr. Bolden. It is my intent. That is not a goal. That is--I 
am determined.
    Ms. Kosmas. Okay. That is good to hear. That is good to 
hear. I want to suggest to you also that inspiring generations 
is part of the goal, I think, for the future, and I was glad to 
hear you say that from the balcony of the movie theatre in 
Columbia, South Carolina, to the commander's seat on a Shuttle 
launch into outer space, you had been inspired by the space 
program and have made--led a very inspirational life for all of 
us, and I am sure would like other to do it.
    There are a number of things that I am extremely concerned 
about, many of which have already been covered by my 
colleagues. If I have to identify them in short order, I would 
say the job loss in my community, as you know, is devastating 
based on the impending finality of the Shuttle Program, if 
that, in fact, is reality, and the lack of specificity in the 
budget for what we will be doing next and what skills or 
knowledge will be required.
    In the short term we will be losing a highly-skilled and 
competitive workforce from my community, one which is already 
suffering from 12 percent unemployment. We will lose, I 
believe, the opportunity that was given to you to be inspired 
by space because we don't have the specificity of the program. 
I think we are at risk of losing our leadership internationally 
as has been not only alluded to but expressed with great detail 
by others here today.
    I think you referred to losing the battle of the intellect 
to other nations, and I think that is something that is very 
serious, a concern to us without having the inspiration that 
will provide for the next generation, for the 21st century 
jobs, the economy, the national security, all of which is 
contained in inspiring our next generation to move forward in 
fields related to obviously the STEM programs, and nothing does 
it better than manned space exploration.
    There is no greater inspiration to those folks sitting 
around in a room developing something without any idea where it 
is going to go is not what I would call visionary or 
inspirational. We have had this discussion previously.
    I am also concerned about our actual lack of access to the 
International Space Station. I am pleased that we have extended 
its life for five years, but the fact that we have no vehicle 
to get us there past the four Shuttle launches planned is of 
great concern to me, and so in outlining those things that are 
of specific concern to me, I want to ask you another couple 
of--or a couple of questions.
    I think we all agree we want to maintain our access to the 
Space Station. There is no way we can actually maximize the 
additional five years unless we can get there. We have--as 
others have said, we have no proof that there is a commercial 
opportunity to get there.
    I have asked before about the possibility of extending the 
Shuttle. I don't want to beat a dead horse, and I am not 
looking backward, but if we have extended the life of the Space 
Station and the Shuttle is the only vehicle that we have 
currently that is able to take us there for service, for 
support, for access of a wonderful resource that we have, can 
you tell me what it would cost us or can you respond to me 
about why it is that we have eliminated that as a possibility 
going forward?
    Mr. Bolden. Congresswoman, there are a couple of reasons, 
and I will be happy to answer in detail for the record because 
I don't want to give you--I am going to give you some numbers 
that are not precise. It costs us in the neighborhood of $2 
billion a year to operate the Shuttle. That is a cost that 
would come out of other programs if we decided to extend it.
    There is the issue of potentially having to recertify the 
vehicle, reopen---- \3\
---------------------------------------------------------------------------
    \3\ Page 72, line 1703, of the transcript (see Appendix 2: 
Additional Material for the Record).
---------------------------------------------------------------------------
    Ms. Kosmas. I think that is done on sort of a recurring 
basis, and so those are things that we probably could discuss. 
Again, I will look forward to your response on that.
    Again, the lack of specificity has been hit on so many 
times that I am not going to go there, but I think it is very 
essential that you provide us greater detail of what the 
research and development and so forth is going to be for--I 
know in the budget there is also--and we are pleased with this, 
$2 billion for upgrading the infrastructure. How do we go about 
being efficient and effective in upgrading infrastructure when 
we have no idea what the architecture we will be planning for 
is going to be?
    And that is a question that is, like I said, that is a 
thank you for the money, but how are we going to use it 
effectively if we do not know what the architecture----
    Mr. Bolden. We have actually been involved in discussions 
with the Air Force, particularly a 45th space wing for a number 
of years, about range upgrades that they want to do, and we now 
have funds that will allow us to do things on our side that 
will enhance their ability to do the range upgrades.
    Ms. Kosmas. Okay. Well, I would look forward to having more 
detail with you about not just what has happening at the 45th 
but also at Kennedy Space Center----
    Mr. Bolden. Yes, ma'am.
    Ms. Kosmas. --and how we manage to maximize that for the 
people of my district, who are looking to lose their jobs and 
add to an already dire situation. So we--I would look forward 
to hearing more from you in that regard.
    I just am also concerned about the cancellation of 
contracts as has been discussed by others and hope to hear more 
from you on that. I think there are many of us who feel that 
Congress should have the opportunity to respond as a body to 
the budget proposed by the President and that cancellation of 
contracts at this stage of the game before Congress has engaged 
in what our alternative proposals might be is premature and 
puts my workforce, my highly-skilled and professional, valuable 
workforce at even greater risk as they were depending upon some 
of these contracts moving forward during the transition period.
    Mr. Bolden. And Congressman, I think hopefully I was clear 
when I sent my letter back that we have not directed any 
contract cancellations, nor is it my intent to do that. I 
intend to be in full compliance with the law in the form of the 
2010----
    Ms. Kosmas. But even cancellations----
    Mr. Bolden. --appropriations.
    Ms. Kosmas. --to the future of 2011, has the impact of 
making decisions without Congress having weighed in on your 
plan.
    Mr. Bolden. And our intention is to, as I told the Chairman 
before we came in, our intention is to be in full and complete 
deliberation with you in the coming weeks and months about 
where we go. Congress will be--you will be an important part of 
the deliberation.
    Chairman Gordon. Thank you, Mr. Administrator.
    Ms. Kosmas. Thank you.
    Chairman Gordon. And, Ms. Kosmas, I think part of your 
discussion points out to whatever happens needs to be 
determined soon with some certainty. There will be probably 
more jobs not lost than will be lost, but if you don't know 
where you stand in all that, it is very difficult. And so we 
have got to bring some certainty to this, both for the 
expertise and the human aspect of it, as well as to get the 
best program before us.
    My neighbor from Tennessee is recognized, Mr. Davis.
    Mr. Davis. Mr. Chairman, thank you very much, and thanks 
for holding this budget hearing today. I know that the process 
sure is that we would basically in this Committee authorize 
certain expenditures as we go through this budget process, and 
that is the reason a lot of us are here today and perhaps many 
have some questions to ask.
    I will relate to you some experiences, and Bart will 
probably chastise me for doing this, we often have in rural 
areas growing up, wherever it may be, and my situation in rural 
Tennessee. I look at this budget and realize there is $19 
billion, that is about a 1.5 percent increase, but you will be 
making a cut to a complete program of Constellation.
    I know that in the mid '50s Sputnik kind of startled us. In 
the early '60s John Kennedy made a statement that we will send 
a man to the moon and return them within this decade, and on 
July the 20th, 1969, the world also saw space change, because 
we landed a man on the moon, and I sat at Camp Boxville in Bart 
Gordon's district near Gallatin, with about 25 Boy Scouts of 
which I was a Scout Master. We watched that happen. It was 
unbelievable, and so the world changed then, too, when it came 
to space, but we have made some pretty strong commitments to 
make that happen.
    I know that 1986, as I sat at my house and watched with my 
teacher wife the Challenger blow up, yes, there is no question 
that also changed the way we look at space and the dangers of 
it, but are we again looking at a change that will be as 
devastating to us as the 1986 accident was, or are we making a 
decision that will make us another July the 20th, 1969? I don't 
know which place I fall there.
    And here is why. When I would go to Tennessee Tech to get a 
degree where I became a soil scientist, I would often hitchhike 
from Cookwood to Pall Mall. There were times people would be 
going all the way to that area, and I could get a good, safe 
ride there. I want to be certain that we will continue to have 
space vehicles and a safe space vehicle that will allow us to 
get to Mars. I don't want us sitting on a star in the 
Constellation, hitchhiking with China or Russia to arrive at 
that destination.
    Because my fear is if we don't head in the right direction, 
that we will not have a vessel or spaceflight, and we will have 
to fly with someone else, and this country cannot afford that, 
nor should we put ourselves in that position.
    I also realized that one day driving up the mountain where 
I live, as I reached a higher elevation, I assumed the road was 
still wet. It was black ice, and I crashed. Are we headed on 
the collision course as we cancel Constellation and look at 
private entrepreneurs, and there is no--when we talk about 
private entrepreneurs, let us make something perfectly clear to 
everyone in this room.
    Outside a situation in Oakridge, Tennessee, where 12,000 
people work and 400 work for the Federal Government, the rest 
work for private entrepreneurs funded by the Federal Government 
or the taxpayers. We are still going to be funding at a level, 
maybe with less direction, from my perspective.
    So here is the question. Ten years from now in your 
perspective as you went through this process, ten years from 
now what percent would you say of completing our objectives 
could we have with the Constellation Program or with the new 
process that you are taking? Which one has us more certainty, 
and what percentage can we expect of success with Constellation 
compared to the steps that you are taking in this new budget?
    Mr. Bolden. Congressman, if I go with the report of the 
Augustine Committee, ten years from now we would definitely not 
be on our way to the moon because that report said that we were 
sufficiently behind both in terms of progress on completion of 
the vehicles and everything. So we would not be where I think 
we may be on the path that we are set in--that is supported by 
the 2011 budget. It is my hope that by 2015, 2016, we will have 
an American capability at work getting humans back to low Earth 
orbit, to the International Space Station, perhaps more than 
just one as we would have had with Ares I. And it is my hope 
that the technology development that we do in terms of 
propulsion will have us physically building on a heavy-lift 
launch vehicle such that some time between 2020 and 2030, we 
will be on our way to destinations beyond low Earth orbit.
    That is, you know, those are wishy-washy answers in terms 
of the, you know, leaving low Earth orbit, but that is--it is 
too early to tell you a definitive date for when we are going 
to do that.
    Mr. Davis. You are saying with the Constellation Program we 
probably would not be able to be there for a much longer 
extended period?
    Mr. Bolden. If I remember----
    Mr. Davis. What are your plans now?
    Mr. Bolden. --the program of record, you know, it did not 
have the International Space Station after 2015, because the 
cost of extending the International Space Station would push 
Constellation, Ares I, and Ares V even farther out. The program 
of record did not have landers, so we would not have--we would 
have a vehicle to go to the moon, but we would have no way to 
get humans to the surface. We would have, you know, we just--we 
would not get there in the time that you think we would under 
the existing program.
    And that is not--please understand that is not an 
indictment on the people or the technology in the Constellation 
Program. The Augustine Committee points out very well. They 
found nothing technically wrong with Constellation any 
different from any other development program in space, and they 
felt that NASA, given time and money, could take care of any 
challenges that they had. And the workforce is absolutely 
incredible. It is just that we found ourselves so far behind 
because of insufficient funding over the last 8 or ten years 
that ask the government to ask you as a Congress to approve a 
President's budget that would add $7 billion a year to try to 
catch up the Constellation Program, that was irresponsible in 
my estimation.
    And so that is one of the reasons for my recommendation to 
the President that we take the course we are on now.
    Mr. Davis. All of us are visionaries. We can predict the 
future, but we cannot see the future, and so as we engage in 
this debate further, I have a concern about canceling this 
program, and so, therefore, until we have more discussion I 
will be one advocate of continuing the program that we have. 
You must convince me that the vision I am not seeing that you 
have, that the program you are proposing is better than what we 
have with Constellation.
    Mr. Bolden. Sir, I respect that, and that is exactly what I 
have to do. I promised the Chairman that, you know, we are not 
prepared at this time, and I apologized at the very outset of 
the hearing because we do not have the type of detailed program 
outline that one would normally expect when we were making a 
change like this, but we are working on it.
    Mr. Davis. And that is what concerns me and I think many 
Members of this Committee.
    Chairman Gordon. Ms. Dahlkemper is recognized.
    Ms. Dahlkemper. Thank you very much, Mr. Chairman, and 
General Bolden, thank you for joining us today.
    There has certainly been a lot of concerns echoes from one 
member after the other after the other, but I would like to go 
back to a little bit of what Representative Fudge was talking 
about in terms of education, STEM education, inspiring 
students, and maybe you can elaborate a little bit on a few 
points here.
    You know, as we look at our youth, we have always used 
space exploration, Shuttle launches, to inspire our youth to 
encourage them to go into these fields. What is NASA telling, 
going to tell our youth about what you are doing, what is going 
on? How can you inspire them at this point?
    Mr. Bolden. Congresswoman, we are actually--this summer we 
are going to try a program called Summer of Innovation, where 
we are going to connect youth with NASA centers, with NASA 
engineers around the country. We are going to let them do 
hands-on type of operations that may connect them with the 
International Space Station. In the 2011, budget we have money 
that is set aside to do interactive exploration where 
schoolchildren can actually participate with experiments and 
the like that are on board the International Space Station.
    Dr. Sally Ride has a program now, and I forget the name of 
it. I think it is Space Cam, but it allows children today 
sitting in their classroom to take control of a camera that is 
on the International Space Station, and they point it wherever 
they want to point it, and they do projects. And those kinds of 
programs are going to continue, and we are confident that we 
can continue them now because the President has put an 
additional $20 million a year over the next five years into my 
budget. We have put additional money in so that we can pull 
forward a number of the Earth science programs that were in the 
Earth science survey, so we are accelerating almost all of 
those tier one programs by a year and some by as many as two 
years. Those are things that are going--that we are going to 
use to inspire youth.
    Ms. Dahlkemper. There is a pilot program this summer. 
Right?
    Mr. Bolden. That is the--I am told not to call it a pilot, 
but it is a pilot program.
    Ms. Dahlkemper. Okay.
    Mr. Bolden. Yeah.
    Ms. Dahlkemper. Are you--is there a sufficient lead time 
for NASA to be up and going for summer of 2010, on this 
program?
    Mr. Bolden. Oh, yes, ma'am. We have been planning this 
since last fall, and we have had fits and starts I will admit, 
but we plan to have it operational in five states that will be 
selected competitively across the country.
    Ms. Dahlkemper. How is that working?
    Mr. Bolden. So far so good.
    Ms. Dahlkemper. I mean----
    Mr. Bolden. We have----
    Ms. Dahlkemper. --how is that going to be determined, the 
five states?
    Mr. Bolden. Oh. It is a competitive selection.
    Ms. Dahlkemper. Uh-huh.
    Mr. Bolden. We had a pre-solicitation conference a week 
ago, and we had 125 participants in the call, and we already 
have I think 27 notices of intent to apply to compete for the 
program, so that is pretty good.
    Ms. Dahlkemper. And what happens this year, how will that 
be used to determine what you do with the 20 million for the 
fiscal year 2011?
    Mr. Bolden. The $20 million that is in the budget is for 
increases in education programs that if I am able to do what I 
want to do, we want to modify, we want to radically change, if 
you will, the way that we do education in NASA where we are now 
going to be able to provide impact in coordination with the 
Secretary of Education, who taught me that you shouldn't do 
anything unless you can provide impact metrics, the data that 
says you have changed a child's life or you have really had an 
affect on them. And we are transforming the way we do business 
in NASA where we were advised that we are a program and project 
organization. We know how to do programs and projects, and we 
were advised that we should do education the same way.
    And so the Summer of Innovation has a project lead or a 
project manager, and she is now developing a project plan with 
a budget, which is unlike programs that we have done in the 
past in NASA. We have definitive metrics that we will require 
people to meet, so we are looking to see whether or not we 
making middle school teachers more effective in their ability 
to reach students in the STEM subjects, and we will be looking 
at this over a three-year period of time.
    Ms. Dahlkemper. And do you see any downsides to the fact 
that the cancellation of the Constellation Program and the 
Shuttle?
    Mr. Bolden. You mean with----
    Ms. Dahlkemper. In terms of inspiring.
    Mr. Bolden. No, ma'am, I don't because, you know, 
Constellation would have had no--it would have not had any 
connection with the Summer of Innovation at all because the 
earliest that we would have seen Ares I fly, given the current 
plan that I asked about the other day, would have been 2015, 
2016, so we will know whether the Summer of Innovation works or 
not. We would have known it two years prior to the earliest 
possible flight of any element of Constellation.
    So Constellation had no impact or will have no impact on 
the Summer of Innovation or any of the other education programs 
we have on the books.
    Ms. Dahlkemper. In terms of inspiring, you know----
    Mr. Bolden. The Summer of Innovation is dependent on what 
we call NASA content.
    Ms. Dahlkemper. Okay.
    Mr. Bolden. That is the International Space Station, it is 
in existence today. It is not a dream.
    Ms. Dahlkemper. Okay.
    Mr. Bolden. And we are extending it an additional five 
years, so we have 10 more years to utilize that as an asset to 
support enhanced STEM education. We are going to try to put 
children aboard the International Space Station, what is the 
right word? Through the Internet.
    Ms. Dahlkemper. Virtually?
    Mr. Bolden. Virtually. That is--I apologize for losing my 
mind.
    Ms. Dahlkemper. That is okay.
    Mr. Bolden. But we are going to try to put them virtually 
aboard the International Space Station. We can do that for five 
more years than we were going to be able to do it before 
because the President has funded the extension of the 
International Space Station or is willing to fund it if the 
Congress concurs. So----
    Ms. Dahlkemper. Well, I look forward to seeing the progress 
of this, and my time is up. So I yield back.
    Mr. Bolden. Yes, ma'am.
    Chairman Gordon. Mr. Wilson will be our final full 
Committee questioner, and then we move to our guests.
    Mr. Wilson is recognized.
    Mr. Wilson. Thank you, Mr. Chairman. Thank you for being 
here, Administrator Bolden.
    NASA's economic impact to Ohio exceeds $1.2 billion and 
acts as a catalyst for over 1,200 aerospace-related companies 
in our state. This complies--these companies that employ more 
than 100,000 Ohioans are directly related to NASA Glenn. These 
are good-paying jobs that I would like to see protected 
regardless of the direction of human space exploration.
    What specific roles do you foresee NASA Glenn playing in 
the NASA's future?
    Mr. Bolden. Congressman, NASA Glenn has a bright future. If 
I look at things that are going on or are going to be going on 
with the 2011 budget, the increase in the aero budget, much of 
that will involve Glenn, primarily because they are a research 
center. As I told one of the--one of our fellow Members of the 
Committee earlier, we are going to increase the amount of 
research that we do with rotor wing research. We are going to 
pick up the pace on icing research. So there are a number of 
things that Glenn will play a key role.
    Mr. Wilson. Good. Thank you. Second question. NASA Glenn 
has a prominent role in the Constellation Program, including 
the components of Ares V and Lunar Lander. Therefore, are there 
very real fears that if the Constellation Program is canceled, 
that NASA Glenn could be negatively impacted?
    Mr. Bolden. I don't, you know, I would encourage you to ask 
the former Glenn Center director, Woodrow Whitlow, but I think 
he would tell you that he has no fears that Glenn will falter 
from lack of the Constellation Program. Prior to my 
predecessor's desire to make sure that every center in NASA had 
a piece of the exploration pie so that everybody would have 
people working effectively, Glenn did not do the type of 
``exploration research'' that they have been asked to do with 
Constellation Program. But they will still be doing exploration 
work, and most importantly, we will allow them to go back to 
being focused on aeronautics research as they have done before.
    One of their greatest contributions today is the engine to 
cells on--the engine nozzles on the Boeing 747-800 that has 
been broadcast recently where--because they use the Chevron 
System on the engine nozzles, Boeing is realizing an increase 
in fuel efficiency, a decrease in noise pollution, and a 
decrease in air pollution. That is a product of Glenn research 
that was sitting on the shelf that somebody went back and found 
and Boeing picked it up.
    So Glenn does ion engine research for, you know, in-space 
propulsion. They have a bright future.
    Mr. Wilson. Good. One last question. The Space Power 
Facility at Plum Brook, it is a unique facility with the 
ability to simulate in-space conditions. However, in the fiscal 
year 2011 budget request it eliminates the Constellation 
effort, including the Orion Crew Vehicle, which was planned to 
be the first utilization of these new capabilities. The budget 
has no specific information about the future of Space Power 
Facility.
    Can you give me some insight about this facility and how it 
would be used by NASA?
    Mr. Bolden. Sir, that facility was sized for Orion and 
other vehicles in the Constellation Program, and when I look at 
commercial vehicles that are coming down the road or 
potentially coming down the road, they are all smaller than 
what we have. So the facility at Glenn we are hoping will--we 
will be able to attract DOD as well as commercial users to that 
facility. It--I don't see it being impacted that much by the 
cancellation of the Constellation Program.
    Mr. Wilson. Thank you. Thank you, Mr. Administrator. I 
appreciate your answers.
    Thank you, Mr. Chairman.
    Chairman Gordon. Thank you, Mr. Wilson, and Mr. Bishop, you 
have been here the whole time. We appreciate you coming, and 
you are recognized for five minutes.
    Mr. Bishop. Thank you, Mr. Chairman. It has been most 
interesting. I appreciate you welcoming me back to this 
Committee, and I realize I am here temporarily since my 
nameplate is put together with Scotch tape. Thank you very 
much.
    General, everyone who has been here so far has thanked you 
for coming. I want to thank you, too, but to be very honest, 
very bold, if you and Ms. Garver had actually made better 
decisions, we wouldn't be here talking about this, and both of 
us would be much happier in that situation.
    There are some specific questions I would like to ask. I 
will try and be as brief as I can with any of them.
    It was brought out by Ms. Giffords, but you didn't really 
speak specifically to this particular issue, that with the 
Minute Man Ground Base Missile decisions that were made last 
year, as well as canceling of Constellation, has left the 
industrial base in shambles, and we obviously know that 
Secretary Gates was not consulted with this, Secretary Donnelly 
was not, ASCM--AFMC was not as well, and if obviously you 
talked about acquisitions, you obviously didn't listen to what 
they said.
    So, sir, did you consult with the Department of Defense on 
this, on the impact to the industrial base before you made this 
catastrophic announcement?
    Mr. Bolden. Congressman, let me be very careful about how I 
answer your question. I did not have detailed discussions with 
anyone----
    Mr. Bishop. Did anyone in your office then have discussions 
with them?
    Mr. Bolden. Congressman----
    Mr. Bishop. I need you to be brief. I am sorry.
    Mr. Bolden. --I have had informal conversations with senior 
persons in DOD from the time that I came into office because I 
wanted to reach out across agencies and the government. So I 
have talked with members of DOD. I have talked to them about, 
while not talking specifically about the impact of cancellation 
of the Constellation Program, I asked for information on the 
impact of--to the industrial base, particularly with reference 
to solid rockets.
    Mr. Bishop. Good. With whom did you speak?
    Mr. Bolden. Sir, I--if you ask General Cartwright if I have 
spoken to him, he will tell you yes. I have spoken to him, but 
those were not formal meetings, and they were not formal 
deliberations.
    Mr. Bishop. Anyone else with whom you had consultations?
    Mr. Bolden. Sir, those are--I can go through--I will 
provide you the information for the record.\4\
---------------------------------------------------------------------------
    \4\ Page 90, line 2150, of the transcript (see Appendix 2: 
Additional Material for the Record).
---------------------------------------------------------------------------
    Mr. Bishop. For the record. Good.
    Mr. Bolden. I will get it to you.
    Mr. Bishop. Your comptroller wouldn't do that, so I would 
appreciate if you would do that right now.
    The Department of--are you aware the Department of 
Defense's report to Congress on the Solid Rocket at Motor 
Industrial Base that was addressed last year?
    Mr. Bolden. I am not aware of that report. I am aware of a 
report that Dr. Holdren prepared. I read it.
    Mr. Bishop. Not that one. Go back to the original one from 
acquisitions. I appreciate if you look especially on page 47 
where it says if there is delay and Constellation has a 
significant, negative impact on the defense side of this 
equation, canceling it has to be a very significant negative 
impact.
    Mr. Bolden. I will go back and look at that.
    Mr. Bishop. Are you currently--because we talked to 
Secretary Donnelly yesterday. Are you currently having 
discussions with Secretary Donnelly on this issue?
    Mr. Bolden. I am not--since you put it--me directly, I am 
not having discussions with anyone right now. There are 
discussions on the Space Policy Review that is underway and 
persons in my organization are participating in those meetings.
    Mr. Bishop. Since he said he would have to get back to me 
on something of record, would you be willing to talk to him 
about that?
    Mr. Bolden. Yes, sir.
    Mr. Bishop. I would appreciate that.
    Ms. Edwards asked you specifically about the Russians and 
the costs that would come to this particular program. When the 
contract currently with the Russians is up and they have the 
monopoly on spaceflight which will take place for quite some 
time, do you have any anticipation or could you give me any 
kind of guess of what they will charge us to provide that 
services for us? Is there any--do you have any clue of what 
that will be?
    Mr. Bolden. Sir, we are in negotiations with the Russians 
right now, and so I would prefer not to--in fact, I won't 
discuss costs or any progress on that.
    Mr. Bishop. Do you have an estimate then on cancellation 
costs? Your budget puts it at around $2.5 billion.
    Mr. Bolden. We are evaluating right now what the potential 
costs, cancellation costs are, and----
    Mr. Bishop. Thank you.
    Mr. Bolden. --we can get that to you for the record, 
sir.\5\
---------------------------------------------------------------------------
    \5\ Page 92, line 2198, of the transcript (see Appendix 2: 
Additional Material for the Record).
---------------------------------------------------------------------------
    Mr. Bishop. Thank you. I appreciate that. That is 
consistent with, I think it was Mr. McCaul that you said that 
to. You really don't have a handle on what that cancellation 
cost would be, which I hate to admit this, to me is somewhat of 
a backwards approach. It would be nice for a Congressman or 
somebody who is making a policy decision, if we knew what the 
costs would be before you actually make that decision and jump 
to the next particular level.
    I have only got about 40 seconds with you, and I apologize 
for that. There are some other questions. There is a Space News 
article that came out which seemed to contradict the letter 
that you sent to us. I hope for the record some time you will 
clarify whether the Space News was wrong in its implications, 
or whether you are actually closing down programs of record or 
whether your letter was wrong to us.
    But I have to say just one last thing. When you said you 
are building a bold, new path for the future and you are coming 
up with was it, programs, Summers of Inspiration for kids to 
encourage them, in all due respect, when you have a President 
and you who said you want to encourage kids to become involved 
in science, math, and engineering or STEM programs, I have to 
really admit to you that the Summers of Inspiration is not 
going to fool a kid in college or in high school or junior high 
right now who looks at 20 to 30,000 private sector jobs who are 
involved in science, math, and engineering, being given a pink 
slip and the kind of chaos that goes to their particular life 
is not going to encourage anyone else to become involved in 
this area or any other area.
    This is a negative impact. It is a negative message. There 
is certainly no inspiration with this. This is not a program 
for a bold, new path. It is more like managing America's 
decline, and I am very much disappointed in the approach that 
NASA is taking on this particular effort, and I apologize right 
now. I wish I could give you more time.
    I only got--I have already gone over 33 seconds and 
counting, and I apologize for that, Mr. Chairman, as well. I 
tried to get it in five minutes.
    Chairman Gordon. Okay.
    Mr. Bishop. But I am sorry that we have to meet here.
    Chairman Gordon. Dr. Griffith, welcome back, and you are 
recognized for five minutes.
    Mr. Griffith. General, I appreciate seeing you again, and I 
know the bipartisanship in this room is heartwarming to you. 
That is a joke. If you got it.
    Mr. Bolden. I laughed. No one else did.
    Mr. Griffith. Teasing. I do think, though, that you being 
here, and I must say that--and I certainly disagree that this--
if we were in the business community, this has all the earmarks 
of a hostile takeover, and unfortunately, your kind face and 
your experience and the deep, deep respect that we have for you 
and what you have done for America makes it very difficult for 
us not to come to you with a smile and a good heart.
    We are deeply concerned, though, that whether it be Space 
X, a company that is reasonably new on the scene, or whether it 
be a Boeing or Northrop Grumman or whoever, we realize that 
difficulty when you pit two private or three private companies 
in a bidding war for an endeavor that has all to do, so much to 
do with our national defense.
    We are witnessing a delay right now in our refueling 
tankers with Boeing and other companies, and suppose we run 
into that same difficulty, and we recognize that China is on 
its way to the high ground, and we find ourselves in a bidding 
war or a bidding conflict, or we find ourselves in the legal 
system that is now slowing down whether these companies can, in 
fact, fulfill their mission or even resolve the bidding process 
in years past.
    We believe, and I think many of the Committee members 
believe, that this is a national security issue, and a national 
security issue that you privatize without control puts us in 
danger as a country, because it is the high ground.
    We are concerned that should a CEO change at Boeing or a 
CEO change at Space X or a Columbia accident occurs in one of 
these private companies, they will not be able to survive it. 
Only the U.S.A. can survive that with the will of the American 
people. We believe deeply in NASA. It is our heart, and it our 
soul. If we begin to divide our heart and soul with labels that 
say Space X or Boeing, and we have a failure, where will the 
American people be as far as their willingness to support 
manned spaceflight.
    We are greatly concerned about this. The thing that is of 
great concern to us is one of the things that makes me believe 
that this is an unfriendly takeover is something that you said 
that we will be happy to involve you in the deliberations as we 
move forward. But actually the decision to cancel Constellation 
was done without those deliberations. So we are all very, very 
suspicious.
    And so you can--I am a great--it is of great concern to me, 
of course, because I represent Marshall Spaceflight, but it not 
about jobs. The heart and soul of America is NASA. If we do 
anything, anything to detract from that we are going to lose, 
and we really can't afford to lose. We are five percent of the 
world's population, 95 percent of the would lives somewhere 
else. We are number one in manned spaceflight, and if we 
interrupt this culture of manned spaceflight, if we interrupt 
these people who are handing down their wisdom from generations 
of generations of manned spaceflight engineers, we are making a 
huge mistake.
    And to privatize this with a Space X or a Boeing or a 
Northrop, getting involved in the legal ramifications of a 
request for a proposal that may take two years or a bidding 
process that may be interrupted by the judicial system. We 
really need to think about this some more. We need to really, 
really go over it because America is a difficult place to do 
business.
    And I appreciate you. I truly do, but I disagree completely 
with the decision, and it is not about budget. If the 
conversation could take place between you and the President and 
you said, Mr. President, we need $3 billion a year for the next 
five years to make sure Constellation is on target and on time, 
and there is $800 billion over here in this stimulus, could you 
move 3 billion a year over into our space program so that we 
can be number one, and we won't have to watch the Chinese land 
on the moon from our living rooms? Mr. President, couldn't we 
do that? Wouldn't that be a good idea? And I will bet you with 
your persuasiveness the answer would be yes, good idea, 
General.
    Anyway, thank you very much for being here. I appreciate 
it.
    Mr. Bolden. Thank you very much, Congressman.
    Chairman Gordon. And Mr. Posey, you are going to close us 
out today.
    Mr. Posey. Thank you very much, Mr. Chairman.
    Following up on Congressman Parker's comments, I know it 
seems like a big reach but it would take about one percent of 
the stimulus fund to fly the Shuttle for another 5 years.
    I had another meeting earlier so I missed your testimony 
apparently when you refused to disclose who made the decision 
to cancel Constellation. I don't want to beat that horse 
anymore other than to say I am deeply disappointed in the 
alleged, most transparent Administration in the history of this 
country not to be able to get a direct answer on that, and a 
lot of people are, I think everyone shares that same question.
    When the President was campaigning in my county, he 
promised that he would close the gap between Shuttle and 
Constellation, and number two, he would keep America first in 
space. He didn't close the gap. He made the gap eternal, and 
low Earth orbit sure as not--hell is not keeping us first in 
space. You know it, I know it, he knows you and I both know it, 
but it doesn't seem to change anything. The rest of the world 
knows it, too.
    We have a focus on commercial in the future, and I love 
commercial spaceflight. I have spent about 20 years trying to 
help make commercial more profitable. I think there is a huge 
opportunity for there. If we would have done that earlier, 
there wouldn't even be a French Ariane today, but the reality 
is there is no profit in commercial rockets for human 
exploration unless we pay them, and we should be taking the 
lead in doing that anyway.
    I read your statement today, and it has a plethora of 
subjects that you said you were going to focus on, and we have 
heard more about also focusing on education, and I am just sad 
to see that the focus of NASA is not what this Nation has 
always presumed it to be, and that is first and foremost human 
space exploration.
    I am chagrined to hear the allegations that the 
Constellation Program is over budget when you know, I know, and 
they know we both know it is under-funded. Russians have 
already increased the cost of ferrying the astronauts of ours 
and the other nations we are pledged to ferry back and forth 
from 30 million to 51 million per, and I just wonder if you 
would dare to guess what that may be ultimately when we no 
longer have an alterative like the Shuttle to do that.
    We have not received a NASA workforce transition report 
since last summer despite the 2008 legislation that requires 
it. Apparently somehow it got sidetracked by Augustine. Given 
the importance allegedly placed on workforce, you know, you 
have to wonder why we are looking at laying off thousands of 
high-skilled workers, and the question is when we could expect 
to get our next report.
    Is safety really a legitimate objection to continue with 
the Shuttle? The questions that beg for an answer is why we 
aren't going to continue launching the ones we have, and aren't 
they, in fact, designed, engineered, and built for 100 
missions, and I think Endeavor has less 30 right now.
    Augustine report also referred that as--to that as one of 
the most reliable, as the most reliable, I think talked about 
over 98 percent reliability.
    You know, thousands and thousands of space workers are 
going to be put in the unemployment lines across this country, 
and I know a lot of the people in my district are wondering 
exactly how many reductions NASA is going to make at 
headquarters. They are expecting a commensurate amount of 
reductions as we lay off thousands of people around the 
country, and I wonder if you would comment on that.
    And if there is not time to address all these, and it is 
obvious there won't be, I wonder if you would be kind enough to 
respond to me in writing to these questions at your earliest 
convenience.
    Unfortunately, history will show that unlike the landing of 
Apollo when there was a giant step for mankind, we are going 
backwards now. This is a giant step from greatness to 
meritocracy. Anything but extraordinary I think in the future, 
and I think it just a sad day for America.
    And the final question I have is what would it take to get 
you to consider further renewing your interest in 
Constellation?
    Mr. Bolden. Congressman, I will get you answers for the 
record for the questions you asked about manpower, particularly 
that at headquarters.\6\
---------------------------------------------------------------------------
    \6\ Page 100, line 2402, of the transcript (see Appendix 2: 
Additional Material for the Record).
---------------------------------------------------------------------------
    In terms of interest in Constellation, there are aspects of 
the Constellation Program that I want to capture, and I want to 
keep, and some of the studies that I have asked to be done 
right now are helping us to determine what technologies, what 
projects that we have in the Constellation Program that we 
cannot do without, and it will serve as a nucleus for emerging 
programs.
    If I give you an example, two examples, from the 
Constellation Programs of things that we have already found to 
be needed and will--and are going to be applied. The thermal 
protection system studies that were done for Constellation 
determined that there is a thermal protection system that the 
folk from Space X could use, and they have chosen to use that 
on their vehicle.
    So we have gained an incredible amount of knowledge, a 
wealth of knowledge from the Constellation Program that I think 
will be--will carry on to the programs that we develop in the 
wake of the cancellation of Constellation if that is the final 
decision.
    When we look at escape systems, something that the Shuttle 
does not have, at the Langley Research Center we did a test on 
something called MLAS, Max Launch Abort System, which was 
highly successful. That is a system that we have recommended 
that the folk at Space X take a look at because they want to 
use a pusher-type system also, and so rather than have them go 
out and reinvent the wheel, we have suggested that they look at 
that product of the Constellation Program.
    So there are a number of aspects of the Constellation 
Program that I would hope we would be able to capture and to 
use in future programs.
    Chairman Gordon. Thank you. Yesterday we had Dr. Holdren 
here, and before the meeting started, the hearing started, Mr. 
Hall asked me does he bruise easily, and I will report back to 
him that you do not bruise easily, and we thank you, 
Administrator Bolden, for being here.
    The record will remain open for two weeks for additional 
statements from members and for answers to any of the follow-up 
questions the committee may ask the witness, and the witness is 
excused. The hearing is adjourned.
    Mr. Bolden. Congressman, thank you very much.
    [Whereupon, at 12:16 p.m., the Committee was adjourned.]
                              Appendix 1:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Charles F. Bolden, Jr., Administrator, National 
        Aeronautics and Space Administration

Questions submitted by Chairman Bart Gordon

Q1.  Many attempts have been made to leverage and/or establish 
commercial space markets with limited or no success (i.e. commercial 
Atlas/Delta, Space Imaging, Astrolink, TDRSS, Landsat, Comet, 
RocketPlane Kistler, Rotary Rocket, Beal, X-33/VentureStar, and many 
more). Considering the current economic environment and the limited 
availability of private capital, what specific indicators do you have 
that you confidence that a successful business case will exist for 
commercial crew services over the next three to five years?

A1. NASA has not done an analysis about the business case for future 
commercial crew providers. Such an analysis would be part of a review 
of any proposals submitted for future work. However, there are general 
indicators that such a market exists. For example:

        <bullet>  From an historical perspective, Russia and the U.S. 
        have been providing human space transportation services to 
        astronauts from other countries since 1978. Since that time, 
        Russia and the U.S. have transported nearly 100 astronauts 
        representing 30 nations. In addition, eight people have flown 
        to space in the past decade as spaceflight participants.

        <bullet>  Another strong indicator came from NASA's CCDEV 
        solicitation. In Answer to NASA's CCDEV solicitation for 
        commercial crew spaceflight concepts, the Agency received 36 
        proposals--an indicator that there is robust interest from U.S. 
        industry in developing human spaceflight capabilities.

        <bullet>  Helping to support an enhanced U.S. commercial space 
        industry will create new high-tech jobs, leverage private 
        sector capabilities, spawn other businesses and commercial 
        opportunities, and spur growth in our Nation's economy.

        <bullet>  Most importantly, the Administration's proposal to 
        extend and fully utilize the International Space Station 
        provides a reliable, sustainable market for commercial human 
        space transportation services likely too 2020 or beyond.

    Studies in the public domain suggesting that commercial providers 
can be successful include:

        <bullet>  Collins, P. and Isozaki, K. ``Recent Progress in 
        Japanese Space Tourism Research'' IAC Italy, October 1997.

        <bullet>  O'Neil, Bekey, Mankins, Rogers, Stallmer ``General 
        Public Space Travel and Tourism'' NASA-MSFC, March 1998.

        <bullet>  Aerospace Commission ``Final Report of the Commission 
        on the Future of the United States Aerospace Industry,'' 
        November 2002.

        <bullet>  Space Tourism Market Study, Futron Corporation, 2002.

        <bullet>  Webber, D. and Reifert, J. ``Filling in Some Gaps'', 
        Executive Summary of the Adventurers' Survey of Public Space 
        Travel, September 2006.

        <bullet>  Commercial Spaceflight Federation ``Commercial 
        Spaceflight in Low Earth Orbit is the Key to Affordable and 
        Sustainable Exploration Beyond'', Input to the Review of U.S. 
        Human Space Flight Plans Committee, June 29, 2009.

        <bullet>  Final Report of the Review of U.S. Human Spaceflight 
        Plans Committee, 2009.

Q2.  In December of 2009, the Committee held a hearing on the U.S. 
aerospace workforce and industrial base in which retired Lockheed 
Martin executive, Mr. Tom Young, testified that ``Without a challenging 
and meaningful space program, this national capability [spaceflight 
workforce] will atrophy. It can only be maintained by inspiring use. It 
has a limited shelf life.'' In the absence of a continuing government 
flight program to sustain this ``national treasure'' of a spaceflight 
workforce that Mr. Young describes, how do you plan to ensure that 
NASA's corporate knowledge and skill in conducting human spaceflight 
operations will not have exceeded its ``shelf life'' when the 
government does make a decision on a specific program to send humans 
beyond low-Earth orbit?

A2. NASA agrees that to maintain our leadership in space, we need 
challenges that inspire the Nation. The question before NASA is how to 
provide these challenges in the post-Shuttle era.
    At the highest level, the President and his staff, as well as the 
NASA senior leadership team, closely reviewed the Augustine Committee 
report, and we came to the same conclusion as the Committee: The human 
spaceflight program and the Constellation Program were on an 
unsustainable trajectory. To continue on the previous path we had to 
decide to either continue the International Space Station (ISS), 
support a program to get humans beyond low-Earth orbit (LEO), or to 
make even deeper cuts to the other parts of NASA's budget. Further, we 
would have insufficient funding to advance the state-of-the-art in any 
of the technology areas that we need to enable us to do new things in 
space, such as lowering the cost of access to space and developing 
closed-loop life support, advanced propulsion technology, and radiation 
protection.
    The President recognized that what was truly needed for beyond LEO 
exploration was game-changing technologies; making the fundamental 
investments that will provide the foundation for the next half-century 
of American leadership in space exploration. Therefore, the FY 2011 
budget request would ensure continuous American presence in space on 
the ISS throughout this entire decade, re-establish a robust and 
competitive American launch industry, launch more robotic probes into 
our solar systems as precursors for human activity, invest in a new 
heavy lift research and development program, and build a real 
technological foundation for sustainable, beyond-LEO exploration, with 
more capable expeditions in lunar space, and unprecedented human 
missions to near-Earth asteroids, Lagrange points, and, ultimately, 
Mars.
    The redirection to a flexible path strategy provides inspirational 
challenges, maintains the budget top-line and leverages government 
investment through partnership with the commercial sector. Maintaining 
and increasing national knowledge and skill in conducting human 
spaceflight operations is a cornerstone of the President's proposed 
space exploration strategy.
    Under the new Commercial Crew Transportation program, existing 
aerospace industry knowledge (including NASA's expertise) will now be 
shared with the commercial sector, as well as other NASA programs. To 
some degree, this is already occurring within the Commercial Orbital 
Transportation Services (COTS) program as NASA engineers sit side-by-
side with our partners and evaluate their performance. New insights and 
innovations are sure to emerge as NASA experts interact with industry 
partners.
    The International Space Station (ISS) is fully outfitted and 
operational to support six-person Expedition crews and the conduct of 
research and technology development. The FY 2011 President's Budget 
provides additional funding to extend the lifetime of the ISS beyond 
2015 and to increase ISS functionality and utilization. The goal is to 
fully utilize ISS' capabilities to conduct scientific research, improve 
our capabilities for operating in space and demonstrate new 
technologies developed through ISS or other NASA programs. These 
efforts will help to ensure the retention of human spaceflight 
operations skills and experience.
    Lastly, NASA has many science missions in the operations phase that 
can provide valuable training grounds for mission and flight 
operations. The FY 2011 budget proposal, for example, includes two new 
programs--a Flagship Demonstration Program and an Enabling Technology 
Development Program--that would invent and demonstrate large-scale 
technologies and capabilities that are critical to future space 
exploration, including cryo-fluid management and transfer; automated 
rendezvous and docking, closed-loop life support systems; in-situ 
utilization and advanced in-space propulsion. Once developed, these 
technologies will address critical requirements needed to send crews to 
a variety of exciting destinations beyond LEO. The flagship projects 
will be funded at $400 million to $1 billion over a period of up to 
five years, including launch costs, while shorter-duration enabling 
projects will be funded at $120 million or less and will focus on near-
term development and demonstration of prototype systems to feed 
flagship and robotic precursor missions. Such projects could include 
laboratory experiments, Earth-based field tests and in-space technology 
demonstrations. By allowing for flight demonstrations, some at a 
flagship scale, this Technology Development and Demonstration effort 
resolves the achievement gap between lab demonstration and flight 
testing that might otherwise prevent NASA from implementing the 
capabilities that are critical for sustainable human exploration beyond 
Earth in a timely manner.
    It should be noted that the same need for inspirational challenges 
and limited shelf life affects the nation's technology research and 
development workforce. Many independent reviews have found these 
efforts to be woefully under-supported, especially in the last five 
years as the national space industry's efforts have been tightly 
focused on the development of a particular set of hardware for human 
spaceflight. The FY 2011 budget proposal for NASA rebalances the 
nations support and utilization of the human spaceflight operations 
workforce and the space technology research workforce.

Q3.  The Administration's budget request for FY 2011 proposes 
significant changes to NASA's human spaceflight program that would end 
the U.S. government's capability to access low-Earth orbit after the 
retirement of the Space Shuttle. In the absence of any government 
system to serve as a backup, does the proposal signal an Administration 
decision to pay whatever is required to keep the would-be commercial 
providers financially viable for as long as the government needs to get 
its astronauts into space? If not, what recourse will you have once the 
government's development program is cancelled?

A3. The FY 2011 budget request builds upon NASA's commercial cargo 
efforts by providing significant funding for the development of 
commercial human spaceflight vehicles, freeing NASA to focus on the 
forward-leaning work we need to accomplish for beyond-low-Earth orbit 
missions.
    NASA is preparing a strategy to support the development of 
commercial crew transportation services so that the Agency is prepared 
to proceed if Congress provides funding in FY 2011. Therefore, it is 
too early to say, specifically, what NASA's procurement strategy will 
be or how much the Agency will pay for these services, once developed.
    In general, however, NASA's plan is to award FY 2011 development 
funding for multiple proposals, thus increasing the likelihood for 
developing a commercial crew vehicle from multiple partners. Then after 
the commercial crew services procurement is released, NASA expects that 
more than one partner will be selected to supply those services, thus 
providing redundancy of capabilities and competition. NASA has a 
transportation demand of six ISS crewmembers per year. Additionally, 
NASA has currently purchased seats on the Russian Soyuz through 2014 
and has legislative authority to purchase seats through mid-2016, 
should we need to procure additional services.
    With regard to commercial cargo services, NASA agrees that timely 
commercial cargo capability is critical for effective ISS operations. 
Without commercial cargo capability, the crew size and research 
operations planned for ISS would need to be reduced. Therefore, NASA 
will pre-position spares on board the ISS with the final logistics 
flights to provide some margin for delay in commercial cargo services. 
Additionally, NASA plans to rely on the transportation capabilities of 
Russia, the European Space Agency (ESA) and Japan to transport cargo to 
ISS. Russia's Progress vehicle has been providing cargo services to ISS 
through a contract with NASA. The ESA Automated Transfer Vehicle had a 
successful initial flight to the Space Station in 2008. The Japanese 
HII Transfer Vehicle had a successful first flight in 2009. ESA's and 
Japan's services are provided through barter agreements. It should be 
noted that NASA does not plan to continue to procure Progress cargo 
resupply services after 2011, opting instead to rely on U.S. commercial 
cargo delivery capabilities provided through NASA CRS contracts.

Q4.  In your testimony, you stated that ``Under this program the United 
States will pursue a more sustainable and affordable approach to human 
space exploration through the development of transformative 
technologies and systems.'' What is the basis for claiming that the 
proposed approach will be more ``sustainable and affordable'' when 
plans, a specific architecture for human exploration, and new 
technologies required to enable them have not been developed or 
demonstrated?

A4. The FY 2011 budget request is good for NASA because should the 
necessary funding be provided by Congress, it will set Agency on a 
sustainable path that is tightly linked to our Nation's interests. One 
measure of this is that it increases the Agency's top-line, in a time 
when many agency budgets have been flat or taken a cut. Even more, it 
reconnects NASA to the nation's priorities--creating new high-tech 
jobs, driving technological innovation, and advancing space and climate 
science research. It puts the Agency back on track to being the big-
picture innovator that carries the Nation forward on a tide of 
technological development that creates our future growth. We should 
make no mistake that these are the drivers for NASA's proposed budget 
increase of $6 billion dollars over the next five years.
    At the highest level, the President and his staff, as well as NASA 
senior leadership, closely reviewed the Augustine Committee report, and 
came to the same conclusion as the Committee: The Constellation program 
was on an unsustainable trajectory. They determined that, given the 
current budget environment, Constellation's funding needs would have 
required terminating support of the International Space Station (ISS) 
in 2016 and we would not have had sufficient resources to significantly 
advance the state-of-the-art in the technology areas that would be 
needed to enable lowering the cost of heavy-lift access to space, and 
developing closed-loop life support; advanced propulsion technology; 
and radiation protection and other technologies on a faster schedule. 
The President determined that what was truly needed for beyond LEO 
exploration was game-changing technologies; making the fundamental 
investments that will provide the foundation for the next half-century 
of American leadership in space exploration. At the same time, under 
the new plan, NASA would ensure continuous American presence in space 
on the ISS throughout this entire decade, re-establish a robust and 
competitive American launch industry, start a major heavy lift 
technology program years earlier, and build a technological foundation 
for sustainable exploration beyond-low Earth orbit.
    The President's FY 2011 budget request outlines an innovative 
course for human space exploration, but does not change our goal--
extending human presence throughout our solar system. NASA's 
exploration efforts will focus not just on our Moon, but also on near-
Earth asteroids, Lagrange points, and ultimately Mars. The President 
has voiced his commitment to sending humans to orbit Mars by the mid-
2030s with a landing on Mars to follow. While we cannot provide a date 
certain for the first human visit, with Mars as a key long-term 
destination we can identify missing capabilities needed for such a 
mission and use this to help define many of the goals for our emerging 
technology development. The research and technology investments 
included in this budget describe the many near-term steps NASA will be 
taking to cultivate the new knowledge and breakthrough capabilities 
required for humans to venture beyond low-Earth orbit (LEO) to stay.
    NASA's will lead the Nation on this new course of discovery and 
innovation, providing the technologies, capabilities and infrastructure 
required for sustainable, affordable human presence in space. Many of 
these capabilities have been recommended consistently for at least 24 
years in national level reports of committees and commissions 
addressing future human space exploration. NASA's investment in gaining 
critical knowledge about future destinations for human exploration, as 
well as transformational technology development and demonstration will 
serve as the foundation of NASA's ongoing space exploration effort, 
broadening opportunities for crewed missions to explore destinations in 
our solar system that we have not been to before. We have not sent 
people beyond low-Earth orbit in 38 years, and this budget gives us the 
great opportunity to focus on scouting and learning more about 
destinations to further explore our solar system and to develop the 
game-changing technologies that will take us there. It is important 
that we pursue these objectives to continue leading the world in human 
space exploration.
    Pursuant to the President's proposed new course, NASA has initiated 
planning activities to be able to effectively and efficiently implement 
these new activities in a timely manner upon Congressional enactment of 
the FY 2011 budget. In April, NASA outlined for the Committee the 
Agency's planned major program assignments across the Agency's Centers 
for new or extended activities proposed as part of the President's FY 
2011 budget request. These planned assignments build on the deep 
knowledge and expertise that NASA has built up over five decades, 
recognize the wealth of experience, commitment, and expertise resident 
at the NASA Centers, and expand upon the strengths at each Center. 
Additionally, following the release of the FY 2011 budget request, NASA 
established study teams to ensure we understand the steps (and the 
implications of those steps) that would need to be taken for an orderly 
transition of the Constellation Program and to plan for the 
implementation of the new initiatives in the Exploration program. The 
work undertaken by these teams is a necessary part of that planning.
    NASA is taking prudent steps to plan for the new initiatives 
included in the FY 2011 budget request, including Requests for 
Information (RFI), workshops, and preliminary studies. NASA is eager to 
seek external input from industry, academia, and other partners, and 
plans to accomplish this via a series of RFIs and industry workshops 
conducted this spring and into the summer. Doing so will ensure that 
NASA receives important feedback from our space partners before it 
begins to finalize its implementation plans for the proposed technology 
demonstrations and human spaceflight systems development activities 
that will be supported by the FY 2011 budget, once approved by 
Congress. During CY 2010, NASA plans to issue a series of program 
formulation documents seeking input from the broader space community.
    Finally, NASA also has established the Human Exploration Framework 
Team (HEFT) to serve as a cross-Agency planning activity. The team is 
being led by the Exploration Systems Mission Directorate (ESMD) and 
staffed with technical leaders from across NASA Centers. The team is 
focused on developing and reviewing the integrated set of requirements 
and technologies required for future human spaceflight missions to many 
destinations, including Mars. As part of its broad integration charter, 
HEFT will develop implementation recommendations on the performance and 
pacing requirements for the technologies needed for future human 
exploration missions using ``design reference missions,'' or DRMs. 
These DRMs will be the basis for validating capabilities and missions 
for five, 10-, and 15-year horizons, with milestones including crewed 
missions beyond the Moon into deep space by 2025, sending astronauts to 
an asteroid, and eventually landing on Mars. NASA expects to have 
initial products from the HEFT team this summer.

Q5.  In its report, the Columbia Accident Investigation Safety Board 
commented on the human spaceflight culture at NASA:

       ``As the Board investigated the Columbia accident, it expected 
to find a vigorous safety organization, process, and culture at NASA, 
bearing little resemblance to what the Rogers Commission identified as 
the ineffective ``silent safety'' system in which budget cuts resulted 
in a lack of resources, personnel, independence, and authority. NASA's 
initial briefings to the Board on its safety programs espoused a risk-
averse philosophy that empowered any employee to stop an operation at 
the mere glimmer of a problem. Unfortunately, NASA's views of its 
safety culture in those briefings did not reflect reality. Shuttle 
Program safety personnel failed to adequately assess anomalies and 
frequently accepted critical risks without qualitative or quantitative 
support, even when the tools to provide more comprehensive assessments 
were available.

       Similarly, the Board expected to find NASA's Safety and Mission 
Assurance organization deeply engaged at every level of Shuttle 
management: the Flight Readiness Review, the Mission Management Team, 
the Debris Assessment Team, the Mission Evaluation Room, and so forth. 
This was not the case. In briefing after briefing, interview after 
interview, NASA remained in denial: in the agency's eyes, ``there were 
no safety-of-flight issues,'' and no safety compromises in the long 
history of debris strikes on the Thermal Protection System. The silence 
of Program-level safety processes undermined oversight; when they did 
not speak up, safety personnel could not fulfill their stated mission 
to provide ``checks and balances.'' A pattern of acceptance prevailed 
throughout the organization that tolerated foam problems without 
sufficient engineering justification for doing so.'' CAIB, Volume 1, 
pages 177-178

     NASA has worked to change its culture and to ensure that decisions 
regarding Shuttle launches involve openness, opportunities for all 
levels of Shuttle employees to identify technical concerns and risks 
and to challenge decisions, and to have a forum in which NASA's human 
spaceflight personnel can be heard. An independent technical authority 
is now in place. In addition, NASA has in place a process for safety 
and mission assurance, a NASA Engineering and Safety Center, NASA 
Safety Center, and an Independent Verification and Validation Facility. 
How can Congress ensure that an equivalent or greater degree of 
institutional support is in place to foster a culture of safety and 
openness of technical debate and to provide technical analysis that may 
be needed to help reach decisions about the readiness to launch 
American astronauts into space on commercial crew transportation 
vehicles?

A5. Since issuance of the Columbia Accident Investigation Board report, 
NASA has embedded the elements of technical authority and an open 
culture within all of its processes. Senior leadership routinely 
espouses these ideals, and they are documented within the highest level 
of NASA policy and establish the basis from which technical authority 
(including not only the safety and mission assurance discipline, but 
also the engineering and health and medical disciplines) and the 
openness of technical debate are codified and encouraged, respectively, 
for all Agency activities. The key elements of NASA technical authority 
and openness to debate include checks and balances between the 
programmatic chain of command and the technical authorities related to 
risk-related decisions (and in the case of human activity checks and 
balances, include the involvement of the risk takers in the risk 
decision making). Opportunities for dissent and appropriate mechanisms 
to exercise and facilitate such dissent are also documented in NASA 
policy and apply to all activities in which the Agency participates or 
that the Agency performs. These concepts and requirements are 
documented in various levels of Agency documentation, but are 
highlighted in keystone policy documents of the Agency (NASA Policy 
Directive [NPD] 1000.0, the Governance and Strategic Management 
Handbook; NPD 8700.1, NASA Policy for Safety and Mission Success; and, 
NPD 7120.4, NASA Engineering and Program/Project Management Policy).
    The NASA management commitment to the concepts of technical 
authority and openness of technical debate, along with the documented 
policies and requirements related to these concepts, establishes the 
framework that permits effective implementation of the concepts. The 
framework is important, but the key to implementation is having the 
technical wherewithal and knowledge base to exercise authority and 
provide an independent voice in the technical debates. Elements of the 
safety and mission assurance, health and medical, and engineering 
communities funded via the Center Management and Operations budget 
establish the core of the independent technical authority within the 
Agency. Additionally, NASA recognized the need to establish independent 
sources of specialized, technically competent and qualified personnel 
to augment the technical authority, so the NASA Safety and Engineering 
Center, the NASA Safety Center, and the NASA Independent Verification 
and Validation facility were established and funded via the Agency 
Management and Operations budget.
    This infrastructure and culture will continue to apply to NASA 
endeavors, including commercial crew transportation vehicles for NASA 
astronauts. The Aerospace Safety Advisory Panel (ASAP) will continue to 
monitor application of our technical authority and checks and balances. 
The ASAP has been continuously evaluating NASA's implementation of the 
recommendations of the Columbia Accident Investigation Board, focusing 
on the checks and balances the Agency has instituted to arrive at 
informed decisions. The ASAP reports provide an independent assessment 
and should provide early indications if the NASA safety culture and 
technical authority begin to erode. Additionally, NASA collects safety-
related information though a variety of means, including internal 
surveys, external surveys, and when a mishap investigation board takes 
witness statements. Protecting this type of information from public 
disclosure will encourage open and honest communication about risks and 
potential mishaps. Further, it will assist in ensuring safety of the 
public and a safer workplace for employees, allowing managers to make 
more informed decisions about the risks associated with NASA's 
activities. NASA previously sought legislative authority to protect 
this safety-related information from public disclosure, and we 
recommend that Congress consider this as an element that will help 
maintain the open reporting of safety issues.

Q6.  What will the $5M requested for participatory exploration be used 
for and what are the objectives to be achieved? Which institution (NASA 
or external) will manage the program and what is the budget for the 
Participatory Exploration Office mentioned in the budget justification?

A6. Participatory Exploration is the active involvement of individuals 
in the experience of, as contributors to, and collaborators in, NASA's 
research, science and discovery activities. The program will increase 
the following:

        <bullet>  opportunities for personal connections with NASA and 
        its missions;

        <bullet>  public interest in STEM; and,

        <bullet>  NASA's access to the interest, knowledge, skills, 
        creativity and innovation that exists outside the NASA 
        community.

    However, to enable this, NASA must make its research, development 
and related discoveries more open and transparent. Additionally, 
participatory exploration must embody far more than simply exposing 
people to or educating them about NASA's discoveries and exploration 
activities. Participatory exploration must encourage individuals to 
contribute their creativity and capabilities to NASA's mission of 
discovery.
    President Obama has recognized the incredible benefits of 
participatory exploration for NASA and the Nation and has provided $5 
million in annual funding for NASA participatory exploration efforts as 
part of the FY 2011 budget request. Currently, Participatory 
Exploration is housed within NASA's ESMD. In general, it is envisioned 
that the Participatory Exploration Office would support research on new 
technologies that can increase public participation, coordinate NASA-
wide efforts to incorporate new participatory exploration approaches 
into future work, and act as a clearinghouse for identifying and 
communicating best practices both internally to NASA and externally to 
our communities. While maximizing the strong efforts NASA already 
places on reaching various audiences, Participatory Exploration will 
foster, facilitate and support active public engagement and 
collaboration by combining improved technology and Open Government 
practices to provide a broad spectrum of engagement possibilities for 
the maximum benefit of the public. The activities the Participatory 
Exploration Office supports and coordinates would help empower citizens 
to become not just consumers of NASA innovation but co-creators of 
knowledge and ideas to advance space exploration.

Questions submitted by Representative Ralph M. Hall


Q1.  The Augustine Committee noted that developing a new, safe, human-
rated spaceflight system would require a phased funding increase of $3 
billion per year above current levels. This Administration budget 
request does the contrary; it removes $5.8 billion (compared to the FY 
10 budget) from the program, yet asserts that commercial companies can 
get astronauts to low Earth orbit as safely as Constellation on a 
similar or better schedule.

        a.  What evidence or analyses convinced the Administration that 
        commercial providers can meet these performance goals? Please 
        provide the Committee with a copy of any analyses.

A1. NASA is in the process of developing a commercial crew development 
plan that would include requirements and performance goals for 
commercial crew providers. Upon receiving proposals, NASA will 
carefully evaluate those responses on an individual basis to determine 
if they meet the Agency's needs for the commercial crew program.
    With regard to any specific analysis, per Section 306 of OMB 
Circular A-11, ``Communications with Congress and the Public and 
Clearance Requirements, budget formulation documents and discussions 
are of a pre-decisional nature and thus cannot be provided for the 
public record. However, in general, the Administration relied heavily 
on the Augustine Report which stated that: ``Commercial services to 
deliver crew to low-Earth orbit are within reach. While this presents 
some risk, it could provide an earlier capability at lower initial and 
life-cycle costs than government could achieve. A new competition with 
adequate incentives to perform this service should be open to all U.S. 
aerospace companies. This would allow NASA to focus on more challenging 
roles, including human exploration beyond low-Earth orbit based on the 
continued development of the current or modified Orion spacecraft.'' 
The Committee also found, ``Moving towards commercial crew services 
will also contribute to the evaluation on Economic Expansion. Together 
with commercial launch services for cargo to the ISS, and potentially 
in-space refueling, the commercial crew options could further stimulate 
the development of a domestic competitive launch capability. 
Eventually, it could stimulate a commercial service for human transport 
to low-Earth orbit that would be available to other markets.''
    It is important to remember that at the highest level, the 
President and his staff, as well as the NASA senior leadership team, 
closely reviewed the Augustine Committee report, and we came to the 
same conclusion as the Committee: the human spaceflight program and the 
Constellation Program were on an unsustainable trajectory. Therefore, 
the President recognized that what was truly needed for beyond LEO 
exploration was game-changing technologies; making the fundamental 
investments that will provide the foundation for the next half-century 
of American leadership in space exploration.
    NASA understands that human space exploration has driven 
technological advances that have made the United States more 
competitive in the global economy. NASA's new path forward will not 
surrender the United States' leadership in space but rather will enable 
the Nation to pursue exploration in new ways. The FY 2011 budget 
request invests in commercial providers to transport astronauts to the 
ISS. By allowing commercial providers to provide more routine access to 
low-Earth orbit, NASA will once again be able to focus on the most 
difficult technological puzzles to solve such as building rockets that 
allow humans to reach other planets in days rather than months and 
protecting humans from radiation during interplanetary travel. NASA's 
FY 2011 budget request includes investments in a new space technology 
research and development, and a new heavy-lift and propulsion 
technology development program.
    More specifically, the FY 2011 budget request challenges NASA to 
develop the necessary capabilities to send Americans to places that 
humans have not explored before, including longer stays at exciting new 
locations on the Moon, near-Earth objects, strategic deep space zones 
called Lagrange points, and the planet Mars and its Moons. We have not 
sent people beyond LEO in 38 years, and this budget gives us the great 
opportunity to focus on scouting and learning more about destinations 
to further explore our solar system and to develop the game-changing 
technologies that will take us there. It is important that we pursue 
these objectives to continue leading the world in human space 
exploration.

Q2.  NASA's budget request for commercial crew and cargo procurements 
states that, ``Government requirements are kept to a minimum and are 
only concerned with assuring safe interaction with the ISS. The 
partners are not required to follow the standard NASA Program and 
Project Management Processes and Requirements, NPR 7120.5.'' In other 
places the budget says crew safety won't be compromised and your own 
testimony acknowledges the imperative of safety, yet NASA's ability to 
verify safety standards relies on NPR 7120.5.

        a.  How are we to interpret NASA's process for ensuring safety? 
        Will commercials be held to a lesser standard?

A2a. NASA is in the process of developing a plan that supports the 
development of commercial crew transportation providers to whom NASA 
could competitively award crew transportation services. NASA released 
the preliminary plan using a NASA Request For Information on May 21, 
2010. Responses were due on June 18, 2010 and NASA is in the process of 
reviewing and evaluating the responses. NASA plans to finalize the 
Commercial Human-Rating implementation plan in time to support an open-
competition when NASA pursues the development phase of commercial crew 
transportation systems.
    Safety is and always will be NASA's first core value, so the Agency 
will provide significant oversight over any commercial venture. U.S. 
astronauts will not fly on any spaceflight vehicle until NASA is 
convinced it is safe to do so. Therefore, we will establish strict 
oversight processes to ensure that our safety standards are met. At no 
point in the development and acquisition of commercial crew 
transportation services will NASA compromise crew safety. NASA has 
unique expertise and history in this area, and a clearly demonstrated 
record of success. NASA will bring that experience to bear in the 
appropriate way to make sure that commercial crew transportation 
services are a success both programmatically, and with respect to 
safety. For example, NASA has a Commercial Orbital Transportation 
Services (COTS) Advisory Team comprised of approximately 100 NASA 
technical experts from across the Agency. These experts work with our 
partners and review partner technical and programmatic progress for 
each milestone and provide progress assessments to NASA's Commercial 
Crew Cargo Program Office. Additionally, they participate in all major 
design reviews providing technical review comments back to our 
partners. The advisory team provides another method by which NASA gains 
confidence that our partners will be able to perform their flight 
demonstrations.
    One of the strengths of the COTS venture is that we let the 
companies do what they do best, that is developing truly unique 
spaceflight vehicles using innovative processes that aren't available 
within the Federal bureaucratic framework. We give them requirements 
that they have to meet and we ensure that they have met those 
requirements, but we try not to dictate how they meet those 
requirements. For example, each COTS partner must successfully verify 
compliance with a detailed set of ISS interface and safety requirements 
prior to their planned ISS berthing missions. These requirements are 
imposed on all Visiting Vehicles wishing to visit to the International 
Space Station (ISS). Both COTS partners are currently working with the 
ISS program on a daily basis to ensure they meet the ISS visiting 
vehicle requirements. This also helps to give NASA independent insight 
into their progress and it builds confidence in their abilities.
    With regard to commercial crew, at no point in the development and 
acquisition of commercial crew transportation services will NASA 
compromise crew safety. Simply put, U.S. astronauts will not fly on any 
spaceflight vehicle until NASA is convinced it is safe to do so. NASA 
has unique expertise and history in this area, and a clearly 
demonstrated record of success in transporting crew. NASA will bring 
that experience to bear in the appropriate way to make sure that 
commercial crew transportation services are a success both 
programmatically, and with respect to safety. At no point in the 
development and acquisition of commercial crew transportation services 
will NASA compromise crew safety. For example, NASA will have in-depth 
insight of the vehicle design via NASA personnel who are embedded in 
the contractor's facility. Additionally, NASA will impose strict 
requirements and standards on all providers that will be carefully 
evaluated and reviewed at multiple stages before a vehicle system is 
certified by NASA for crewed flight.

        b.  Has NASA examined potential cost and schedule impacts of 
        human rating requirements on the commercial launch industry?

A2b. It is not possible for NASA to examine potential cost and schedule 
impacts at this time, given that the impact of both issues would be 
individualized based on commercial proposals submitted to NASA. In the 
same vein, commercial providers have not yet been able to develop cost 
and schedule baselines because they are waiting for the FY 2011 budget 
to be approved and for NASA to issue procurement solicitations. 
Additionally, potential commercial providers will need to see and 
understand NASA's human-rating requirements which are planned to be 
complete no later than the end of this calendar year.

        c.  NASA's own management process for human-rating Ares and 
        Orion took many months and many iterations to develop specific 
        design requirements. What are the agency's plans for developing 
        and publishing human rating standards for commercial launch 
        companies?

A2c. NASA agrees with the Aerospace Safety Advisory Panel (ASAP), which 
stated, ``it is crucial that NASA focus on establishing the 
certification requirements, a certification process for orbital 
transportation vehicles, and a process for verifying compliance. The 
performance and safety requirements must be stated promptly and clearly 
to enable NASA and non-NASA entities to proceed in the most productive 
and effective manner possible.'' Therefore, NASA is working with the 
commercial partners to clearly articulate human rating processes and 
requirements that will contribute to the safe flight and safe return of 
NASA crewmembers on commercial space vehicles. NASA released the 
preliminary plan using a NASA Request For Information on May 21, 2010. 
Responses were due on June 18, 2010 and NASA is in the process of 
reviewing and evaluating the responses. NASA plans to finalize the 
Commercial Human-Rating implementation plan in time to support an open-
competition when NASA pursues the development phase of commercial crew 
transportation systems.'' The ASAP plans to complete work on the final 
human rating plan by the end of the calendar year.

        d.  Once standards are published, what is the process for 
        applying them to individual launch company systems? Will 
        requirements be tailored for each potential vendor, and how 
        long do you envision such a process to take?

A2d. While NASA is working to develop a new human-rating document that 
will have a series of generic requirements and standards, it is 
important to remember that human rating is a process that involves more 
than a simple set of design requirements; it is not cookie-cutter task. 
Instead, it is an intricate process of flowdown requirements that are 
translated into hardware designs; hardware tested against the 
requirements; design improvements developed and test; vehicles 
certified for flight; and risks understood with mitigation approaches 
in place. Additionally, NASA human rates an entire system, including 
ground elements and operational procedures (fundamentally, anything 
about the flight or ground system that impacts flight crew/passenger 
safety), not specific elements of a system. Therefore, additional 
human-rating plans will have to be developed based on the vehicle 
design characteristics for each proposed commercial system. Thus, those 
plans will be developed after selection for developmental funding.

        e.  Do you expect new space vendors will be required to fly 
        several demonstration missions to validate system safety and 
        reliability?

A2e. NASA does not plan to dictate a specific test program. It is 
envisioned that the commercial providers will propose a test program 
and NASA will assess those test programs as part of the Agency's 
evaluation of proposals and determination of rules.

Q3.  Currently the Shuttle program carries an enormous amount of 
infrastructure and related overhead-costs as part of its budget. If 
Constellation proceeds, in a similar vein it is likely NASA would also 
charge related infrastructure and overhead to the program.

        a.  In order to make an apples-to-apples comparison between 
        Constellation and the commercial crew proposal, where would the 
        costs of NASA's human spaceflight infrastructure and overhead 
        be borne under a commercial crew scheme?

A3a. It is assumed that NASA's human spaceflight infrastructure and 
overhead would not be borne by commercial providers, unless the 
providers required a part of that infrastructure. NASA would then have 
to explore options for providing that infrastructure on a reimbursable 
basis. NASA does not know what infrastructure will be needed by future 
commercial crew partners given that we have not yet seen their 
proposals. Additionally, NASA is continuing to evaluate the Agency's 
own needs for current facilities and property so as to determine what 
assets could be used by the new programs and projects outlined in the 
FY 2011 budget request.

        b.  If the commercial crew option is approved, going forward 
        how would NASA account for infrastructure and overhead-costs 
        formerly carried under the Shuttle program?

A3b. It is premature for NASA to answer this question at this time. 
First, NASA does not know what infrastructure will be needed by our 
commercial crew partners, given that we have not yet seen their 
proposals as part of a competitive bidding process. Second, NASA is 
still gathering information to make this decision.
    Following the release of the FY 2011 budget request, NASA 
established a series of study teams to understand the steps (and 
implications of those steps) that would be needed for an orderly 
transition to new initiatives outlined in the budget request. The 
Constellation Transition team, for example, is leveraging expertise 
from across the Agency to develop a rapid and cost effective ramp-down 
plan that will free the resources required for new programs. As part of 
the early characterization and integrated planning effort, this team 
has initiated a broad survey of current workforce, contracts, 
facilities, property, security, knowledge capture, information 
technology, and other Government agency interface issues to determine 
what NASA infrastructure and hardware could be used by the new programs 
and projects.
    It is important to note that NASA will be working to eliminate 
unneeded infrastructure going forward. Part of the reason that the 
Shuttle was so expensive was because it required a large ground 
infrastructure to refurbish orbiters, prepare them for flight, and 
launch them. NASA hopes to be able to replace elements of the Shuttle 
infrastructure with less costly alternatives.

Q4.  With regard to the Administration's heavy-lift launch vehicle 
proposal, who will build and operate them? Does NASA plan to rely on 
commercial operators for heavy-lift capabilities in the same manner as 
commercial crew?

        a.  Does NASA plan to use commercial providers to launch and 
        operate deep-space long-duration missions?

A4a. As outlined in the FY 2011 budget request, NASA will work with 
industry (and, to a lesser degree, academia) on research and 
development activities related to space launch propulsion technologies. 
This effort will include development of a U.S. first-stage hydrocarbon 
engine for potential use in future heavy lift (and other) launch 
systems, as well as basic research in areas such as new propellants, 
advanced propulsion materials manufacturing techniques, combustion 
processes, and engine health monitoring. Additionally, NASA will 
initiate development and testing of in-space engines. Areas of focus 
could include a liquid oxygen/methane engine and low-cost liquid 
oxygen/liquid hydrogen engines. This work will build from NASA's recent 
R&D experience in this area, and the test articles will be viewed as a 
potential prototype for a subsequent operational engine that would be 
restartable and capable of high acceleration and reliability. These 
technologies would increase our heavy-lift and other space propulsion 
capabilities and significantly lower operations costs--with the clear 
goal of taking us farther and faster into space consistent with safety 
and mission success criteria. In support of this initiative, NASA will 
explore cooperative efforts with the Department of Defense and also 
develop a competitive process for allocating a small portion of these 
funds to universities and other non-governmental organizations. This 
research effort along with many of our new technology initiatives will 
be coordinated with the broader Agency technology initiative led by 
NASA's new Chief Technologist. NASA will be aiming to decide the design 
of a new-heavy lift vehicle by 2015.

Q5.  How did the Administration develop its $6 billion estimate for the 
commercial crew program?

A5. With regard to how the Administration developed its estimate, 
budget formulation discussions are of a pre-decisional nature and thus 
cannot be provided for the public record. However, in general, industry 
input from previous competitions indicate that NASA's available funding 
could reasonably be expected to provide financial and in-kind support 
to up to four companies through the development period.

        a.  Does this budget cover projected development costs for at 
        least two launch companies, and does it assume initial 
        operating costs?

A5a. NASA is still developing the acquisition strategy for commercial 
crew efforts. However, in general, it would be NASA's preference to 
award development funding for multiple proposals, thus increasing the 
likelihood that multiple partners would succeed at developing a 
commercial crew vehicle. Then after the commercial crew services 
procurement is released, NASA could potentially select more than one 
partner to supply those services, thus providing redundancy of 
capabilities. The $6 billion for commercial crew is for development 
activities only, not services.

        b.  What contracting mechanism (e.g. Space Act Agreements, or 
        Federal Acquisition Register-based) does the agency intend to 
        use?

A5b. NASA is still developing the acquisition strategy for commercial 
crew efforts. Therefore, the Agency has not yet decided which 
contracting mechanism will be used for the development effort and/or 
eventual procurement of commercial crew services.

        c.  What assumptions were made regarding the amount of private 
        equity required to develop each system?

A5c. With regard to the assumptions used by the Administration to 
develop its estimate, budget formulation discussions are of a pre-
decisional nature and thus cannot be provided for the public record.
    However, it is important to remember that NASA did not specify a 
minimum level of cost sharing for Commercial Orbital Transportation 
Services partners because the Agency felt that it would be 
inappropriate to prejudge a potential partner's business case. NASA 
reviewed each proposal as a whole, and assessed each proposal based on 
its own merits. That included review and evaluation of the type of 
vehicle system proposed, the development process proposed, as well as 
market factors such as the potential for other non-Government 
customers, the amount of investment each company plans to contribute, 
the company's experience in similar endeavors, etc. No single factor is 
necessarily more important than another. NASA will likely implement a 
similar strategy for commercial crew selection.
    In addition, it is noteworthy to point out what the Augustine 
Committee said about the costs of potential crew cargo program: 
``Comparing the scope of providing a commercial crew capability to the 
cost of historical programs offers a sanity check. In the existing COTS 
A-C contracts, two commercial suppliers have received or invested about 
$400-$500 million for the development of a new launch vehicle and 
unmanned spacecraft. Gemini is the closest historical program in scope 
to the envisioned commercial crew taxi. In about four years in the 
early- to mid-1960s, NASA and industry human-rated the Titan II (which 
required 39 months), and designed and tested a capsule. In GDP-
inflator-corrected FY 2009 dollars, the DDT&E cost of this program was 
about $2.5-3 billion, depending on the accounting for test flights. 
These two comparatives tend to support the estimate that the program 
can be viable with a $5 billion stimulus from NASA.''

Q6.  Under the Administration's commercial crew proposal, how many 
privately-financed launches that would be required on an annual basis 
in order to provide sufficient operating efficiencies to meet NASA's 
assumed launch and operating costs? Please provide copies of any 
analyses used to develop these estimates.

A6. These estimates do not exist because they depend on commercial 
proposals that have not yet been solicited.

Q7.  The budget proposal suggests precursor missions to several 
possible locations, such as the Moon, Mars and Lagrange Points. What 
are the value of such missions if we've already put robotic spacecraft 
there; what goals would such missions accomplish, and how do they 
contribute to NASA's newly-defined mission?

A7. A key contributor to a robust exploration program will be the 
acquisition of critical knowledge gained through the pursuit of 
exploration precursor robotic missions. Led by ESMD, this effort will 
send precursor robotic missions to candidate destinations that will 
pave the way for later human exploration of the Moon, Mars and its 
moons, and nearby asteroids.
    Like the highly successful Lunar Reconnaissance Orbiter (LRO) and 
Lunar Crater Observation and Sensing Satellite (LCROSS) missions that 
captured the Nation's attention last fall, future exploration precursor 
missions will scout locations, gather key knowledge and demonstrate 
technologies to identify the most compelling and accessible places to 
explore with humans and validate potential approaches to get them there 
and back safely. These missions will provide vital information--from 
soil chemistry to radiation dose levels to landing site scouting to 
resource identification--necessary to plan, design and operate future 
human missions. These missions will help us determine the next step for 
crews beyond LEO, answering such questions as: Is a particular asteroid 
a viable target for crewed mission? Do the resources at the lunar poles 
have the potential for crew utilization? Is Mars dust toxic? Dedicated 
precursor exploration missions are planned to remain below $800 million 
in total cost, and many will be considerably less expensive. NASA plans 
to begin funding at least two dedicated precursor missions in 2011, and 
to identify potential future missions to begin in 2012 and/or 2013.
    Additionally, a new portfolio of explorer scouts will execute 
small, rapid turn-around, highly competitive missions to exploration 
destinations. Generally budgeted at between $100 million and $200 
million lifecycle cost, these missions will allow NASA to test new and 
innovative ways of doing robotic exploration of destinations of 
interest to future human exploration. Selected projects may provide 
multiple small scouting spacecraft to investigate multiple possible 
landing sites, or provide means of rapid-prototyping new spacecraft 
approaches.

Q8.  NASA's proposal appears to repudiate the use of solid rocket 
motors on human-rated launch systems by eliminating the Ares 1 and Ares 
5 launch vehicle developments, and by emphasizing research into new 
heavy-lift hydrocarbon-based liquid motors. Is the Administration 
opposed to utilizing solid rocket motors in manned systems, and if so, 
what is its rationale?

A8. On April 15, 2010, the President laid out the goals and strategies 
related to the FY 2011 budget request for human exploration of our 
solar system, including a sequence of deep-space destinations matched 
to growing capabilities, progressing step-by-step until we are able to 
reach Mars. In doing so, he also announced that in addition to 
investing in transformative heavy-lift technologies, he will commit to 
make a specific decision not later than 2015 on the development of a 
new heavy-lift architecture. A decision no later than 2015 means that 
major work on building a new heavy-lift rocket will likely begin two 
years earlier than under the Constellation Program.
    In support of that timeline, NASA will begin heavy lift vehicle 
system analyses on various launch vehicle concepts to determine the 
best approach that meets the affordability and reliability figures of 
merit. The Administration is not opposed to using solid rocket motors. 
Concept heavy-lift vehicles could include solid rocket motors as well 
as liquid strap-ons and all concepts will be evaluated during a 
rigorous systems analysis effort to identify the best configuration to 
meet the Nation's needs.

Q9.  NASA initiated Cargo Resupply Services contracts with potential 
service providers before any of the COTS systems have been 
demonstrated. The agency has also made initial payments in the absence 
of demonstration flights. What is the agency's back-up plan to re-
supply ISS if a commercial cargo provider is unsuccessful or goes out 
to business?

A9. Two companies, Space Exploration Technologies (SpaceX) and Orbital 
Sciences Corporation have funded Space Act Agreements with NASA as part 
of the COTS project to demonstrate cargo transportation to ISS. At this 
time, SpaceX plans to conduct its first NASA demonstration cargo 
mission supply to ISS in tentatively September 2010, and Orbital 
Sciences Corporation in June 2011. The actual purchase of cargo 
services to ISS is being conducted through the separate ISS Commercial 
Resupply Services (CRS) procurement effort. In December 2008, NASA 
awarded CRS contracts to SpaceX and Orbital Science Corporation for 
cargo delivery beginning as early as late 2010. NASA is pre-positioning 
spares onboard the ISS with the final Space Shuttle logistics flights 
to provide some margin for delay in commercial cargo services. Beyond 
that, there is no planned back-up capability for ISS commercial cargo. 
Timely commercial cargo capability is critical for effective ISS 
operations. Without commercial cargo capability, the crew size and 
research operations planned for ISS would need to be reduced.
    NASA will also rely on the transportation capabilities of Russia, 
the European Space Agency (ESA) and Japan to transport cargo to ISS. 
Russia's Progress vehicle has been providing cargo services to ISS 
through a contract with NASA. The ESA Automated Transfer Vehicle (ATV) 
had a successful initial flight to the Space Station in 2008. The 
Japanese HII Transfer Vehicle (HTV) had a successful initial flight to 
ISS in 2009. ESA's and Japan's services are provided through barter 
agreements. It should be noted that NASA does not plan to continue to 
procure Progress cargo resupply services after 2011, opting instead to 
rely on U.S. commercial cargo delivery capabilities provided through 
Commercial Resupply Services contracts.

Q10.  The budget proposes an aggressive and expensive spending program 
($1.93 billion) to transform the Kennedy Space Center into a modern 
launch complex, yet the level of detail in the budget justification is 
vague. For instance, it uses the phrase: ``areas under consideration 
include . . .'' There is nothing in the current plan that would launch 
from the Kennedy Space Center. All the potential commercial providers--
ULA, SpaceX, Orbital Sciences--use launch facilities away from KSC. 
This is true for the Eastern Test Range as well, which is controlled 
from Cape Canaveral Air Force Station. How did NASA develop the 
estimate and why at Kennedy Space Center?

A10. The 21st Century Space Launch Complex Program is an initiative to 
focus on upgrades to the Florida launch range, expanding capabilities 
to support commercial cargo providers, and transforming KSC into a 
modern facility. NASA's infrastructure at KSC was originally designed 
to support the Apollo Program, and was later modified for the Space 
Shuttle. While this infrastructure has served America well, ongoing 
concerns about its age have led the Agency to develop this $1.9B range 
upgrade initiative, based on the longstanding need to modernize 
integration and operations infrastructure. This effort will be closely 
coordinated with the United States Air Force (USAF), the Federal 
Aviation Administration (FAA), and the space user community to develop 
a requirements plan. This will help ensure that KSC and the larger 
range shared with Cape Canaveral Air Force Station can continue to 
serve as a robust, flexible launch site for civil, military, and 
commercial missions for decades to come.
    NASA currently has a team working with the USAF and FAA on the 
specific details of the initiative, but the primary focus is to make 
investments in overall launch and processing operations.
    In support of this goal, NASA has revisited previous activities 
that have addressed future launch/range technologies and capabilities 
(ex., the Launch Enterprise Transformational Study), and formed teams 
at KSC to prepare an initial list of proposed projects. In addition, 
Agency representatives have been meeting with commercial and government 
agencies and organizations to initiate relationships. NASA plans to 
release a Request for Information (RFI) in the near future to request 
infrastructure and capabilities needs and associated timelines from 
potential customers. NASA will also establish Customer Advocates for 
each entity showing an interest in building relationships and 
assisting/enabling market entry, recognizing that future commercial 
users may not be limited to those currently involved in the Commercial 
Orbital Transportation Services (COTS) and Commercial Resupply Services 
(CRS) efforts. It is particularly important to begin this effort as 
soon as possible in order to effectively utilize the time between the 
retirement of the Space Shuttle and the operational availability of 
future systems to implement facilities upgrades.

Q11.  The five year run-out for the Science Mission Directorate (SMD) 
clearly favors new spending for Earth Sciences, while the other 
divisions (Planetary Sciences, Astrophysics, and Heliophysics) grow 
slowly or are flat-funded. Earth Sciences is proposed to receive a 
$380M increase in FY 2011 (versus FY 2010 enacted) and $1.8B additional 
over the five year run-out to accelerate development of new missions 
recommended in the Decadal Survey. Earth Sciences' share of the SMD 
budget grows from 30 percent in FY 2009 to 40 percent in FY 2015. Is 
this an appropriate balance? How will the other science divisions be 
able to respond to upcoming decadal surveys due out later this year?

A11. The President's FY 2011 budget request for NASA reflects the 
Administration's commitment to science and innovation broadly and also 
its commitment to address the challenge of climate change. NASA is 
essential to the nation's efforts on both fronts. Earth observations 
from space and the research to turn those data into scientific 
understanding and practical applications are indispensable to climate 
change research, mitigation, and adaptation.
    The FY 2011 budget request for Earth Science at NASA continues the 
reverse of a substantial decline in national investment in that program 
since FY 2000. In fact, the trend set by the FY 2011 budget request 
will by FY 2015 restore NASA's Earth Science program to the buying 
power it had in FY 2000. As a consequence of the decline in funding 
since FY 2000, NASA's fleet of Earth observing satellites--which 
provide most of the global observations employed in national and 
international climate change research--has not been refreshed at a rate 
commensurate with satellite design lifetimes or the need for advances 
in important science questions. The FY 2010 budget request and 
Appropriations put the NASA Earth Science missions currently in 
development on a firm budgetary path to successful completion, and the 
President's FY 2011 Budget Request enables development and launch of 
the first Tier of Decadal Survey missions by 2017 and of two Tier 2 
missions by 2020. This accomplishes half of the Decadal Survey mission 
recommendations in the time frame proposed by the National Academies of 
Science. The funded accelerations of Decadal Survey missions and the 
addition of key climate continuity measurement missions constitute a 
robust, responsible, and world-leading capability for climate change 
research. This is the capability the Nation needs.
    With regard to how other NASA Science Mission Directorate divisions 
will be able to respond to their Decadal Surveys, the schedule for 
release by the National Academies of Science and the corresponding 
first budget request to be influenced by those Surveys is as follows:
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    NASA will work with the Administration and the Congress to craft an 
optimal implementation of these Decadal Surveys' recommendations 
consistent with budget guidelines and constraints that pertain at the 
time.

Q12.  What compelled the Administration to cancel production of Orion? 
It includes advanced technologies, many of which are identified in 
NASA's budget plan as candidates for flagship and enabling technology 
demonstrations, such as closed-loop life support systems, automated 
rendezvous and docking, and radiation shielding technology. Wouldn't it 
be more prudent to continue with its design and production instead of a 
clean sheet approach?

A12. On April 15, 2010, President Obama laid out the goals and 
strategies for his new vision for NASA. In doing so, he outlined how he 
wants NASA to restructure the Orion Crew Exploration Vehicle project to 
design a simpler and more efficient capsule that will be focused on 
crew emergency escape from the International Space Station. Under the 
Constellation Program, the Orion crew capsule was intended to house 
astronauts during their travel to the International Space Station and 
later missions to the Moon. It also was to be capable of docking at the 
Space Station for six months and returning crews to the Earth.
    Per the President's direction, NASA will build on the good work 
already completed on the Orion crew capsule and focus the effort to 
provide a simpler and more efficient design that would provide crew 
emergency escape from the ISS and serve as part of the technical 
foundation for advanced spacecraft to be used in future deep space 
missions. This approach also will preserve a number of critical high-
tech industry jobs in key disciplines needed for our future deep space 
exploration program.
    We have put together a formulation team including Headquarters and 
Center personnel to develop a baseline approach that meets these 
requirements, balanced with the other priorities proposed in the 
President's FY 2011 budget request. This team will report to the 
Administrator on how best to meet these requirements.
    The team has been directed to align this work so that it 
complements, and does not compete with, our commercial crew development 
effort. In this manner, we will simplify the requirements for potential 
crew service providers to the ISS by having the restructured Orion 
effort fulfill the important safety requirement of emergency escape 
system for astronauts on the ISS. The formulation team will also focus 
on innovative approaches to oversight, and believe that we can 
significantly reduce oversight requirements based on lessons learned in 
previous focused development flight programs. We must accomplish this 
activity more efficiently and effectively to maintain a healthy funding 
balance across our exploration priorities. And this will be done 
without reducing our commitment to safety for crew escape. The crew 
rescue mission has many fewer requirements than the deep space mission, 
providing design flexibility and reducing the system's lifecycle cost. 
Finally, the team must identify how this activity will align with the 
development efforts proposed in the Flagship Demonstration program as 
well as our other technology efforts so that investments in these 
programs can be leveraged to the greatest extent possible.
    The funding for this restructuring will come within NASA's top-line 
request released in February. The out year funding requirements will be 
refined as part of the President's FY 2012 budget submission.

Q13.  We understand NASA leadership and the Augustine Committee 
received approaches from Constellation contractors to streamline the 
current program. These approaches offered ways to reduce Constellation 
program cost and accelerate the schedule. What is NASA's rationale for 
rejecting this approach--which had fairly mature cost, risk and 
schedule estimates--in favor of opting for a clean sheet approach with 
much greater level of unknowns?

A13. Budget formulation discussions are of a pre-decisional nature and 
thus cannot be provided for the public record.
    However, in general, at the highest level, the President and his 
staff, as well as NASA senior leadership, closely reviewed the 
Augustine Committee report, and came to the same conclusion as the 
Committee: The Constellation Program was on an unsustainable 
trajectory. They determined that, given the current budget environment, 
Constellation's funding needs would have required terminating support 
of the International Space Station in 2016 and NASA would not have had 
sufficient resources to significantly advance the state of the art in 
the technology areas that would be needed to enable lowering the cost 
of heavy-lift access to space, and developing closed-loop life support; 
advanced propulsion technology; and radiation protection and other 
technologies on a faster schedule. The President determined that what 
was truly needed for beyond LEO exploration was game-changing 
technologies; making the fundamental investments that will provide the 
foundation for the next half-century of American leadership in space 
exploration. At the same time, under the new plan, NASA would ensure 
continuous American presence in space on the ISS throughout this entire 
decade, re-establish a robust and competitive American launch industry, 
start a major heavy lift technology program years earlier, and build a 
technological foundation for sustainable beyond-LEO exploration of our 
moon, near-Earth asteroids, Lagrange points, and ultimately Mars.

Questions submitted by Representative Gabrielle Giffords

Q1.  As you know, the Constellation Program's Ares crew launch vehicle 
is being designed to meet Columbia Accident Investigation Board and 
Astronaut office requirements that the Shuttle's replacement be at 
least 10 times safer than the Space Shuttle.

        a.  Will NASA require that commercial crew transportation 
        alternatives be 10 times safer than the Shuttle? If not, why 
        not?

A1a. Safety is and always will be NASA's first core value, so we will 
provide significant oversight over any commercial venture. Simply put, 
U.S. astronauts will not fly on any spaceflight vehicle until NASA is 
convinced it is safe to do so.
    To date, NASA has not specified a Loss of Crew requirement for 
commercial crew transport, but will do so as part of the acquisition 
strategy process currently in progress. However, we intend for 
Commercial Crew to be much safer than the Space Shuttle.

        b.  How will NASA verify that selected commercial crew 
        alternatives selected meet the safety standard set by NASA?

A1b. NASA is in the process of developing a plan that supports the 
development of commercial crew transportation providers to whom NASA 
could competitively award crew transportation services. NASA released 
the preliminary plan using a NASA Request For Information on May 21, 
2010. Responses were due on June 18, 2010 and NASA is in the process of 
reviewing and evaluating the responses. NASA plans to finalize the 
Commercial Human-Rating implementation plan in time to support an open-
competition when NASA pursues the development phase of commercial crew 
transportation systems.
    As noted earlier, U.S. astronauts will not fly on any spaceflight 
vehicle until NASA is convinced it is safe to do so. Therefore, we will 
establish strict oversight processes to ensure that our safety 
standards are met.
    At no point in the development and acquisition of commercial crew 
transportation services will NASA compromise crew safety. NASA has 
unique expertise and history in this area, and a clearly demonstrated 
record of success. NASA will bring that experience to bear in the 
appropriate way to make sure that commercial crew transportation 
services are a success both programmatically, and with respect to 
safety.

Q2.  During your remarks introducing the FY 2011 budget request, you 
referenced the commercial space industry's claim that as many as 5,000 
new jobs would be created. What is the basis for this estimate and has 
NASA independently verified the likelihood of that claim? What is the 
nature of the jobs created?

A2. The 5,000 figure should be considered a low end initial estimate. 
The Tauri Group, using U.S. Bureau of Economic Analysis model Regional 
Input-Output Modeling System (RMIS II) estimated an overall average of 
more than 11,800 jobs per year over five years with a peak of 14,200 
jobs in FY 2012. NASA is trying to reduce the cost needed to support 
commercial spaceflight and believes that these approximate contractor 
workforce levels will be reflected in their proposal submissions.

Q3.  The Augustine Committee report pointed out the importance of 
sustaining critical national skills such as the capability to produce 
solid rocket boosters when it stated: ``Special attention needs to be 
devoted to assuring the vitality of those portions of the workforce 
that represent critical and perishable skills that are unique to the 
space program. One example is the design and manufacturing of very 
large, solid propellant motors.''

        a.  To what extent do the Administration's proposed plans 
        address this workforce issue?

A3a. NASA is very cognizant of the workforce and industrial base issues 
mentioned in Section 9.3 of the Report, NASA Management Challenges. The 
management challenge was well stated, in that ``only a modest fraction 
of jobs generally fits the `critical, perishable, and unique' 
criterion.'' The proposed FY 2011 budget invests heavily in advanced 
technology, which will allow NASA to invest in the critical skills 
associated with these technologies. NASA will work towards a no later 
than 2015 decision on the design of a heavy-lift launch vehicle. While 
a key focus of early R&D will be on a hydrocarbon engine, a range of 
design options will be considered. NASA will provide special attention 
to identifying those critical skills required to enable this range of 
design options.
    NASA has been in the process of planning for the transition of its 
workforce after the retirement of the Space Shuttle since 2004. While 
the proposed transition away from the Constellation Program would 
change the array of projects available to workers moving forward from 
Shuttle, many of the transition practices and Federal/state/local 
networks set up in affected areas will be applicable to this new 
transition challenge. These practices have included an effort to ensure 
that critical skills are retained by providing a career path to 
meaningful follow-on work in other programs, maintain NASA's quality 
workplace by providing a collaborative and creative environment, and 
support career development and learning opportunities. NASA is 
committed to transitioning the key Space Shuttle civil servant 
workforce to other Agency programs as necessary using tools such as 
workforce synergy, matrixing, detailing, and retraining. In addition, 
Centers identify opportunities for the placement of employees with 
needed skills in other organizations.
    To ease the transition for workers dislocated while the new space 
strategy is being implemented, the President has dedicated up to $100M 
of the funds requested for the Constellation transition to promote 
economic growth and job creation. At least $40M of those monies will be 
dedicated to transforming the regional economy around the Kennedy Space 
Center (KSC) and prepare its workforce for these new opportunities. On 
May 3, the President identified a high-level team of senior officials 
from the Departments of Defense, Commerce, and Labor as well as NASA 
and the White House to develop a plan for regional economic growth and 
retraining dislocated workers to pursue new work opportunities. The 
team will report its recommendations to the President by August 15.
    Currently, NASA plans to provide an update of its Workforce 
Transition Strategy to Congress last this year. In addition, on June 
28, the Agency provided Congress with more qualitative update on 
ongoing transition efforts since last summer.

        b.  Have any industrial base impact assessments been performed 
        by NASA or the administration on the potential cost increases 
        to other government agencies or loss of industrial base 
        capabilities if systems or materials that are critical to 
        national security are no longer procured by NASA? If so, please 
        provide the assessment to this Committee.

A3b. NASA has not conducted any formal assessments in these areas. 
However, NASA worked with Defense officials to develop a plan to 
maintain the intellectual and engineering capacity, including key 
workforce skills, to support next-generation rocket motors as needed. 
The task force is co-chaired by the Office of the Secretary of 
Defense's Acquisition, Technology, and Logistics office and NASA and 
includes representatives from the Department of Defense, NASA, the 
Missile Defense Agency, the Air Force, the Army, and the Navy. This DOD 
report, entitled ``SRM Industrial Base Interim Sustainment Plan'' was 
released to Congress on June 23, 2010.

Q4.  You testified that ``While . . . we cannot provide a date certain 
for the first human visit, with Mars as a key long-term destination we 
can identify missing capabilities needed for such a mission and use 
this to help define many of the goals for our emerging technology 
development.'' When can the Committee expect to see a technology 
roadmap for Mars? When will NASA have a plan that outlines how the new 
technology initiatives will address the goals in a Mars technology 
roadmap?

A4. The President's FY 2011 budget request outlines an innovative 
course for human space exploration, but does not change our goal--
extending human presence throughout our solar system. NASA's 
exploration efforts will focus not just on our Moon, but also on near-
Earth asteroids, Lagrange points, and ultimately Mars. The President 
has voiced his commitment to sending humans to orbit Mars by the mid-
2030s with a landing on Mars to follow. While we cannot provide a date 
certain for the first human visit, with Mars as a key long-term 
destination we can identify missing capabilities needed for such a 
mission and use this to help define many of the goals for our emerging 
technology development. The research and technology investments 
included in this budget describe the many near-term steps NASA will be 
taking to cultivate the new knowledge and breakthrough capabilities 
required for humans to venture beyond low-Earth orbit (LEO) to stay.
    NASA's Exploration Systems Mission Directorate (ESMD) will lead the 
Nation on this new course of discovery and innovation, providing the 
technologies, capabilities and infrastructure required for sustainable, 
affordable human presence in space. Many of these capabilities have 
been recommended consistently for at least 24 years in national level 
reports of committees and commissions addressing future human space 
exploration. ESMD's investment in gaining critical knowledge about 
future destinations for human exploration, as well as transformational 
technology development and demonstration will serve as the foundation 
of NASA's ongoing space exploration effort, broadening opportunities 
for crewed missions to explore destinations in our solar system that we 
have not been to before. We have not sent people beyond low-Earth orbit 
in 38 years, and this budget gives us the great opportunity to focus on 
scouting and learning more about destinations to further explore our 
solar system and to develop the game-changing technologies that will 
take us there. It is important that we pursue these objectives to 
continue leading the world in human space exploration.
    Pursuant to the President's proposed new course, NASA has initiated 
planning activities to be able to effectively and efficiently implement 
these new activities in a timely manner upon Congressional enactment of 
the FY 2011 budget. In April, NASA outlined for the Committee the 
Agency's planned major program assignments across the Agency's Centers 
for new or extended activities proposed as part of the President's FY 
2011 budget request. These planned assignments build on the deep 
knowledge and expertise that NASA has built up over five decades, 
recognize the wealth of experience, commitment, and expertise resident 
at the NASA Centers, and expand upon the strengths at each Center. 
Additionally, following the release of the FY 2011 budget request, NASA 
established study teams within ESMD to ensure we understand the steps 
(and the implications of those steps) that would need to be taken for 
an orderly transition of the Constellation Program and to plan for the 
implementation of the new initiatives in the Exploration program. The 
work undertaken by these teams is a necessary part of that planning.
    NASA is taking prudent steps to plan for the new initiatives 
included in the FY 2011 budget request, including Requests for 
Information (RFI), workshops, and preliminary studies.
    NASA is eager to seek external input from industry, academia, and 
other partners, and plans to accomplish this via a series of RFIs and 
industry workshops conducted this spring and into the summer. Doing so 
will ensure that NASA receives important feedback from our space 
partners before it begins to finalize its implementation plans for the 
proposed technology demonstrations and human spaceflight systems 
development activities that will be supported by the FY 2011 budget, 
once approved by Congress. During CY 2010, NASA plans to issue a series 
of program formulation documents seeking input from the broader space 
community.
    Finally, NASA also has established the Human Exploration Framework 
Team (HEFT) to serve as a cross-Agency planning activity. The team is 
being led by the Exploration Systems Mission Directorate and staffed 
with technical leaders from across NASA Centers. The team is focused on 
developing and reviewing the integrated set of requirements and 
technologies required for future human spaceflight missions to many 
destinations, including Mars. As part of its broad integration charter, 
HEFT will develop implementation recommendations on the performance and 
pacing requirements for the technologies needed for future human 
exploration missions using ``design reference missions,'' or DRMs. 
These DRMs will be the basis for validating capabilities and missions 
for five, 10-, and 15-year horizons, with milestones including crewed 
missions beyond the Moon into deep space by 2025, sending astronauts to 
an asteroid, and eventually landing on Mars. NASA expects to have 
initial products from the HEFT team this summer.

Q5.  Who will assume the liability for accidents involving commercial 
space transportation vehicles carrying U.S. government employees or 
carrying researchers paid with government funds?

A5. NASA is still developing the acquisition strategy for commercial 
crew efforts. Therefore, it is premature to specifically address how 
liability will be addressed in connection with the Agency's acquisition 
of crew transportation services. The answer to this question may depend 
on what type of contract the Agency chooses to utilize to develop and 
eventually procure crew transportation services, the role that any 
licensing or regulatory agency may play in Agency crew transportation 
services, and the availability of private insurance for these services.

Q6.  Some emerging ``commercial'' companies have indicated publicly 
that they intend to keep all development and production efforts 
internal to ``reduce cost.'' Under this plan, would the ``commercial'' 
providers be required to comply with the same small/small disadvantaged 
business requirements as the current government contractors? What 
effect would relaxing that requirement have on the thousands of small 
businesses who depend on government programs to remain viable? 
Currently NASA contractors are required to foster economic development 
by partnering with small businesses, specifically, small disadvantaged 
businesses, historically black universities, and minority institutions. 
Would these same requirements exist for commercial suppliers under the 
new program?

A6. Although NASA is still developing the acquisition strategy for 
commercial crew efforts, NASA will ensure that once final, this effort 
will take into account all applicable laws and regulations. However, it 
is premature to specifically address how requirements for small and 
disadvantaged businesses will apply to the Agency's commercial crew 
efforts because the answer to that question will depend on what type of 
contract the Agency uses to develop and eventually procure commercial 
crew services.

Q7.  Approximately how much of the budget of the Constellation program 
pays for facility operations and other overhead functions that are 
shared with other programs? If the Constellation program is cancelled 
as the Administration is proposing, how will these shared costs be 
reallocated to other programs? Which programs will be affected? Please 
provide the committee with an estimate of how much additional cost will 
be borne by each affected program.

A7. NASA's budget has discrete appropriations for Center Management and 
Operations and Agency Management and Operations, so the ``facility 
operations and other overhead functions that are shared with other 
programs'' paid for by Constellation are limited to human space flight 
programmatic functions shared with the Shuttle program and to some 
extent the International Space Station program.
    Since much of the unaffordability issue that led to the decision to 
transition away from Constellation is due to absorbing legacy 
facilities, capacity and costs, NASA has substantial incentive to 
reduce human spaceflight facilities and overhead costs rather than pass 
them on to future programs. NASA is in the process of assessing what 
infrastructure and hardware would be needed by the new programs and 
projects outlined in the FY 2011 budget. Also, NASA does not know what 
infrastructure will be needed by our commercial crew partners, given 
that we have not yet seen proposals from a competitive bidding process.

Q8.  According to the NASA Fiscal Year 2011 Budget Estimates, one of 
the potential missions mentioned for the Precursor Robotic Missions 
program is a ``lunar mission to demonstrate tele-operation capability 
from Earth . . . including the ability to transmit near-live video to 
Earth.'' At the same time, the Google Lunar X Prize website states that 
``the Google Lunar X Prize is a $30M competition for the f rst 
privately funded team to send a robot to the moon, travel 500 meters 
and transmit video, images and data back to Earth.'' What is the added 
value of NASA's proposed mission?

A8. One of the first two candidate missions being considered as part of 
the proposed Exploration Precursor Robotic Program is a mission 
involving a lunar lander and a robotic rover. Such a mission would help 
to verify the findings of NASA's Lunar Reconnaissance Orbiter (LRO) 
mission, which launched in June 2009. The LRO mission has a one-year 
primary mission to develop a highly detailed, topographic map of the 
lunar surface--the highest resolution and most comprehensive data set 
ever returned from the Moon.
    While the LRO mission orbited the Moon, a lunar precursor mission 
with a robotic rover would allow NASA to have a vehicle on the lunar 
surface that would be used to verify LRO observations from space 
(topography, lighting, volatiles, surface radiation, etc.). The lander 
would also provide risk reduction of future human spaceflight through 
demonstrations of important technologies (ISRU, autonomous hazard 
avoidance and landing) and enhance experience with surface operational 
concepts. Additionally, the landers will be equipped with high 
definition video cameras sending exciting video back to Earth that will 
help inspire the next generation of engineers and scientists.
    To some it may appear that this proposed mission is similar to the 
Google X-Prize. However, this comparison is inaccurate for several 
reasons, including:

        <bullet>  While the Google X-Prize is designed to foster 
        commercial capability in the realm of space exploration, 
        provide a venue for new commercially-developed technologies, 
        and to stimulate public interest, NASA's precursor mission will 
        reduce risk through measurements of hazards and demonstrations 
        of important technologies, and enable and inform human 
        exploration objectives, while also seeking opportunities for 
        partnerships and engagement with the public.

        <bullet>  With regard to mission, Google X-Prize participants 
        will attempt land a rover on the lunar surface, travel 500 
        meters over the surface and then send back video and data. 
        (There are additional ``bonus'' awards for longer durations, 
        longer distances, imaging of Apollo sites, etc.) In contrast, 
        NASA's precursor mission will include a payload to address 
        important investigations as a precursor to enable and inform 
        human exploration. Although the candidate mission payload and 
        its selection process are still being defined, NASA currently 
        intends for the payload to include a larger complement than 
        just a camera. Candidate investigations may include radiation 
        measurements to enhance the safety of future human explorers, 
        in situ resource utilization experiments and related 
        measurements such as volatile mass spectroscopy or dynamic 
        albedo neutron spectroscopy, to enhance exploration 
        sustainability.

        <bullet>  The low-cost Google X-prize missions may be limited 
        in their reach on the Moon's surface, and unlikely to be 
        capable of reaching many high value destinations such as the 
        lunar poles.

    While different, NASA's mission and the X-Prize also could be 
complimentary. Therefore, NASA looks forward to capitalizing on any 
capabilities developed by X-Prize competitors.

Q9.  The NASA Authorization Act of 2008 directed NASA to establish an 
intra-Directorate, long-term technology development program for space 
and Earth science within the Science Mission Directorate for the 
development of new technology and structured to include competitively 
awarded grants and contracts. To date, such a program has not been 
established. Given the enormous amounts of taxpayer dollars that the 
Administration is requesting to support NASA-sponsored advanced 
technology developments, what is the rationale for not following the 
direction Congress established in the 2008 law?

Background: The relevant portion of the 2008 NASA Authorization Act 
says:
SEC. 501. TECHNOLOGY DEVELOPMENT.

The Administrator shall establish an intra-Directorate long-term 
technology development program for space and Earth science within the 
Science Mission Directorate for the development of new technology. The 
program shall be independent of the flight projects under development. 
NASA shall have a goal of funding the intra-Directorate technology 
development program at a level of five percent of the total Science 
Mission Directorate annual budget. The program shall be structured to 
include competitively awarded grants and contracts.

A9. NASA believes the approach to managing and funding technology 
development reflected in the President's FY 2011 Budget Request, 
coupled with technology programs already in existence in the Science 
Mission Directorate (SMD), meet and exceed the goals of the NASA 
Authorization Act of 2008. The technology goals stated in the Act and 
NASA's approach to achieve them are:
    Development of new technologies: Future science objectives and 
missions recommended by National Academy of Sciences decadal surveys 
received or underway (as well as mission concepts to be proposed in 
response to future competitive solicitations) will require 
technological capabilities beyond those in hand to day to make them 
possible, affordable, or both. These include: drilling, sample 
handling, ascent, rendezvous, and return for Mars Sample Return; in-
space propulsion and radiation hardening for future outer planets 
missions; precision maneuvering and control for multi-spacecraft 
astronomical observatories; and multi-frequency lasers and high-
precision lidars for three-dimensional profiling of changes in Earth's 
atmosphere and surface.
    NASA's SMD is investing in these and other technologies, guided by 
the decadal surveys and science community's expression of future needs. 
SMD's investment is focused on maturing specific technologies to the 
point where they can be successfully incorporated from a technical risk 
standpoint into instrument and mission proposals. NASA's new Office of 
the Chief Technologist (OCT) is developing plans to implement 
technology developments that address multiple NASA Mission Directorates 
and or other government agencies needs and run the full range on the 
TRL scale from advanced system concepts to flight demonstrations.
    Independent of flight projects in development: While some flagship-
class missions such as the James Webb Space Telescope include 
technology development needed for the success of the mission in the 
formulation stage of the project, much of SMD's technology development 
occurs in programs separate from flight projects. For example, the 
Earth Science Technology Program comprises the Instrument Incubator 
Program, the Advanced Technology Initiative program, and the Advanced 
Information System Technology program all upstream-and independent-from 
specific flight projects. The Earth Science Technology Office has 
examined the Earth Science and Applications from Space decadal survey 
and is targeting its solicitations and technology investments to enable 
the missions identified in that survey. The Planetary Instrument 
Definition and Development research element in SMD's Planetary Science 
Division, the Living with a Star Targeted Research and Technology 
research element in SMD's Heliophysics Division, and the Strategic 
Astrophysics Technology research element in SMD's Astrophysics Division 
do similarly. The Agency-level technology program proposed in the 
President's FY 2011 Budget Request is designed to enable future 
missions with advanced technologies outside of and in advance of the 
specific benefiting flight projects.
    Funded at a level of five percent of SMD budget: The sum of SMD 
technology investments solicited through the Research Opportunities in 
Space and Earth Sciences (ROSES) omnibus solicitation, including the 
focused technology programs named above and suborbital research 
programs exceeds five percent of the SMD budget. When adding the 
technology development activities within flight projects--many of which 
will also benefit future flight projects--the total SMD technology 
investment approaches ten percent. While the portion of the FY 11 
proposed Agency-level technology program that will benefit SMD is yet 
to be determined, at a planned investment level on the order of $1 
billion annually, the positive benefit to future SMD missions is likely 
to be substantial.
    Include competitively awarded grants and contracts: The SMD 
technology programs named above consist largely of competitively 
awarded grants and contracts. As with all SMD solicitations, these are 
open to academia, industry, other government labs, and other sources. 
In ROSES 2010, open competitive solicitations planned for technology 
development include:

        <bullet>  Instrument Incubator;

        <bullet>  Advanced Component Technology;

        <bullet>  Advanced Information System Technology;

        <bullet>  Living with a Star Targeted Research and Technology--
        Strategic Capability;

        <bullet>  Mars Instrument Development;

        <bullet>  Mars Technology;

        <bullet>  Planetary Instrument Definition and Development;

        <bullet>  Astrobiology Science and Technology for Instrument 
        Development;

        <bullet>  Astrobiology Science and Technology for Exploring 
        Planets;

        <bullet>  In-Space Propulsion;

        <bullet>  Astrophysics Research and Analysis;

        <bullet>  Strategic Astrophysics Technology.

    The proposed technology program managed by the NASA's OCT will also 
employ open, competitive solicitations as one mechanism to stimulate 
and garner the best ideas from the nation's technical experts.
    NASA's SMD will work closely with the OCT to coordinate activities 
and enable SMD to benefit from OCT's investments. The SMD Associate 
Administrator or designee will be a member of OCT-chaired NASA 
Technology Executive Council, and SMD has identified a Chief 
Technologist within SMD to coordinate SMD technology programs and the 
SMD interface to OCT.

Q10.  The proposed FY 2011 request includes $429 million and a total of 
about $2B over five years for a 21st Century Space Launch Complex. What 
was the process used to identify this space launch complex as a 
priority for modernization as opposed to other aging NASA facilities?

A10. The 21st Century Space Launch Complex Program at KSC is an 
initiative to focus on upgrades to the Florida launch range, expanding 
capabilities to support commercial providers, remediating environmental 
issues, and transforming KSC into a modern facility. The decision to 
focus on the Florida range was founded in part on the President's 
budget that enhances and grows our Nation's commercial space industry. 
Additionally, there has been a growing concern relative to the support 
of national security payload processing and launch capabilities with an 
aging launch infrastructure that this initiative addresses. NASA's 
infrastructure at KSC was originally designed to support the Apollo 
Program, and was later modified for the Space Shuttle. While this 
infrastructure has served America well, the retirement of the Shuttle 
presents a once-in-a-generation opportunity to use this $1.9B range 
upgrade initiative to modernize the nation's primary launch complex. 
This effort, based on the longstanding need to modernize integration 
and operations infrastructure, will be closely coordinated with the 
United States Air Force (USAF), the Federal Aviation Administration 
(FAA), other national security entities, and the commercial space user 
community in the coming weeks to develop a requirements plan. This will 
help ensure that KSC and the larger range shared with Cape Canaveral 
Air Force Station can continue to serve as a robust, flexible launch 
site for civil, military, and commercial missions for decades to come.
    NASA is working preliminary planning with commercial, the USAF and 
national security partners on the specific details of the initiative, 
but the primary focus is to make investments in overall launch and 
processing operations.

        a.  Given the Administration's proposal to cancel the Ares 
        launch vehicle program and indefinitely defer development of a 
        heavy-lift launch vehicle, is there any urgent requirement for 
        this modernization initiative and, if so, what is it?

A10a. For some modifications, it is important to begin this effort as 
soon as possible in order to effectively utilize the time between the 
retirement of the Space Shuttle and the operational availability of 
future systems to implement facilities upgrades. Other modifications, 
such as enhancing payload processing capabilities, will be helpful for 
our on-going robotic missions and therefore are beneficial as soon as 
they can be implemented. NASA has revisited previous activities that 
have addressed future launch/range technologies and capabilities (ex., 
the Launch Enterprise Transformational Study), and formed teams at KSC 
to prepare an initial list of proposed projects. In addition, Agency 
representatives have been meeting with commercial and government 
agencies/organizations to initiate relationships. NASA plans to release 
a Request for Information (RFI) in near future to request 
infrastructure and capabilities needs and associated timelines from 
potential customers. NASA will also establish Customer Advocates for 
each entity showing an interest in building relationships and 
assisting/enabling market entry, recognizing that future commercial 
users may not be limited to those currently involved in the Commercial 
Orbital Transportation Services (COTS) and Commercial Resupply Services 
(CRS) efforts.

        b.  What is the specific breakdown of the $429M requested for 
        this initiative for FY 2011 by proposed task?

A10b. While NASA is reviewing the specific tasks that would be funded 
by the $429M requested for this initiative in FY 2011, in order to 
achieve low-cost, routine, and safe access to space, the Agency must 
invest in capabilities and technologies that address:

        <bullet>  Manufacturing and Processing;

        <bullet>  Launch Operations;

        <bullet>  Interoperability among Spaceports and Ranges, 
        including common systems and open architectures;

        <bullet>  Range Tracking and Surveillance Capabilities and 
        Technologies that protect the public, but also provide test and 
        evaluation capabilities that support an engineering 
        environment;

        <bullet>  Common Communications Architectures;

        <bullet>  Flexible System Telemetry that are Internet 
        Compatible;

        <bullet>  Weather Prediction and Decision-Making Models;

        <bullet>  Inspection and System Verification Capabilities and 
        Techniques;

        <bullet>  Transportation, Handling, and Assembly Capabilities; 
        and

        <bullet>  Supply Chain Management.

    Not all of these elements would necessarily be addressed in FY 
2011, but the Agency is working with its commercial, USAF, and other 
national security partners to develop a plan forward with respect to 
specific tasks and timeframes. Below is a list of candidate projects 
that are being considered for FY 2011 and beyond. NASA will work to 
ensure that Congress is kept informed as further details are developed.

KSC Modernization Potential Projects

        <bullet>  Construction of public access to the Space and Life 
        Sciences Laboratory (SLSL) to allow for integrated business 
        partnerships and other private sector support facilities in the 
        area

        <bullet>  Exploration Park IT/Telecommunications Services

        <bullet>  Modernization of Launch Control Facility

        <bullet>  Integrate information technology advancements

        <bullet>  Renovation of Vehicle Assembly High Bay areas

        <bullet>  Modification of existing launch Pad (LC-39B) and 
        associated systems

CCAFS Range Modernization Potential Projects

        <bullet>  Development of Range/Customer interface software tool

        <bullet>  Development of NASA/CCAFS integrated transmission 
        system

        <bullet>  Partner with USAF on Launch Enterprise Transformation 
        Study

        <bullet>  Gaseous Nitrogen infrastructure on CCAFS

        <bullet>  Replace 50MHz Doppler Radar Wind Profiler

Environmental Remediation/Technology Potential Projects

        <bullet>  Remediation and Cleanup, permitting and compliance, 
        and climate change adaptation that address current issues and 
        enable growth and modernization to follow

        <bullet>  KSC-wide Land Use Controls Elimination

        <bullet>  Dune Restoration

        <bullet>  Energy projects that reduce overall operating cost 
        and comply with reduction Executive Orders

        <bullet>  R&D that contribute to environmentally responsible 
        ground operations

Payload Processing Potential Projects

        <bullet>  Astrotech Payload processing capacity improvement

        <bullet>  Provide supplemental funding to complete the 4th 
        Eastern Processing Facility bay (CCAFS) for shared use by 
        multiple NASA and NRO programs

        <bullet>  CCAFS Area 59 Satellite Processing Facility

        <bullet>  Provide a standardized payload transporter and 
        supporting infrastructure

        <bullet>  Upgrades to the Multi-Payload Processing Facility to 
        allow hazardous and compartmentalized processing on KSC

        <bullet>  Upgrade Space Station Processing Facility for non-
        hazardous civil, commercial and government/national security 
        payload processing

Questions submitted by Representative Pete Olson


Q1.  During testimony before the House Appropriation Subcommittee on 
Commerce, Justice, Science and Related Agencies on March 23, 2010, 
Administrator Bolden asserted the Ares 1 would cost $1.6 billion per 
flight and the program would cost approximately $4.5 billion per year.

        a.  What is the basis of these cost estimates'? Please provide 
        the documentation that supports these estimates.

A1. NASA recognizes that there is often confusion with regard to 
publicized flight cost estimates associated with the Ares projects, 
largely because those estimates often include different assumptions. 
One key point of confusion, for example, comes from the fact that the 
Ares I and Ares V share significant fixed costs for vendor production 
base and sustaining engineering, since both vehicles would use similar 
solid rocket boosters, upper stage engines and avionics. Therefore, 
there are two ways to consider the cost of an Ares I flight--one, where 
the Ares I fixed costs are lower because it is assumed that certain 
fixed operational costs would be shared with the Ares V, and another, 
where the Ares I fixed costs are higher because the current shared-cost 
scenario is not assumed.
    In general, NASA does not budget by flight, but rather by fixed and 
marginal costs expected on an annual basis. The fixed cost (i.e. prime 
and non-prime support labor, costs of facilities) would be the cost 
that must be incurred whether one rocket or multiple rockets are built. 
In other words, the fixed cost is absorbed by the first annual flight 
and is not counted again that year. The marginal costs, on the other 
hand, are those costs that can be cleanly attributed to the production 
of one unit, and that cost is generally the same, unit by unit. So for 
each subsequent annual flight, NASA adds on only the marginal cost, 
given that the fixed cost has already been absorbed into the first. It 
is important to note, however, that NASA's formula of calculating the 
cost of an Ares I flight (or subsequent annual flights) does not 
include the project costs for the associated support elements, such as 
ground operations, mission operations, Extra Vehicular Activity and 
program integration. Those costs would be book kept under their 
respective project lines.
    With regard to the cost per flight, NASA currently estimates that 
both Ares I and Orion account for $69M each in marginal costs for a 
flight unit, thus totaling $138M in marginal costs for each flight 
since each flight would be assumed to have a capsule and a rocket. 
However, the fixed cost per flight would vary based on whether Ares I 
and Ares V shared operational costs were assumed.
    For example, the FY 2010 budget request assumed that Ares I and 
Ares V would share some operational costs--approximately $700M per 
year, which would, in turn, equate to lower fixed costs for the Ares I. 
Therefore, under that scenario--which was provided to Congressman 
Aderholt's staff in November 2009--the total cost for the first flight 
would be $919M ($781M in fixed cost plus $138M in marginal costs) with 
each subsequent flight costing $138M extra in marginal costs, as 
outlined in the chart below:
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    However, if the assumption is that Ares I and Ares V would not 
share operational costs, it is equally true to say that the cost of an 
Ares I flight is nearly $1.6B. Under this scenario, all operational 
costs would be carried by Ares I--which would account for an 
approximate $700M increase in the fixed cost for Ares I. Thus, under 
this scenario, the total cost for the first flight would be $1.461B in 
fixed cost plus $138M in marginal costs, with each subsequent flight 
costing $138M extra in marginal costs, as outlined in the chart below:
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    NASA is unsure about the source of the number cited since there are 
similar figures often used, albeit with different assumptions included 
in each. However, judging by the hearing exchange, it seems the 
question derived from a discussion about how much it would cost to keep 
the Ares project running in FY 2011. If that is indeed the question, 
then, in order to understand the cost of the Ares I project, it is 
important to understand the full cost of the Constellation Program. 
Based on the FY 2010 budget request, NASA estimates it would cost $5.4B 
to continue the full Constellation Program, including Ares I and Orion 
development and testing, and all supporting elements (ground processing 
facilities, mission control, program integration etc.) which together 
would lead to an Initial Operational Capability for two crewed flights 
to the International Space Station per year. Of the $5.4B figure, the 
Ares I project was estimated to cost $2.1B, with Orion costing $1.8B, 
and other Constellation supporting elements equating to about $1.5B.
    The FY 2011 budget request transitions away from the Constellation 
Program. Therefore, under this assumption, if NASA were required to 
continue only the Ares I project, the cost to do so would be about $4-
4.5B--which would pay for the project elements and also include the 
full cost of all supporting elements outlined in the FY 2010 budget 
request, such as ground processing facilities, mission control, program 
integration etc. Without these supporting elements, the Ares I could 
not fly. This scenario also assumes that Orion would be cancelled, so 
close-out costs for Orion were factored into this estimate. (Note: 
Without an Orion, this scenario would not provide an IOC capability.) 
Additionally, it is important to remember that under the FY 2010 budget 
request and its five-year runout, the Constellation Program as a whole 
was expected to begin ramping up work in FY 2011, and in doing so, was 
expected to also begin assuming additional Shuttle infrastructure and 
workforce costs in addition to increased development costs, currently 
estimated to be $600-700M. Therefore, those costs are factored into the 
continuation cost estimate.

Q2.  During his speech at the Kennedy Space Center on April 15, 2010, 
president Obama directed NASA to begin developing a rescue vehicle 
using the Orion crew capsule.

        a.  What is the cost estimate for such a development?

A2a. NASA is currently assessing what it will take to develop an 
emergency crew return derivative of the Orion spacecraft, per this new 
direction from the President's April 15th address. The goal is to be as 
cost effective as possible, taking maximum advantage of the work 
performed to date on Orion design, development, and testing while 
deferring further work on systems that would provide capabilities not 
needed for emergency crew return. Once the cost estimate is finalized, 
NASA will submit a revised FY 11 budget request to the Congress.

        b.  Where in the budget will the funding come from?

A2b. It is not yet determined precisely where the funding will come 
from. The sources will be dependent on the magnitude of the estimated 
cost, which is still in work. The total proposed budget for NASA did 
not change with this new direction to develop an Orion emergency crew 
return module. Therefore, its costs will need to be offset by 
reductions to other line-items. When a funding plan is finalized, NASA 
will submit it to the Congress.

        c.  What previous programs will be displaced by this new 
        change?

A2c. NASA has not yet determined precisely where the funding will come 
from. The sources will be dependent on the magnitude of the estimated 
cost, which is still in work. The total proposed budget for NASA did 
not change with this new direction to develop an Orion emergency crew 
return module. Therefore, its costs will need to be offset by 
reductions to other line-items. When a funding plan is finalized, NASA 
will submit it to the Congress.

        d.  How would such a vehicle get to the International Space 
        Station?

A2d. The Orion crew emergency return module will launch un-crewed as a 
payload on a yet-to-be determined expendable launch vehicle. The Orion 
will then utilize autonomous rendezvous and docking technology similar 
to the European Space Agency's Automated Transfer Vehicle (ATV) and 
Russian Progress spacecraft, or autonomous rendezvous with Remote 
Manipulator System capture/berthing such as the Japanese HII Transfer 
Vehicle (HTV) and as planned for the NASA COTS cargo vehicles.

        e.  Given that NASA will have to use the Russian Soyuz capsule 
        for crew access to the International Space Station, what 
        additional capability would an Orion-based crew lifeboat 
        provide?

A2e. As part of the President's new plan for NASA, the development work 
already performed on this capability will be re-oriented to meet the 
important safety requirement of providing stand-by emergency escape 
capabilities for astronauts on the Space Station. We will be able to 
launch this vehicle within the next few years, enabling an American 
crew escape capability that will increase the safety of our crews on 
the Space Station, reduce our dependence on foreign providers, and 
simplify requirements for other commercial crew providers. This effort 
will also help establish a technological foundation for future 
exploration spacecraft needed for human missions beyond low Earth 
orbit.

Q3.  How will NASA flight-qualify a human-rated Orion-based crew rescue 
vehicle?

A3. Safety is and always will be NASA's number one core value. 
Therefore, NASA will ensure that any vehicle that carries U.S. 
astronauts meets stringent safety standards.
    The preliminary qualification plan for the Orion emergency return 
module will be determined as part of the cost estimating exercise which 
is currently in process. The qualification plan will meet applicable 
human rating requirements for the emergency crew return mission. As 
with the baseline Orion project, the emergency return variant will be 
qualified using a combination of model-based analysis and ground 
testing. Currently, flight testing will be done as part of its 
operational development. The Orion emergency crew return module will be 
fully certified before any potential use for ISS escape.

Q4.  If Congress does not appropriate the $312M requested in the FY 
2011 budget for commercial cargo, will that in any way effect the 
ability of the COTS providers to fulfill the current, existing 
obligations of the CRS contract?

A4. The $312M would be utilized to help improve the chance of mission 
success of NASA's current commercial cargo program by adding or 
accelerating the achievement of already-planned milestones, adding 
additional capabilities, or tests that may ultimately expedite the pace 
of development of cargo flights to the ISS. The funds could be utilized 
to add additional tests or capabilities for risk reduction purposes or 
to evaluate the benefits of accelerating hardware fabrication and 
assembly of long-lead items.
    Both the COTS and CRS contractors are legally required to meet 
their milestones and deliver services under the terms of their 
agreements.
    It should be noted that on June 29, 2010, the Summary of NASA-
Related Provisions from the FY 2011 Senate-Reported Commerce, Justice, 
Science and Related Agencies Appropriations Bill included the following 
wording, ``The major feature of the House Appropriations Subcommittee 
markup is that it `fences' all Exploration funds, with the exception of 
$306M for Commercial Cargo, `subject to enactment of legislation 
authorizing human spaceflight activities in FY 2011.'''

Q5.  During his speech at the Kennedy Space Center on April 15, 2010, 
president Obama asserted his plan would add more than 2,500 jobs along 
the Space Coast in the next two years compared to the plan under the 
previous administration.

        a.  What is the basis for this assertion? Please provide the 
        supporting documentation for this analysis.

A5. NASA has committed to provide Congress an updated Workforce 
Transition Strategy by August 2010. That document will fulfill NASA's 
statutory requirement to provide detailed workforce estimates to the 
Congress. The basis for the above assertion is work done in preparation 
for that public document. The specific number used was derived from the 
work that was done by NASA's Office of Independent Program and Cost 
Evaluation, but used different assumptions.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The FY 2010 plan, which included retirement of the Space Shuttle 
and little need for build-up of workforce for Constellation launches, 
shows a drop of nearly 7,000 in total workforce demand in Florida, from 
just over 14,000 total contractors needed in 2010 to approximately 
8,500 needed in 2012. These estimates include direct labor and support 
labor in Florida, both contractor and civil servant, for both FY 2010 
and FY 2011 President's budget request (PBR) plans.
    The FY 2011 PBR plan extends the Space Shuttle three months, and 
locates a large amount of work in Florida, including but not limited to 
the 21st Century Space Complex construction and the program office for 
the Commercial Crew Program. Additionally, the proposed plan nominates 
Kennedy Space Center as the deputy program office for the new Flagship 
Technology Demo program, which will bring some additional workforce 
demand. The estimates are that workforce demand for the FY 2011 PBR 
plan will begin and remain higher than the FY 2010 plan, starting at 
nearly 15,000 needed and falling to approximately 12,000 needed in 
2012. This is an increase of as much as 3,500 over the FY 2010 plan, 
depending on assumptions of how much design and manufacturing work the 
commercial crew providers locate in Florida.
    NASA will continue to refine these estimates as program definition 
matures in preparation for the August 2010 Workforce Transition 
Strategy report submitted to Congress.

Methodology:

    This methodology was used on both the FY 2010 plan and the FY 2011 
PBR plan for comparative purposes. To calculate civil service, support, 
and prime contractor workforce in Florida, we began with dollars for 
each relevant program. First, the cost of the civil servants is 
accounted for. Second, it is assumed that the prime contractor will 
subcontract 33 percent of the procurement dollars. As it is unknown 
where these subcontractors will be located, this funding is assumed to 
create no jobs in Florida. The remaining 67 percent is divided, on a 
per-program basis, to each center.
    We then use the American Community Survey to estimate the average 
salary in Florida for aerospace engineers and technicians. We assume a 
``wrap'' cost--the cost of health care, management, facilities, and 
profit--of 100 percent of the average salary. For each program, we 
estimate a percentage of workforce that will be engineers and a 
percentage that will be technicians. Finally, we divide the previously 
calculated procurement dollars by the wrapped average salaries to 
obtain an estimate of the number of jobs for each program, and add up 
the Kennedy Space Center supplied jobs to determine an estimate for 
Florida.

Q6.  During his speech at the Kennedy Space Center on April 15, 2010, 
president Obama proposed a $40M initiative to develop a plan for 
regional economic growth and job creation.

        a.  Is that $40M from NASA's budget? If so, from where in 
        NASA's budget will the funding come from?

A6a. Yes, the $40M will come from the Constellation Transition budget.

        b.  What previous NASA programs will be displaced?

A6b. Only the Constellation Transition budget will be reduced.

Q7.  Why was 2015 chosen as an appropriate date for making a decision 
on a new heavy lift launch vehicle? What new technologies are expected 
to be developed between now and 2015 that will support such a decision?

A7. During his visit to KSC, the President specifically recognized the 
need for a heavy lift launch capability to carry humans beyond LEO by 
requiring a decision on a vehicle design no later than 2015. Such a 
decision would include setting performance goals, identifying lift 
capability and selecting the general vehicle design--work that will 
ultimately lay the path for launching a spacecraft for crewed missions 
into deep space. The 2015 milestone was chosen to make sure that 
critical technologies for realizing affordable propulsion systems were 
well underway prior to committing to launch vehicle architecture.
    The FY 2011 budget request includes funds for NASA to conduct the 
important R&D and analysis necessary to make an informed decision on a 
heavy-lift vehicle no later than 2015. This effort will primarily focus 
on the development of a U.S. first-stage hydrocarbon engine for 
potential use in future heavy lift (and other) launch systems, as well 
as basic research in areas such as new propellants, advanced propulsion 
materials manufacturing techniques, combustion processes, propellant 
storage and control, and engine health monitoring. Additionally, NASA 
will initiate development and testing of in-space engines. Areas of 
focus could include a liquid oxygen/methane engine and low-cost liquid 
oxygen/liquid hydrogen engines. This work will build on NASA's recent 
R&D experience in this area, and the test articles will be viewed as a 
potential prototype for a subsequent operational engine that would be 
re-startable and capable of high acceleration and reliability. These 
technologies will increase our heavy-lift and other space propulsion 
capabilities and significantly lower operations costs--with the clear 
goal of taking us farther and faster into space consistent with safety 
and mission success criteria. In support of this initiative, NASA will 
explore cooperative efforts with the Department of Defense and also 
develop a competitive process for allocating a small portion of these 
funds to universities and other non-governmental organizations. This 
research effort along with many of our new technology initiatives will 
be coordinated with the broader Agency technology initiative led by 
NASA's new Chief Technologist.
    More specifically, the FY 2011 budget request challenges us to 
develop the necessary capabilities to send Americans to places that 
humans have not explored before, including longer stays at exciting new 
locations on the Moon, near-Earth objects, strategic deep space zones 
called Lagrange points, and the planet Mars and its Moons. We have not 
sent people beyond LEO in 38 years, and this budget gives us the great 
opportunity to focus on scouting and learning more about destinations 
to further explore our solar system and to develop the game-changing 
technologies that will take us there. It is important that we pursue 
these objectives to continue leading the world in human space 
exploration.
    While we cannot provide a date with certainty for the first human 
visit to Mars, we can identify essential capabilities needed for such a 
mission. These are outlined in the programs within this budget request. 
They are capabilities that have been recommended consistently for at 
least 24 years in national level reports of committees and commissions 
addressing future human space exploration. For example, NASA will begin 
development of high power electric propulsion and nuclear thermal 
propulsion systems to reduce mass launched to low Earth orbit; in-space 
propellant storage and transfer systems to enable refueling of 
interplanetary transfer vehicles; closed-loop life support systems to 
reduce consumables such as water and oxygen on long-duration missions; 
advanced habitat systems incorporating inflatable structures and 
radiation shielding to increase crew living space and improve safety; 
aerocapture systems to reduce the mass of propellants required for 
braking into Mars orbit; and advanced telerobotics to allow astronauts 
in orbit to control robots on the surface of Mars before the crew 
lands.
    On May 3, 2010, NASA issued a Request for Information (RFI) seeking 
general information regarding potential launch or space transportation 
architectures (expendable, reusable, or a hybrid system) that could be 
utilized by multiple customers (e.g., NASA, commercial and other 
Government agencies). The RFI solicits information regarding propulsion 
system characteristics; technology challenges related to liquid 
chemical propulsion systems; as well as innovative methods to manage a 
heavy-lift development program to include effective and affordable 
business practices. The RFI is open to the broad space community, 
including commercial, other Government agencies and academia. 
Information obtained from the RFI will be used for planning and 
acquisition-strategy development for current heavy-lift planning 
activities, funded at a total of $100M in the FY 2010 Consolidated 
Appropriations Act (P.L. 111-117).
    On June 29, 2010, NASA issued a Broad Agency Announcement (BAA) 
seeking proposals and industry input on heavy-lift system concepts and 
propulsion technology. NASA is seeking an innovative path for human 
space exploration that strengthens its capability to extend human and 
robotic presence throughout the solar system. The information also may 
help lay the groundwork for humans to safely reach multiple potential 
destinations, including asteroids, Lagrange points, the moon and Mars. 
The total funding available under this announcement is approximately 
$8M; maximum individual contract award is $625,000. The deadline for 
submitting proposals is July 29, 2010.

Questions submitted by Representative Marcia L. Fudge

Q1.  I strongly support the extension of the life of the International 
Space Station (ISS) and increases in funding for conducting scientific 
research on the ISS. Effective management and leadership for ISS 
Research are critical for the effective utilization of the ISS for 
science. Glenn Research Center has preeminent capabilities for managing 
and conducting collaborative research and extensive experience in these 
efforts. What leadership roles and responsibilities and funding are 
being provided to Glenn for ISS Research?

A1. The President's FY 2011 budget proposes $50M for basic science and 
technology research on the ISS. Currently, within this account, 
research projects are funded at Glenn Research Center (GRC), Kennedy 
Space Center, Marshall Space Flight Center, Johnson Space Center, and 
Ames Research Center, all of which have preeminent capabilities for 
managing and conducting collaborative research and extensive experience 
in these efforts. The specific sub-allocation to GRC in FY 2011 will be 
determined later this year during the annual budget process. 
Historically, GRC has received a significant proportion of available 
funds based on GRC's leadership role on two research facilities already 
deployed on the ISS--these include: (1) the Combustion Integrated Rack; 
and, (2) Fluids Integrated Rack. In FY 2010, approximately $17M was 
allocated to GRC to operate, maintain, and utilize these facilities for 
scientific research, as well as to conduct crosscutting technology 
development on packed bed reactors and two-phase flow separation.

Q2.  Additional funding in the FY 2011 Budget Request is provided for 
upgrading ISS capabilities and demonstration of new technologies on the 
ISS. Power is a critical capability for both the ISS and future NASA 
science and exploration missions. Glenn Research Center is eminently 
qualified to lead upgrades of the ISS power system and demonstrations 
of exciting new power technologies on the ISS. What roles and 
responsibilities and funding are being provided to Glenn for these 
efforts?

A2. On February 1, 2010, a call was issued to all NASA field 
installations, including GRC, to propose new concepts for using ISS as 
a test bed for the research, development, test and evaluation (RDT&E) 
of next-generation technologies. The response from GRC included a 
variety of technologies in areas such as power generation, propulsion, 
optical communications, cryogenics, and robotics. These concept 
proposals are currently in the evaluation process and a determination 
will be made by the end of this fiscal year regarding which 
technologies will be funded for research and development in FY 2011.
    Upgrades to the International Space Station power systems are not 
planned at this time. Investments in developing better power systems 
for future human spaceflight activities and science missions are part 
of the President's FY 2011 request for the NASA Exploration Systems 
Mission Directorate and the Office of the Chief Technologist. Over the 
next five years, ESMD plans to invest $34M in advanced batteries and 
fuel cells to power spacecraft, robots, and space suits, and $49M to 
demonstrate technologies for fission power systems that could be used 
for nuclear electric propulsion or power plants on the surface of Mars. 
GRC will lead these two projects to develop new power system 
technologies. Many of these power technologies could have terrestrial 
applications for electric vehicles and the smart electrical grid. The 
Space Technology program is planning on issuing open solicitations in 
FY 2011 for potential disruptive technologies that could enable power 
generation, collection and distribution capabilities, whether on-board 
a flight vehicle, a habitat, or, on planetary surfaces.

Q3.  The FY 2011 Budget Request includes significant funding for a 
technology development and demonstration program to reduce the cost and 
expand the capabilities of future exploration activities. Glenn 
Research Center is exceptionally well qualified to develop and 
demonstrate critical power, propulsion, communications and in-orbit 
refueling and storage technologies to achieve these goals. What 
leadership roles and responsibilities and funding are being provided to 
Glenn to develop and demonstrate these technologies, particularly in-
orbit refueling and storage?

A3. Glenn Research Center (GRC) employs more than 1,600 civil servants: 
scientists and engineers comprise more than half of the workforce, with 
technical specialists and other skilled workforce focused on space 
flight systems development, aeropropulsion, space propulsion, power 
systems, nuclear systems, and communications. Center capabilities that 
will be tapped in the President's new program include expertise in 
space flight systems, power and propulsion, program management, and 
technology innovation, development, and transfer. In April 2010, the 
Agency announced planned major program assignments across the Agency's 
Center for new or extended activities proposed as part of the 
President's FY 2011 budget request. Establishment of program offices 
and initiation of effort in support of new and extended activities for 
this proposed new work is contingent upon Congressional approval of the 
President's FY 2011 request for these activities. Specific new 
activities planned for GRC include the following:

        <bullet>  Enabling Technology Development and Demonstration 
        (ETDD) Program Office: This new program will provide a path for 
        bringing key exploration technologies to maturity from the 
        laboratory environment through ground testing, and ultimately 
        to flight testing. Initial demonstration projects are likely to 
        focus on: high-power electric propulsion; autonomous precision 
        landing; in-situ resource utilization (including lunar 
        volatiles characterization); human robotic systems (including 
        operating robots from planetary orbit); and fission surface 
        power systems. As the Program Office, GRC will coordinate and 
        manage these activities across the Nation.

        <bullet>  Space Technology Research Grants Program Office: This 
        program will meet NASA's future science and exploration needs, 
        as well as the needs of other Government agencies and the 
        commercial space sector, through technological innovation. This 
        portfolio focuses on foundational research in advanced space 
        systems and space technology performed primarily through 
        collaborative efforts between academia and NASA Centers, with 
        the option of including small business and industry partners. A 
        significant aspect of this program is the Space Technology 
        Graduate Fellowship Project which will train the next 
        generation of aerospace engineers and scientists by funding 
        NASA-related graduate student research performed on campus 
        during the academic year and research performed at a NASA 
        Center during the summer months, gaining hands-on experience. 
        Research selection for this project will be based on topics 
        that show significant promise for future application toward 
        NASA missions and strategic goals. As the Program Office, GRC 
        will spearhead the development of this approach as part of 
        NASA's new Space Technology Program.

Q4.  The Space Power Facility (SPF) at Glenn Research Center's Plum 
Brook Station is being modified to conduct large scale environmental 
testing of spacecraft and launch vehicles. Constellation hardware 
testing was planned to be the first utilization of the new capabilities 
of the facility. SPF is a world-class facility with unique 
capabilities. In light of the proposed cancellation of Constellation 
what are the plans and schedule for utilization of this invaluable 
asset for exploration and other NASA programs?

A4. The Space Power Facility at GRC's Plum Brook Station in Ohio is now 
known as the Space Environmental Test facility. Construction started on 
the facility in 2007 and is currently about 75 percent complete. The 
remaining construction is expected to be completed this October. NASA 
believes this unique facility is an invaluable asset for the Nation and 
thus, we believe that other Government customers such as the Department 
of Defense, industry and other partners may have use of this unique 
facility in the future.
    Following the release of the FY 2011 budget request, NASA 
established six study teams within ESMD to ensure we understand the 
steps (and the implications of those steps) that would need to be taken 
for an orderly transition of the Constellation Program and to plan for 
the implementation of the new Exploration program. One of these teams 
has initiated a broad survey of current Agency infrastructure and 
workforce to determine what assets could be used by the new programs 
and projects outline in the FY 2011 budget request. NASA is still 
assessing the Agency's future requirements for the Space Environmental 
Test facility and its capabilities as part of that survey.

Questions submitted by Representative Ben R. Lujan


Q1.  Administrator Bolden, thank you for testifying here today. I 
wanted to touch on the education component of the President's FY 11 
budget request. The President's budget requests $145.8 million in FY 11 
to support NASA's Education program, a reduction of about $38 million 
from the FY 10 enacted budget. Coming from a largely rural, minority-
majority state, I know firsthand that the shortage of Hispanics and 
Native American students in science, mathematics and engineering fields 
is a real problem that must be addressed. How does the Administration 
intend to preserve and expand critical minority education and outreach 
programs, such as the Minority University Research and Education 
Program, or the Motivating Undergraduates in Science and Technology 
Project (MUST)? How can Congress help to ensure that NASA continues to 
prioritize the education of our most underrepresented communities in 
STEM fields?

A1. Budget
    The President's FY 2011 budget requests $145.8M, reflecting the 
funding required to execute the Agency's education plan in FY 2011. The 
FY 2011 budget request of $145.8M for NASA Education is an increase of 
$19.7M from the FY 2010 request of $126.1M. The nearly $20M increase in 
the FY 2011 budget request will support the Summer of Innovation 
project.
    This FY 2011 budget request embeds competitive opportunities in 
NASA Office of Education core operations. In the past three years, 
Congress has appropriated funds for competitive grants supporting 
global climate change education, K-12 STEM education, and museum and 
science center activities. Competitive grants offered by the Office of 
Education in FY 2011 will include:

        <bullet>  Innovations in Higher Education STEM Education, which 
        will offer competitive awards that improve higher education and 
        workforce development;

        <bullet>  Innovations in K-12 STEM Education, providing seed- 
        grants to schools, districts, and non-profit organizations with 
        innovative approaches to improving science, technology, 
        engineering, and mathematics (STEM) teaching and learning;

        <bullet>  Global Climate Change Education (GCCE), which will 
        more actively engage community colleges and minority serving 
        institutions; and

        <bullet>  NASA Informal Education Opportunities; providing 
        funds to science and museums and planetariums.

Reaching Underserved and Underrepresented Audiences
    NASA remains committed to ensuring that its education program 
participants reflect the diversity of the Nation, in terms of race, 
ethnicity, gender, and geography. NASA's education activities are 
inclusive of all, but several are specifically designed to appeal to 
and attract underserved and underrepresented audiences. NASA funding 
for the Minority University Research and Education Program (MUREP) 
remains a priority. In FY 2011, MUREP will continue to support students 
and faculty at Minority Institutions (MIs), including Historically 
Black Colleges and Universities (HBCU), Hispanic Serving Institutions 
(HSI), and Tribal Colleges and Universities (TCU), to strengthen their 
research capabilities and provide opportunities that attract and 
prepare increasing numbers of underrepresented and underserved students 
for NASA-related careers. The specific objectives of MUREP are to:

        <bullet>  Contribute to and promote the development of research 
        and academic infrastructure for MIs in areas of strategic 
        importance to the NASA mission.

        <bullet>  Improve the capabilities of MIs to gain support from 
        sources outside of MUREP.

        <bullet>  Increase the participation of underrepresented and 
        underserved students in NASA research and education 
        opportunities.

        <bullet>  Increase the number of underrepresented and 
        underserved students in STEM disciplines and careers by 
        providing scholarships, fellowships and internship 
        opportunities.

    MUREP projects such as the Motivating Undergraduates in Science and 
Technology (MUST) will continue to provide competitive scholarship and 
internship opportunities for undergraduate students specifically 
targeting rising sophomores and juniors from underrepresented and 
underserved groups in STEM disciplines. MUST is administered in 
collaboration with the Hispanic College Fund, Inc. The most recent MUST 
cohort of 100 students included 53% Hispanics, 26% African Americans 
and 4% Native Americans. Students perform well academically (overall 
grade point average for this cohort was 3.74 on a 4.0 scale), and 
former MUST participants have been very successful in achieving 
employment with NASA. In NASA's ``Early Career Hiring Initiative,'' 
MUST scholars successfully competed for 38 of 173 available positions.
    The Curriculum Improvement Partnership Award for the Integration of 
Research into the Undergraduate Curriculum (CIPAIR) project represents 
NASA's largest outreach effort to community colleges. Two-year colleges 
must be the lead or partner on each CIPAIR award. CIPAIR helps two-year 
and four-year MIs strengthen their STEM curricula in order to attract 
more students into STEM-based academic programs, retain them, and 
prepare them for advanced academic or career success. A current CIPAIR 
partnership is between the University of Texas at San Antonio and San 
Antonio College, both HSIs. They are partnering to infuse and enrich 
their engineering and earth sciences curricula with NASA-related 
technology and research, so that predominantly Hispanic students from 
both institutions are able to participate in NASA research and 
education experiences. The relationship is also improving the 
engineering ``2+2 pipeline'' for students beginning study at community 
college and graduating from the four-year university.
    A new project in MUREP, Innovation in Global Climate Change 
Education (GCCE), is based on the previously offered competitive grants 
opportunity. This project will improve research and undergraduate-level 
education in the area of global climate change. Competitive grants to 
MIs will foster collaborations between NASA and awardees, and ensure 
that work of the grantee is well integrated with other relevant Earth 
System science education and research efforts within the NASA Science 
Mission Directorate. GCCE objectives are to:

        <bullet>  Improve the teaching and learning about global 
        climate change through collaborations with MIs.

        <bullet>  Increase the number of undergraduate students at MIs 
        using NASA Earth observation data/NASA Earth system models to 
        investigate and analyze global climate change issues.

        <bullet>  Increase the number of undergraduate underrepresented 
        and underserved students prepared for employment and/or to 
        enter graduate school in technical fields relevant to global 
        climate change.

    Space Grant is similarly increasing its work with minority serving 
higher education institutions and community colleges. For example, the 
Wisconsin Space Grant Consortium is currently partnering with the 
College of Menominee Nation to offer the ``First Nations Tribal College 
Sounding Rocket Competition.'' The first stage of the competition will 
include evaluation of students' oral reports (April 30, 2010). The 
second stage will be the actual rocket competition, the first-ever 
national rocket competition for tribal colleges. Thirty-one students 
and faculty advisors are scheduled participate in the event, to be held 
in Kansasville, WI on May 1, 2010. The third stage of competition will 
consist of final reports given after all payload data is analyzed. To 
increase engagement of Native American students at majority 
institutions, a separate competition division is being considered for 
future years.
    Space Grant is also leveraging its national reach and academic 
infrastructures to support NASA's K-12 education program. Four Space 
Grant consortia were recently announced as recipients of awards for the 
2010 Summer of Innovation pilot targeting middle school learners: New 
Mexico, Wyoming, Idaho, and Massachusetts. Two of the awards are of 
special interest with respect to reaching Hispanic and Native American 
students and educators. The New Mexico Space Grant Consortium will 
implement a ``Launch and Learn,'' project for middle school teachers 
and students. In this project, participants will design and build 
experiments that study science and engineering problems in suborbital 
space. Activities will include launching the experiments on a sounding 
rocket. A strong element of the proposal was the inclusion of New 
Mexico's underserved and underrepresented populace. The Idaho Space 
Grant Consortium award funds ``NASA Education and STEM Program for 
Underrepresented Populations.'' This activity will build physics 
knowledge and skills in contexts with Native American cultural 
relevance and sensitivities. Middle school students in Idaho, Montana 
and Utah will study topics related to NASA's planetary science, 
robotics, space exploration and aeronautics missions. Students will be 
drawn from schools on tribal reservations in Idaho, Montana and Utah, 
and three additional locations in southern Idaho.

Questions submitted by Representative Rob Bishop


Q1.  A Department of Defense report, completed by the Industrial Policy 
office of the Undersecretary of Defense for Acquisition, Technology and 
Logistics, dated June 2009, entitled ``Solid Rocket Motor Capabilities 
Report to Congress'' at page 47, states that a ``delay'' in the NASA 
Ares I rocket program ``could have significant negative impact[s] on 
the large SRM prime contractor industrial base and on some of the SRM 
subtier base, specifically material suppliers.'' Did you, or anyone in 
top NASA management, specifically consult with the Department of 
Defense on the industrial base impacts of a Constellation cancellation 
decision on the shared defense solid rocket motor industrial base prior 
to making your recommendation to the President? If so, please provide 
details as to who at NASA was involved in those consultations, and 
describe the nature and extent of those consultations, and which 
Department of Defense officials were consulted.

A1. Per Section 306 of OMB Circular A-11, ``Communications with 
Congress and the Public and Clearance Requirements,'' NASA cannot relay 
budget formulation discussions within the Administration. However, NASA 
would like to emphasize that our Nation's space partners communicate 
frequently with regard to the Federal Government space enterprise. NASA 
will continue to work closely with our other Government partners, 
including the Department of Defense as planning for FY 2011 
implementation moves forward. For example, discussions are under way at 
all levels about ensuring we carefully consider and maintain the space 
industrial base, particularly with regard to NASA's discontinued use of 
solid rocket fuel and motors following the cancellation of 
Constellation. Several recent studies in this area, coupled with 
current dialogue in the Government's Solid Rocket Motor Industrial Base 
Interagency Task Force and several other joint forums, also address the 
this important area and NASA will continue to work to resolve any 
integrated issues in these joint forums at all levels.
    Additionally, NASA Administrator Bolden has consulted with his 
colleagues at the Department of Defense and the National Reconnaissance 
Office. In particular, the Administrator has had several meetings with 
Secretary Donley, General Kehler, and General Carlson, and he plans to 
continue to meet with them, as program decisions are made and we gain 
additional insight into the potential relevance to the space industrial 
base.

Q2.  Now that NASA is presumably more aware of the shared industrial 
base concern with the Department of Defense, are you presently engaged 
in, or do you plan to have, specific consultations with the Department 
of Defense and/or the United States Air Force on how to preserve the 
critical Solid Rocket Motor shared industrial base?

A2. As noted in the response to Question 1, NASA will continue to work 
closely with our other Government partners, including the Department of 
Defense, as planning for FY 2011 implementation moves forward. For 
example, NASA is working with Defense officials to develop a plan to 
maintain the intellectual and engineering capacity, including key 
workforce skills, to support next-generation rocket motors as needed. 
The task force is co-chaired by the Office of the Secretary of 
Defense's Acquisition, Technology, and Logistics office and NASA and 
includes representatives from the Department of Defense, NASA, the 
Missile Defense Agency, the Air Force, the Army, and the Navy.
    NASA has not conducted any formal assessments in these areas. 
However, NASA worked with Defense officials to develop a plan to 
maintain the intellectual and engineering capacity, including key 
workforce skills, to support next-generation rocket motors as needed. 
The task force is co-chaired by the Office of the Secretary of 
Defense's Acquisition, Technology, and Logistics office and NASA and 
includes representatives from the Department of Defense, NASA, the 
Missile Defense Agency, the Air Force, the Army, and the Navy. This DOD 
report, entitled ``SRM Industrial Base Interim Sustainment Plan'' was 
released to Congress this month.

Q3.  Is preservation of the shared solid rocket motor industrial base a 
concern for NASA management, and if so, please provide your preferred 
recommendations on how to best sustain this critical shared industrial 
base.

A3. The health of the shared solid rocket motor industrial base is a 
concern for NASA management because this industrial base is critical 
ensuring that the Agency can safely complete the remaining Shuttle 
flights. However, at this time, the Agency is unclear about its future 
needs for solid rockets given that the FY 2011 budget request is 
focused on developing transformative heavy-lift technologies, including 
new propellants. However, concept heavy-lift vehicles could include 
solid rocket motors as well as liquid strap-ons and all concepts will 
be evaluated during a rigorous systems analysis effort to identify the 
best configuration to meet the Nation's needs.

Questions submitted by Representative Gary C. Peters


Q1.  Mr. Bolden, I understand NASA awarded a $1.75 million grant to Dr. 
Jack Bergman for a space radiation study involving the use of live 
squirrel monkeys. NASA has justified this research by stating that 
``there is no information regarding the effects of space radiation on 
CNS function in non-human primates.'' But haven't there been previous 
studies conducted by NASA and the U.S. Air Force examining the 
cognitive and behavioral effects of space radiation exposure on non-
human primates? Why is this study necessary?

A1. There is no information regarding the effects of space radiation on 
central nervous system (CNS) functioning in non-human primates that 
NASA can use to establish space radiation exposure limits to protect 
crewmembers.
    In the 1960s, the U.S. Air Force and NASA collaborated on research 
with rhesus monkeys studying X-rays and protons of energies 
representative of solar flares. Exposures were carried out in 1965 and 
1966; however the monkeys were followed up for possible health 
consequences for their remaining lifetimes. The study ended in the 
early 1990s. The initial research was vital to the Apollo program to 
understand the immediate health consequences of possible solar flare 
exposure to the Apollo astronauts. A historically large solar event 
occurred in August of 1972 during the gap between the Apollo 16 and 
Apollo 17 missions. It has been reported in the scientific literature 
many times that early radiation sickness and significant increases in 
cancer fatality would have occurred if one of the Apollo missions had 
taken place during the August, 1972 solar event. These health 
consequences were only understood by using the vital data sets 
previously collected under controlled experimental conditions, by the 
Air Force and NASA. These same data sets were also used to help make 
decisions on the shielding requirements for the Orion capsule. However, 
the 1960s rhesus monkey studies with protons do not provide any 
information on galactic cosmic ray (heavy ion) effects, and the 
distinctive types of biological damage they cause that are now 
recognized as the largest risks for any long-duration space exploration 
missions beyond low Earth orbit, such as trips to Mars. In addition, 
while the earlier studies provided information on cancer risks from 
radiation exposure involving solar protons (from solar particle 
events), which was appropriate for short-duration Apollo missions, the 
new research focuses on the astronaut CNS and the effects of galactic 
cosmic rays (heavy ions) on it and subsequent performance.
    With regard to the question about why NASA's proposed research is 
important, the Agency's proposed study regarding squirrel monkeys will 
study the long-term effects of space radiation in non-human primates. 
The study was selected for funding using a rigorous, independent peer 
review process, is considered necessary to understand the effects 
radiation will have on crewmembers who will participate in long-
duration spaceflight beyond low-Earth orbit. However, to clarify, while 
NASA has selected the study for award, NASA has not made the final 
award.
    Given the priority placed on astronaut health, this NASA research 
study will focus on one of the largest unknowns facing human 
exploration: the effect of space radiation on an astronaut's CNS. Only 
in very limited cases can previous NASA research involving mice and 
rats be extrapolated to humans, and there is no information regarding 
the effects of space radiation on CNS function in non-human primates. 
This research is necessary for NASA to develop radiation exposure 
limits and, if necessary, mitigation strategies for missions within the 
solar system and for long-duration stays in LEO. The study will help 
NASA protect crewmembers by setting radiation exposure standards, 
determining acceptable time limits that astronauts can be in space, and 
enabling spacecraft designers to incorporate effective shielding 
technologies.
    NASA, and the scientific community it supports, has long recognized 
its responsibility to treat laboratory animals humanely and to house 
and care for them properly. NASA well recognizes that only significant 
and necessary research should be performed on animals and such studies 
should be minimized. The Agency carefully follows all Federal 
Government laws and policies regarding the care and use of animals in 
research, including reviews by appropriate institutional animal care 
and use committees.
    Furthermore, NASA has also developed and continuously implements 
its own additional rules and processes to further ensure the humane 
treatment of any animal involved in NASA-sponsored research, both in 
NASA ground-based laboratories and in manned and unmanned space 
flights. Specifically, NASA adheres to the animal welfare principles 
articulated in the ``NASA Principles for the Ethical Care and Use of 
Animals.'' These principles, which are modeled after those created for 
the use of humans in research, were created in 1996 by a panel of 
bioethicists and animal welfare experts, as well as representatives 
from the American Society for the Prevention of Cruelty to Animals and 
the Humane Society of the United States. In the case of this proposed 
study, review by biomedical ethicists and technical experts concluded 
that the study follows the NASA guidelines.
                              Appendix 2:

                              ----------                              


                   Additional Material for the Record


<SKIP PAGES = 000>

   Additional Responses from Charles F. Bolden, Jr., Administrator, 
             National Aeronautics and Space Administration

Material requested for the record on page 20, line 409, by Chairman 
        Gordon resulting from the February 25, 2010, hearing.
    With respect to commercial cargo providers, NASA is unaware of any 
recent company statements that indicated they could get to LEO for less 
funding than expected. Currently NASA is investing $278M with SpaceX 
and $170M with Orbital Sciences for each company to develop and 
demonstrate ISS cargo transportation systems. Both companies continue 
to make progress with their demonstration programs.
    Recognizing the vital importance of the timely completion of the 
Commercial Orbital Transportation Services (COTS) development program 
and flight demonstration to meet the cargo resupply needs of the ISS, 
NASA's FY 2011 budget request includes $312 million in FY 2011 for 
incentivizing NASA's current commercial cargo program. These funds--by 
adding or accelerating the achievement of already-planned milestones, 
and adding capabilities or tests--aim to expedite the pace of 
development of cargo flights to the ISS and to improve program 
robustness.
    Industry analysts believe that the commercial crew providers may be 
able to demonstrate their capabilities earlier than a Government-
developed system, just as they are expected to develop commercial cargo 
services earlier than the Government as part of the COTS program. At a 
hearing before SCST (Science & Space Subcommittee of the Senate 
Commerce, Science, and Transportation Committee) on March 18, 2010, 
SpaceX president Gwynne Shotwell testified that her company would have 
crewed flights via its Falcon 9 and Dragon spaceflight system to the 
International Space Station within three years of award of a 
development agreement by NASA. During the same hearing, Orbital 
Sciences Corp Senior Vice President Frank Culbertson testified that 
commercially-provided crew systems could be demonstrated by 2015, if 
capital, safety, and other requirements were met. NASA, however, cannot 
verify those statements given that the Agency has not yet issued a 
solicitation for commercial crew proposals. Such information would be 
included in proposals for award and would be reviewed by NASA at that 
time. Therefore, the FY 2011 budget request builds upon NASA's 
commercial cargo efforts by providing significant funding for the 
development of commercial human spaceflight vehicles, freeing NASA to 
focus on the forward-leaning work we need to accomplish for beyond-LEO 
missions. Specifically, the budget request includes $6 billion over 
five years to spur the development of U.S. commercial human spaceflight 
vehicles.
    While it is not possible to say with certainty that commercial crew 
could be achieved more cost effectively than Government efforts, 
commercial crew services will provide many significant benefits to NASA 
and the Nation. For example, this investment funds NASA to contract 
with industry to provide astronaut and international partner 
transportation to the ISS as soon as possible, reducing the risk of 
relying solely on foreign crew transports, and frees up NASA resources 
to focus on the difficult challenges in technology development, 
scientific discovery, and exploration. We also believe it will help to 
make space travel more accessible and more affordable. An enhanced U.S. 
commercial space industry will create new high-tech jobs, leverage 
private sector capabilities and energy in this area, and spawn other 
businesses and commercial opportunities, which will spur growth in our 
Nation's economy. And, a new generation of Americans will be inspired 
by these commercial ventures and the opportunities they will provide 
for additional visits to space. NASA plans to allocate this FY 2011 
funding through competitive solicitations that support a range of 
activities such as human-rating existing launch vehicles and developing 
new crew spacecraft that can ride on multiple launch vehicles. NASA 
will ensure that all commercial systems meet stringent human-rating and 
safety requirements before we allow any NASA crewmember (including NASA 
contractors and NASA-sponsored international partners) to travel aboard 
a commercial vehicle on a NASA mission. Safety is, and always will be, 
NASA's first core value.

Material requested for the record on page 22, line 465, by Chairman 
        Gordon resulting from the February 25, 2010, hearing.
    The letters in question were sent to the Constellation contractors 
requesting estimates of their termination liability costs for the 
quarters constituting the upcoming calendar year, from April 1, 2010, 
to January 1, 2011. We do not believe the letters violated the 
conditions of the FY 2010 Appropriations Act. The Budget does request 
funding in 2011 that could be used to cover termination liability 
costs, but the Antideficiency Act prevents NASA from promising or 
spending those funds before they are appropriated.

Material requested for the record on page 72, line 1703, by Cong. 
        Kosmas resulting from the February 25, 2010, hearing.
    The Space Shuttle is an extremely capable but complicated system to 
operate, with annual fixed costs of $2.7-3.0B per year. NASA and this 
Administration are committed to safely flying out the current manifest. 
The President's budget requested an additional $600M to accommodate the 
manifest should it drift into the first quarter, FY 2011. Hardware 
required to fly out the current manifest has already been procured and 
associated production lines are shutting down as the final hardware is 
delivered. Major production contracts and production-support 
subcontracts have been terminated or are close to completion which 
makes the option of flying additional flights beyond the current 
manifest difficult. The Agency would incur costs in re-starting these 
contracts, and there would be a gap between the current manifest and 
new missions reflecting the need to manufacture and/or assemble 
components for the latter. In addition, it would be difficult to retain 
the focus necessary from the workforce to fly safely for multiple years 
with an uncertain future. If Space Shuttle is extended beyond the 
current manifest with an uncertain end, it will be extremely difficult 
to retain the personnel necessary to manage the closeout and fly 
safely. Finally, after ISS assembly and outfitting is complete the 
unique capabilities of the Space Shuttle are no longer needed, and the 
accompanying risk of flying a complicated vehicle is not warranted. 
After 2010, the primary focus would be crew transportation, logistics 
and scientific resupply. These tasks can be performed with a simpler 
and less complicated transportation system.
    The 21st Century Space Launch Complex Program at KSC is an 
initiative to focus on upgrades to the Florida launch range, expanding 
capabilities to support commercial cargo and crew providers, and 
transforming KSC into a modern facility. NASA's infrastructure at KSC 
was originally designed to support the Apollo Program, and was later 
modified for the Space Shuttle. While this infrastructure has served 
America well, ongoing concerns about its age have led the 
Administration to develop this $1.9B range upgrade initiative, based on 
the longstanding need to modernize integration and operations 
infrastructure. NASA will coordinate closely with the United States Air 
Force (USAF), the Federal Aviation Administration (FAA), and the space 
user community in the coming weeks to develop a requirements plan. NASA 
currently has a team working with the USAF and FAA on the specific 
details of the initiative, but the primary focus is to make investments 
in overall launch and processing operations. This will help ensure that 
KSC and the larger range shared with Cape Canaveral Air Force Station 
can continue to serve as a robust, flexible launch site for civil, 
military, and commercial missions for decades to come.
    While NASA is reviewing the specific tasks that would be funded by 
the $429M requested for this initiative in FY 2011, in order to achieve 
low-cost, routine, and safe access to space, the Agency must invest in 
capabilities and technologies that address:

        <bullet>  Manufacturing and Processing;

        <bullet>  Launch Operations;

        <bullet>  Interoperability among Spaceports and Ranges: common 
        systems, open architectures;

        <bullet>  Range Tracking and Surveillance Capabilities and 
        Technologies that protect the public, but also provide test and 
        evaluation capabilities that support an engineering 
        environment;

        <bullet>  Common Communications Architectures;

        <bullet>  Flexible System Telemetry that are Internet 
        Compatible;

        <bullet>  Weather Prediction and Decision-Making Models;

        <bullet>  Inspection and System Verification Capabilities and 
        Techniques;

        <bullet>  Transportation, Handling, and Assembly Capabilities; 
        and

        <bullet>  Supply Chain Management.

    Not all of these elements will necessarily be addressed in FY 2011, 
but the Agency is working with its USAF and FAA partners to develop a 
plan forward with respect to specific tasks and timeframes. NASA will 
work to ensure that Congress is kept informed as further details are 
developed.
    Kennedy Space Center will also have a new Program Office to manage 
$5.8 billion over five years, with the Deputy Program Office at 
Johnson, to foster private-sector transportation services to Earth 
orbit. In addition KSC will have a new Deputy Program Office to manage 
the $6 billion (over five years) program to demonstrate next-generation 
commercial space flight capabilities. Finally, the increased pace of 
activity from the new approach will mean more launches from KSC than 
would have happened under the old plan.

Material requested for the record on page 90, line 2150, by Cong. 
        Bishop resulting from the February 25, 2010, hearing.
    Administrator Bolden has been in contact with Mike Donley, Air 
Force Secretary and DOD Executive Agency for Space; General Bob Kehler, 
Commander of Air Force Space Command, and General Bruce Carlson 
(retired), Director of the Nation Reconnaissance Office (NRO). The 
Administrator's most recent interaction with these officials occurred 
in May.
    While the FY 2011 budget request for NASA transitions away from the 
Constellation program, it also invests significant funding to develop 
technologies and infrastructure to enable human exploration both to 
low-Earth orbit and beyond. As NASA moves forward with decisions 
regarding specific spaceflight technologies and programs, the Agency 
will gain additional insight into the potential impacts to the space 
industrial base. NASA is working in close consultation with DOD and NRO 
on the management of the National government space enterprise and will 
continue to do so. For example, discussions with DOD are already 
underway regarding NASA's FY 2011 investment in range infrastructure 
and first-stage propulsion.

Material requested for the record on page 92, line 2198, by Cong. 
        Bishop resulting from the February 25, 2010, hearing.
    The FY 2011 budget request transitions away from the Constellation 
Program, and in doing so, provides a total of $2.5B in FY 2011 and FY 
2012 for Constellation closeout and transition costs--funding that is 
expected to cover contract termination and closeout activity associated 
with facilities, environmental remediation, workforce, and prime and 
support contracts. It should be noted, however, that at present, the 
breakdown of costs is not complete. The Agency is using the current 
budget planning activities to develop the details; and an 
implementation plan and coordinated communications with NASA 
responsible offices and current Constellation contractors are required 
to further refine this estimate, which is consistent with past planning 
experience and cost estimation for the Space Shuttle Transition and 
Retirement. NASA's experience with close-out of the Shuttle program 
will serve as a useful reference for the complexity of the tasks and 
the potential associated costs. For example, costs for covering 
closeout of activities associated with facilities, workforce and prime 
and support contracts are expected to be covered by the requested 
funds.

Material requested for the record on page 100, line 2402, by Cong. 
        Posey resulting from the February 25, 2010, hearing.
    While the closeout of the Space Shuttle Program and planned 
transitioning away from the Constellation Program will result in the 
loss of those specific jobs, the new programs and funding increase in 
the President's FY 2011 request will result in potentially more total 
aerospace employment. The vast majority of NASA's budget is spent on 
workforce and once NASA can begin implementation on these new programs, 
we anticipate many new aerospace jobs to be created to align with the 
overall increase in dollars in the FY 11 Budget. NASA is fully 
committed to maintaining the full civil service workforce to help this 
nation carryout these programs. NASA is prohibited by the FY 2010 
appropriations law from reducing its civil service total. Furthermore, 
those civil servants, including headquarters civil servants, will be 
required to formulate and manage the new programs in the President's FY 
2011 budget request. Civil servants at all NASA Centers, Headquarters 
included, will be redirected from the Shuttle and Constellation 
programs to the new FY 2011 programs.

                                   

</pre></body></html>
